<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                        WEDNESDAY, MARCH 9, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:37 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Graham, Hoeven, Lankford, 
Feinstein, Udall, Shaheen, and Coons.

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

STATEMENT OF HON. ERNEST J. MONIZ, SECRETARY


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order.
    Today's hearing will review the President's fiscal year 
2017 budget request for the Department of Energy. This is the 
subcommittee's third budget hearing this year. We will have our 
final hearing on the National Nuclear Security Administration's 
budget next week.
    I would add that Senator McConnell has said to the 
Republican Caucus that he hopes we move rapidly on 
appropriations bills this year. He would like to start April 
15. He said that after he received a letter from the Democratic 
leadership, urging him to do that.
    In past years, this committee has been able to work well 
together, whether we had a Democrat or Republican chairman, and 
agree on a bill with our members in the House and be one of the 
first bills ready for consideration for the floor. I hope we 
can do that again.
    In doing that, I hope that we will have plenty of policy 
items in the budget, and I hope so-called controversial riders 
will not be added in the subcommittee or committee, so we can 
get the bill to the floor. If anybody thinks they have 60 votes 
to put something controversial on the bill, they can offer it 
on the floor or they can run for the House of Representatives. 
Those are the two ways to do that.
    [Laughter.]
    Senator Alexander. We will see. That will be our goal. I am 
hopeful we can do that.
    Senator Feinstein and I will each have an opening 
statement. I will then recognize each Senator for up to 5 
minutes for an opening statement, alternating between the 
majority and minority in the order in which they arrived. We 
will then turn to Secretary Moniz for his testimony on behalf 
of the Department of Energy. And then I will recognize Senators 
for 5 minutes of questions each, alternating back and forth.
    I want to thank the Secretary for being here. We enjoy 
working with him. He is responsive to our questions, and he is 
competent in his work. We thank him for his service to the 
country.
    Of course, it is a delight to work with Senator Feinstein 
on these important issues. We work well together. We have 
differences of opinion, but in the end, we come to a result.
    Our witness today is Secretary Moniz, who has been 
Secretary since 2013. The department's energy budget request is 
about $32.5 billion, an increase of $2.9 billion over what 
Congress provided last year.


                               priorities


    Governing is about setting priorities. Given our current 
fiscal constraints, especially on nondefense spending, we are 
going to have to make some hard decisions this year. That is 
why we are holding the hearing, to talk about the most urgent 
priorities.
    I would like to focus on three main areas, one doubling 
basic energy research; two, the future of nuclear energy; 
three, keeping large projects on time and on budget.
    I see Senator Graham here. He and all of us really are 
concerned about these large projects in the department, and we 
will get into that more later.


                     doubling basic energy research


    Doubling basic energy research, that is one of the most 
important things we could do. I think Republicans and Democrats 
agree that government-sponsored research has and continues to 
be important for our continued prosperity and job creation. 
Doubling basic energy research is a goal I have long supported. 
We have increased investment in basic energy research, both 
through our national labs and through the ARPA-E agency, which 
was created as part of the America Competes legislation 10 
years ago and passed unanimously by the Senate. It authorized 
Congress to double funding for basic research over 7 years.
    Last month, Senator Durbin and I cosponsored an amendment 
to the energy bill that is being worked on in the Senate that 
increases the authorized funding levels for the Office of 
Science by about 7 percent a year, which would double the 
Office of Science's budget from a little over $5 billion today 
to more than $10 billion in 10 years. The Senate adopted our 
amendment.
    The President has also proposed to invest more in basic 
research, including the Mission Innovation proposal, a pledge 
launched by the United States and 19 other countries at the 
climate summit in Paris to double Federal clean energy research 
over the next 5 years.
    The problem is that the President's budget request proposes 
$2.259 billion in new mandatory funding for the Department of 
Energy. The mandatory funding would be used to support clean 
energy proposals and replace several proposed cuts to programs 
that were currently funded with discretionary spending. These 
new mandatory spending proposals include $1.3 billion for the 
21st Century Clean Transportation Plan; $674 million to replace 
discretionary spending cuts in cleanup programs that is 
especially concerning to me; $100 million for new Office of 
Science university grants; and $150 million to support ARPA-E 
(Advanced Research Projects Agency--Energy).
    However, the President's commitment to double Federal clean 
energy research comes at the expense of other resources and 
agencies, and he proposes to pay for this new mandatory 
spending with new tax increases.
    This is not a realistic proposal. The budget writers know 
this. Congress is not going to enact $3.4 trillion in new tax 
increases over the next 10 years to pay for an additional $682 
billion in mandatory spending spread across Federal agencies 
over the next 10 years.
    Senator Murray and I just finished a hearing this morning 
on our biomedical innovation project, and there is mandatory 
spending discussions there to replace the increases that we 
made this past year in funding for the National Institutes of 
Health.
    This kind of budgeting is at best unhelpful, at worst 
misleading.
    First, the President has underfunded the Army Corps of 
Engineers by $1.4 billion and the cleanup of former Cold War 
sites by $674 million. That makes it very difficult to draft an 
appropriations bill, much less fund the proposed new 
investments in Mission Innovation.
    Second, while I have called for doubling our investment in 
basic research, I have also recommended paying for increases 
like that by ending subsidies for mature technologies like wind 
and oil and gas subsidies.
    For example, we could start by eliminating the wind 
production tax credit in 2016 and putting the $4 billion this 
subsidy costs taxpayers over 10 years toward doubling energy 
research, and we could phase out subsidies for oil and gas. 
Legislative proposals similar to the one I supported in 
February to repeal oil and gas subsidies save $24 billion over 
10 years, which could be spent on research and development.
    Out of control mandatory spending on entitlements, which is 
projected to increase nearly 80 percent over the next 10 years, 
is already crowding out discretionary spending. Here is the 
most important point. Over the next 10 years, discretionary 
spending, the money we are talking about to fund cancer 
research in this morning's hearing, or Office of Science 
research in today's hearing, discretionary spending, that part 
of the budget is 32 percent of total Federal spending. If 
things continue at the pace they are on, it will be 22 percent 
in 10 years, according to the Congressional Budget Office.
    So this share of the budget is going from 32 percent to 22 
percent. So the more responsible proposal about mandatory 
spending would be to reduce mandatory spending by $682 billion, 
so we could have more money for cancer research and energy 
research, rather than to propose more mandatory spending paid 
for by taxes.
    The United States faces a choice between falling further 
behind competitors or advancing technologies, but we have to be 
responsible fiscally.
    Supercomputing is one priority we agree on. It is critical 
to our competitiveness. By next year, the world's fastest 
computer will again be in the United States. I am glad to say 
it is in Tennessee through the joint collaboration of Oak 
Ridge, Argonne, and Lawrence Livermore in California. That 
computer will be called Summit. It will help researchers better 
understand materials, nuclear power, and energy breakthroughs. 
The next generation on the exascale is essential to both our 
country's competitiveness and national security.


                        future of nuclear energy


    Now, as for nuclear energy, nuclear energy provides 60 
percent of our Nation's carbon-free electricity, 60 percent, 
and it must be part of any realistic energy plan. It is 
reliable. Unlike solar and wind, nuclear power works when the 
sun is not shining and the wind is not blowing. It is safe. We 
have never had anyone die in a nuclear accident at any of our 
commercial reactors or in our naval fleet.
    The Department of Energy, Mr. Secretary, has an important 
role in many of the key challenges in advancing nuclear power, 
for example, safely extending the life of existing nuclear 
reactors already operating, the quickest and easiest and best 
way to provide ourselves with carbon-free electricity for the 
next 20 years; solving the nuclear waste stalemate, a goal that 
Senator Feinstein and I are united on; developing new nuclear 
technologies such as accident-tolerant fuels, small reactors, 
advanced reactors.
    Regarding nuclear waste, Federal law makes the Government 
responsible for disposing of used nuclear fuel. The Government 
continues to fail in this.
    I believe Yucca Mountain can and should be part of the 
solution, but we have more used fuel than Yucca Mountain's 
legal capacity. Senator Feinstein and I will again introduce a 
pilot program for nuclear waste storage in our appropriations 
bill, as we have for the past 4 years, to complement, not 
substitute, for Yucca Mountain.
    The Nuclear Regulatory Commission chairman testified they 
expect to see license applications for commercial sites to 
store used nuclear fuel later this year. I am going to ask 
about your views on the role that commercial sites could play 
in the management of used nuclear fuel.
    Finally, as we look to the future, the department is 
funding key R&D (Research and Development) that will design the 
nuclear reactors of the future, whether we are talking about 
small reactors or advanced reactor technology.


                      large construction projects


    The last item is keeping large projects on time and on 
budget. The department is responsible for some of the largest 
and most expensive construction projects in the Federal 
Government--for that matter, in the country--including the 
uranium processing facility in Tennessee and the MOX fuel 
fabrication facility in South Carolina. The department is a 
partner in the international thermonuclear experimental reactor 
known as ITER in France.
    Now that you are no longer recused from discussing fusion 
energy and you know so much about it, we are looking for your 
recommendations about what to do.
    Over the past 5 years, Senator Feinstein and I have worked 
hard with the department to keep costs under control. We have 
made some real progress with a uranium facility in Tennessee. I 
am glad to hear that the department continues to follow the red 
team's recommendation.
    It has a capped cost of $6.5 billion, and a completion date 
of 2025. And we meet regularly to make sure it is proceeding on 
time and on budget.
    Your budget request also proposes shutting down the MOX 
fuel facility in South Carolina and replacing it with a new 
plan to dispose of the plutonium in South Carolina. We have 
talked about that many times. I am sure Senator Graham will 
have questions about that, as I will as well.
    I hope to hear the details about your alternative to dilute 
the plutonium material. I want to make sure we have a clear 
plan for getting the plutonium out of South Carolina, as the 
department has committed to do.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    The Subcommittee on Energy and Water Development will please come 
to order.
    Today's hearing will review the President's fiscal year 2017 budget 
request for the Department of Energy.
    This is the Subcommittee's third budget hearing this year, and we 
will have our final hearing on the National Nuclear Security 
Administration's budget next week.
    I want to thank Secretary Moniz for being here today, and also 
Senator Feinstein, who I will be working with to draft the Energy and 
Water Appropriations bill which funds basic science research and 
discovery, as well as cleanup of former Cold War sites, and maintains 
our Nation's nuclear weapons stockpile.
    Our witness today includes Dr. Ernest J. Moniz, Secretary of 
Energy.
    Secretary Moniz has served as Secretary of Energy since May 2013, 
and I thank the Secretary for his leadership and the efforts he has 
made to work with Congress. I greatly appreciate your leadership on 
innovation and our energy future.
    We're here today to review the President's fiscal year 2017 budget 
request for the Department of Energy, a Federal agency with three 
critical missions: nuclear security, science and energy, and 
environmental management.
    The Department of Energy's budget request for fiscal year 2017 is 
about $32.5 billion dollars. This is an increase of about $2.9 billion 
over what Congress provided last year.
    Governing is about setting priorities, and given our current fiscal 
constraints--especially on non- defense spending--we are going to have 
to make some hard decisions this year to make sure the highest 
priorities are funded.
    And that is why we are holding this hearing: to give Secretary 
Moniz an opportunity to talk to us about the Department of Energy's 
most urgent priorities so Senator Feinstein and I can make informed 
decisions as we begin to put together the Energy and Water 
Appropriations bill over the next few weeks.
    Today, I'd like to focus my questions on three main areas, all with 
an eye toward setting priorities:
  1. Doubling basic energy research;
  2. The future of nuclear energy;
  3. Keeping large projects on time and on budget.
                     doubling basic energy research
    Supporting government-sponsored basic research is one of the most 
important things our country can do to encourage innovation, help our 
free enterprise system create good jobs, and make America competitive 
in a global economy.
    Doubling basic research is a goal I've long supported.
    We have increased investment in basic energy research through both 
our national laboratory system and the Advanced Research Projects 
Agency-Energy (ARPA-E), which Congress created as part of America 
COMPETES in 2007, which was passed unanimously by the Senate and 
authorized Congress to double funding for basic research over 7 years.
    Last month Senator Durbin and I co-sponsored an amendment to the 
Energy bill that increases the authorized funding levels for the Office 
of Science by about 7 percent per year which would double the Office of 
Science's budget from a little over $5 billion today to more than $10 
billion in 10 years. The Senate adopted our amendment by voice vote.
    The President has also proposed to invest more in basic research, 
including the Mission Innovation proposal--the pledge launched by the 
U.S. and 19 other countries at the Climate Summit in Paris to double 
Federal clean energy research over the next 5 years.
    The problem is that the President's budget request proposes $2.259 
billion in new mandatory funding for the Department of Energy. The 
mandatory funding would be used to support clean energy programs and 
replace several proposed cuts to programs that are currently funded 
with discretionary spending.
    These new mandatory spending proposals include:
  --$1.3 billion for 21st Century Clean Transportation Plan 
        Investments;
  --$674 million to replace discretionary spending cuts in cleanup 
        programs;
  --$100 million for new Office of Science University Grants;
  --And $150 million to support ARPA-E.
    However, the President's commitment to double Federal clean energy 
research comes at the expense of other resources and agencies and he 
proposes to pay for this new mandatory spending with new tax increases.
    The budget writers know this isn't a realistic proposal. Congress 
is not going to enact $3.4 trillion in new tax increases over the next 
10 years to pay for an additional $682 billion in mandatory spending 
across all Federal agencies over the next 10 years.
    The President's budget request this year is at best unhelpful, and 
at worst it's misleading.
    First, the President has underfunded the Army Corps of Engineers by 
$1.4 billion and the cleanup of former Cold War sites by $674 million. 
This makes it very difficult to draft an appropriations bill, much less 
fund the proposed new investments in Mission Innovation.
    Second, I've called for doubling our investment in basic scientific 
research, but I've also recommended paying for increases by ending 
subsidies for mature technologies like wind and oil and gas subsidies.
    For example, we could start by eliminating the wind production tax 
credit in 2016, and putting the $4 billion this subsidy costs taxpayers 
over 10 years toward doubling energy research.
    Or, we could phase out subsidies for oil and gas. Legislative 
proposals similar to the one I supported in February to repeal oil and 
gas subsidies could save $24 billion over 10 years, which could be 
spent on research and development.
    Out-of-control mandatory spending on entitlements, which is 
projected to increase nearly 80 percent over the next 10 years, is 
already crowding out discretionary spending.
    Over the next 10 years, discretionary spending will decrease from 
32 percent of total Federal spending in 2015 to about 22 percent in 
2026.
    The United States faces a choice between falling further behind 
competitors like China, or advancing technologies that can make us 
safer and more competitive.
    But we have to be fiscally responsible and carefully invest our 
limited resources in programs that can achieve results.
    For example, supercomputing is one priority we agree on--and it is 
critical to our economic competitiveness and a secure energy future.
    By next year, the world's fastest supercomputer will again be in 
the United States, and in Tennessee through the joint Collaboration of 
Oak Ridge, Argonne and Lawrence Livermore (CORAL).
    That computer will be called Summit, and it will help researchers 
better understand materials, nuclear power, and energy breakthroughs.
    Funding the next generation, known as exascale, is essential to our 
both our country's competitiveness and national security.
    Exascale computers will be capable of a thousand-fold increase in 
sustained performance over today's petascale computers--which have been 
operating since 2008.
                      the future of nuclear energy
    Nuclear power provides 60 percent of our Nation's carbon-free 
electricity, and it must be a part of any realistic energy plan.
    It is reliable--unlike solar and wind, nuclear power works when the 
sun isn't shining or the wind isn't blowing.
    It is safe--we've never had anyone die in a nuclear accident at any 
of our commercial reactors or in our naval fleet.
    The Department of Energy has an important role in many of the key 
challenges in advancing nuclear power, including:
  --Safely extending the life of the nuclear reactors already operating 
        today;
  --Solving the nuclear waste stalemate; and
  --Developing new nuclear technologies such as accident tolerant 
        fuels, small modular reactors, and advanced reactors.
    Safely extending the operating licenses of commercial reactors from 
60 to 80 years, where possible, is an important step to maintaining our 
largest source of carbon-free electricity.
    I'd like to hear today what the Department of Energy is doing to 
achieve this goal and whether there are any additional steps we should 
be taking.
    Regarding nuclear waste, Federal law makes the government 
responsible for disposing of used nuclear fuel, and the government 
continues to fail in this responsibility.
    I believe that Yucca Mountain can and should be part of the 
solution, but we have more used fuel than Yucca Mountain's legal 
capacity.
    Senator Feinstein and I will again include a pilot program for 
nuclear waste storage in the Energy and Water Appropriations bill, as 
we have for the past 4 years to complement Yucca Mountain.
    The NRC Chairman recently testified that they expect to see license 
applications for commercial sites to store used fuel later this year. 
I'd like to hear your views on the role commercial sites could play in 
the management of used nuclear fuel.
    Finally, as we look to the future, the Department is funding key 
research and development that will help design the nuclear reactors of 
the future.
    Small modular reactors offer an additional source of clean, cheap, 
reliable energy, and have the potential to make nuclear power available 
to places that could not otherwise build large-scale reactors. The 
Department's work to support licensing a small modular reactor 
continues, and I would like to your views on the progress of this 
important work.
    The Department is also doing research and development to address 
technical, cost, safety and security issues with advanced reactor 
technologies. I look forward to hearing the progress you are making in 
this area, and am particularly interested in your estimate for when the 
first application for certification would be filed with the Nuclear 
Regulatory Commission.
              keeping large projects on time and on budget
    The Department of Energy is responsible for some of the largest 
construction projects in the Federal Government, including the Uranium 
Processing Facility in Tennessee and the MOX Fuel Fabrication Facility 
in South Carolina; and the Department is a partner in the International 
Thermonuclear Experimental Reactor known as ``ITER'' in France.
    Now that you are no longer recused from discussing fusion energy 
and the ITER project specifically, I want to discuss the future of U.S. 
participation in the project, and when we can expect to receive your 
recommendations and details on the new cost of the project.
    Over the past 5 years, Senator Feinstein and I have worked hard 
with the Department to keep costs under control and to make sure hard-
earned taxpayer dollars are spent wisely. We need to make sure these 
projects are on time and on budget.
    Senator Feinstein and I have focused much of our oversight on the 
Uranium Processing Facility in Tennessee, and I am glad to hear the 
Department continues to follow the Red Team's recommendations.
    I look forward to a detailed update in the near future, including 
whether the project is still on time and on budget, and when the design 
will be 90 percent complete. We set a target of completion in 2025 at a 
cost of $6.5 billion and we need to know if that is achievable.
    Your budget request also proposes shutting down the MOX fuel 
facility in South Carolina and replacing it with a new plan to dispose 
of the plutonium in South Carolina. We have talked about this project 
many times.
    Today, I hope to hear the details about your alternative to dilute 
the plutonium material and permanently dispose of it. Specifically, I 
want to make sure you have a clear plan for getting plutonium out of 
South Carolina as the Department has committed to do.

    Senator Alexander. Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thanks very much, Mr. Chairman. I think 
you know that I treasure the relationship that we have, and 
particularly our ability to work closely together in solving 
some problems.
    I am not going to repeat what you said. I find myself 
generally in agreement with it. But I am really very concerned, 
because it seems to me we are between a rock and a hard place 
with this. We do not yet have an allocation, and yet there are 
a number of conflicts within this budget.
    Let me just thank you for the leadership and cooperation on 
finding a nuclear waste facility. I would be hopeful that the 
Secretary will be able to tell us in his remarks that the law 
is such that the private Texas facility can go ahead. I think 
that is extraordinarily important.
    I hope, Mr. Secretary, that you will choose to speak about 
it.
    I also want to congratulate the Secretary, because I have 
not had this chance, on his successful negotiations at the 
Paris agreement on climate change. I think it is becoming very 
clear that unless we reduce our greenhouse gas emissions, we 
are going to see catastrophic sea level rise, devastating 
droughts, more wildfires, more habitat loss, greater ranges of 
exposures for disease, and massive international refugee 
crises.
    I say that as a Californian who is now in the midst of an 
unprecedented drought with just terrible results, land 
subsidence, 888 million trees losing their capacity, 10 million 
of them dead, 69 communities without water. It goes on and on 
and on.
    So we do not want the climate to go the way it is set to 
go. It is my understanding that we must contain temperature 
rise to 2 degrees or less by 2100 or we court disaster.
    Although this is a significant and difficult challenge, I 
think it can be done. For the first time, 195 countries have 
mutually pledged to constrain their greenhouse gas emissions in 
order to slow the changes in our climate, working not only to 
avoid the 2 degree increase, but toward a goal of a 1.5 degree 
increase.
    But even the most optimistic assessment of the first round 
of international commitments is that they would still allow 
global temperatures to rise by even 2.7 degrees. That clearly 
is insufficient in terms of the danger that we prompt by so 
doing.
    Secretary Moniz, you have championed the idea of using 
technology to make this goal easier to achieve, and you have 
worked to secure pledges from 19 other countries to double 
research and development funding for technologies that can 
lower temperature rise. I understand this is known as Mission 
Innovation and that it is complemented by a private-sector 
initiative led by Bill Gates to bring these new technologies to 
the market.
    Our commitment is to double U.S. clean energy research and 
development over 5 years. Much of that needs to be funded by 
this subcommittee.
    In view of what the chairman has just said, that is going 
to be a most difficult task to carry out. As I said, we do not 
have an allocation, but the likelihood of our having sufficient 
money even to fund what we are responsible for right now that 
we cannot do based on this President's budget is alarming to 
me.
    I believe that if somehow we can get a sufficient increase 
in our allocation, that we should, in fact, make Mission 
Innovation a priority.
    But one big obstacle to achieving this is the fact that the 
administration's budget request zeros out funding for uranium 
cleanup, which was $674 million in fiscal year 2016.
    Now, that is a real Hobson's choice. There is not one of 
us, I think, that understands that uranium cleanup should be 
canceled out, and yet where is the money to come from? I gather 
the budget assumes that the cleanup program will become a 
mandatory funded program, which means it goes out of the budget 
because it is mandatory. Whatever its cost, it is paid for. But 
there is no indication this is going to happen.
    So we will have to appropriate money for those activities 
within the bounds of our overall resources unless somebody is 
able to tell us where to get $674 million.
    Also, as we deal with the impacts of climate change and 
promote infrastructure resiliency, I do not believe that 
Congress will accept the administration's proposal to cut 
funding for the Army Corps of Engineers by $1.3 billion or the 
Bureau of Reclamation by $163 million.
    These are the Hobson's choices within our budget. The Corps 
is really our only infrastructure program. It is our 
government's only navigation infrastructure account. 
Reclamation brings water to our cities and farms. And both play 
an important role in responding to climate change.
    So, Mr. Chairman and Mr. Secretary, to be brief, I have 
outlined nearly $1 billion of responsibilities for money that 
we will likely not have.
    So, Mr. Secretary, I know I speak for this whole committee. 
We would very much like to work with you and our other 
colleagues to identify the ways we can best use the funding 
that is available to develop the new technologies, specifically 
the R&D that will make the difference in our fight against 
climate change. But we also have to fund uranium cleanup, the 
Bureau of Reclamation, and the Army Corps of Engineers, in 
particular.
    I might just say that of the congressional interest, the 
Army Corps always crops up, Mr. Chairman, in requests for more 
members. I have come over the years to really believe that it 
is a very important program. It sounds kind of prosaic because 
it has always been there, but in terms of our rivers, our 
waterways, it is kind of the be-all and end-all.
    So I thank you, Mr. Chairman, and look forward to working 
with you.
    Senator Alexander. Thank you, Senator Feinstein. We will 
now have opening statements from other Senators who are here. 
Senator Lankford. Senator Murray.
    Mr. Secretary, we look forward to your testimony.

               SUMMARY STATEMENT OF HON. ERNEST J. MONIZ

    Secretary Moniz. Thank you, Chairman Alexander and Ranking 
Member Feinstein, and members of the subcommittee for the 
chance to appear here to discuss our budget proposal for fiscal 
year 2017.
    As you have said, it totals $32.5 billion in discretionary 
and mandatory spending. First, I do want to emphasize that the 
request for annual appropriations is $30.2 billion, an increase 
of 2 percent over the fiscal year 2016 enacted appropriation. 
Both the national security appropriations request and that for 
the domestic appropriations would each increase by 2 percent.
    This is supplemented, as you have mentioned, by $2.3 
billion in new mandatory spending authority, including $750 
million for R&D and $674 million for uranium enrichment D&D 
(Decontamination and Decommissioning), the latter from the USEC 
(United States Enrichment Corporation) Fund.
    I do want to emphasize that the $1.6 billion USEC Fund is 
an existing, not new, mandatory spending account. Our proposal 
is in keeping with the spirit of the current authorization that 
revenues from the beneficiaries of past uranium enrichment 
services rather than taxpayers at large be used to pay for the 
cost of D&D of the now shuttered facilities.
    Indeed, in 2000, Congress recognized the applicability of 
the USEC Fund to support Portsmouth and Paducah D&D. The USEC 
Fund is one of three Federal funds totaling nearly $5 billion 
that can be used in this manner.
    Finally, in this introduction I want to acknowledge that 
underpinning all of our priorities is stewardship of the 
department as a science and technology powerhouse with an 
unparalleled network of 17 national laboratories. We are 
working hard to strengthen the strategic relationship between 
the department and our national laboratory network.
    I also want to highlight the crosscutting R&D initiatives 
in the budget. Among these initiatives are our largest 
increases. Our proposed increases are for modernization, the 
energy and water nexus, and the exascale high-performance 
computing initiative to support everything from nuclear weapons 
to energy technologies to cancer solutions.
    The supporting budget details for each of these areas are 
provided in a 40-page statement for the record, and I request 
that it be inserted into the record and use the rest of my time 
to describe our Mission Innovation initiative and why it merits 
your support.
    The fiscal year 2017 budget includes an increase of 21 
percent in discretionary spending for clean energy R&D 
activities that support the U.S. Mission Innovation pledge. The 
President's budget proposes this 21 percent increase in 
discretionary funds within the overall discretionary budget 
cap. The mandatory request is incremental but the discretionary 
is within the cap.
    Mission Innovation is an unprecedented global initiative by 
20 countries that have pledged to seek a doubling of public 
clean energy R&D over 5 years. The Mission Innovation countries 
represent over 80 percent of global government investment in 
clean energy R&D. So this entails a highly leveraged 
opportunity to drive energy innovation.
    This is a key to cost reduction in clean energy. That in 
turn is key to increasing ambition and driving us to a clean 
energy future.
    Mission Innovation is long overdue. In 2010, the American 
Energy Innovation Council, comprised of CEOs from multiple 
sectors, recommended that the government triple its investment 
in clean energy R&D, and the council made three key points.
    First, innovation is the essence of America's strength. 
Second, public investment is critical to generating the 
discoveries and inventions that form the basis of disruptive 
energy technologies. And third, the costs of RD&D are tiny 
compared to the benefits.
    The pledge to seek to double the level of government 
investment over 5 years is ambitious but needed. Bill Gates, a 
leader of the AEIC, has recently met with a number of Members 
of Congress and has reiterated the need for greatly increased 
government-sponsored energy R&D.
    The objective of Mission Innovation is to greatly expand 
the suite of the investable opportunities in clean energy 
technologies. The United States and global clean energy markets 
have been growing rapidly and should pick up the pace even more 
as the world's nations implement the Paris agreement.
    Picking up the pace of our own clean energy innovation will 
result in commensurate benefits for our economy, environment, 
and security.
    The scope of Mission Innovation spans the entire innovation 
cycle from the earliest stage of invention through initial 
demonstrations with a weighting toward the early stages and all 
clean supply and demand technologies and infrastructure 
enablers.
    Mission Innovation is complemented by the Breakthrough 
Energy Coalition that was launched simultaneously with Mission 
Innovation. It is spearheaded by Bill Gates, launched with 28 
investors from 10 countries.
    The coalition committed to providing investment in new 
technologies originating from the expanded innovation pipelines 
in the Mission Innovation countries from early-stage R&D 
through ultimate market deployment.
    These investors are committed to a higher risk tolerance 
and patience for return than is typical combined with a 
willingness to take the most promising innovations all the way 
past the finish line to deployment. That is another important 
leveraging of Mission Innovation.
    In particular, I want to single out the fiscal year 2017 
budget proposal for $110 million to establish regional clean 
energy innovation partnerships as not-for-profit consortia 
competitively selected for a fixed period to manage regional 
clean energy R&D programs focused on the energy needs, 
policies, resources, and markets of the individual regions. The 
program design and portfolio compositions for each partnership 
will be based on regional priorities.
    As research portfolio managers, not performers, the 
partnerships will connect resources and capabilities across 
universities, industry, innovators, investors, and other 
regional leaders to accelerate the innovation process within 
each region. This approach tracks recommendations from the 
National Research Council's Rising to the Challenge, which 
noted that until very recently, U.S. Federal agencies have done 
little to support State and regional innovation cluster 
initiatives and recommended that, and I quote, ``Regional 
innovation cluster initiatives by State and local organizations 
should be assessed and, where appropriate, provided with 
greater funding and expanded geographically.''
    The Mission Innovation budget also supports increased 
investments in successful ongoing innovation programs at 
universities, national labs, and companies, such as ARPA-E, 
Energy Frontier Research centers, advanced manufacturing 
centers, bioenergy centers, advanced transportation technology, 
advanced nuclear reactor technology, and next-generation carbon 
capture technologies, to name a few.
    That concludes my summary. I thank the subcommittee for its 
interest in support of our programs. I look forward to our 
discussion and to working together over the next months.
    [The statement follows:]
               Prepared Statement of Hon. Ernest J. Moniz
    Chairmen Cochran and Alexander, Vice Chairwoman Mikulski and Vice 
Chairman Feinstein, and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the Department of 
Energy's (DOE) Budget Request for fiscal year 2017. I appreciate the 
opportunity to discuss how the Budget Request advances the Department 
of Energy's missions.
advancing nuclear security, science & energy, and environmental cleanup
    The Department of Energy requests $32.5 billion for fiscal year 
2017, an increase of $2.9 billion from the fiscal year 2016 enacted 
level of $29.6 billion. The fiscal year 2017 Budget Request consists of 
$30.2 billion in discretionary funding--$640 million above the fiscal 
year 2016 enacted appropriation--and $2.3 billion in new mandatory 
spending proposals requiring new legislation.
    The DOE Budget Request supports a broad portfolio of programs, 
including support for the National Laboratory system of 17 laboratories 
to carry out critical responsibilities for America's security and 
economy in three areas:
  --Building the Future through Science and Clean Energy;
  --Ensuring Nuclear Security; and
  --Organizing, Managing and Modernizing the Department to Better 
        Achieve its Enduring Missions.
    Underpinning all of these priorities is stewardship of the 
Department as a science and technology powerhouse, with an unparalleled 
network of national laboratories, harnessing innovation to successfully 
address national security, create jobs and increase economic 
prosperity, boost manufacturing competitiveness, mitigate and adapt to 
climate change, and enhance energy security.
    Energy has been an important driver for recent U.S. economic 
growth, due to expanded domestic energy production and reduced 
petroleum imports; increased energy efficiency and productivity; and 
significant cost reduction and expanded market application of a variety 
of clean energy generation and energy-efficient industrial, commercial 
and consumer energy products. DOE has advanced this technology-based 
energy revolution by supporting the scientific foundations of energy 
sciences and technology, clean energy and manufacturing technological 
innovation, early commercial demonstration and deployments, and new 
technologies and standards to enhance end use energy efficiency. For 
example, because of DOE technology successes, favorable policies, and 
other factors, the cost of utility-scale photovoltaic solar power fell 
59 percent and power purchase agreements for wind power fell 66 percent 
from 2008 to 2014. Yet work remains to enhance energy security and U.S. 
clean energy competitiveness while enabling global climate goals.
    The DOE fiscal year 2017 Budget Request includes a programmatic 
level of $12.9 billion for energy, science, and related programs, an 
increase of $2.8 billion from the fiscal year 2016 enacted level. The 
fiscal year 2017 Budget includes $11.3 billion in discretionary 
funding--$1.2 billion above fiscal year 2016-- and $1.6 billion in 
mandatory spending proposals to support increased investment in 
leading-edge science and technology; new research facilities to advance 
the frontiers of science; advanced manufacturing institutes; 
implementation of the Administration's strategy for nuclear waste 
management; and crosscutting initiatives to further technological 
innovation using an enterprise-wide approach to research efforts. The 
Budget Request takes steps to implement recommendations from the first 
installment of the Quadrennial Energy Review (QER), released in 2015, 
to strengthen U.S. energy infrastructures and enhance our collective 
energy security.
    The Request supports ongoing implementation of the President's 
Climate Action Plan and builds on the systems-based analysis of the 
Quadrennial Technology Review (QTR) released in 2015. The fiscal year 
2017 Budget Request also takes a significant first step toward 
fulfilling the United States' pledge to seek to double Federal clean 
energy research and development investment over the next 5 years as 
part of Mission Innovation, an initiative launched by the U.S. and 19 
other countries to accelerate widespread clean energy technology 
innovation and cost reduction. The Request provides a total of $5.86 
billion in discretionary funding for clean energy activities that span 
the full range of research and development from use-inspired basic 
research to demonstration, representing an increase in discretionary 
funding of over 21 percent above the fiscal year 2016 baseline of $4.82 
billion. DOE's funding is 76 percent of the $7.7 billion government-
wide Mission Innovation investment in fiscal year 2017.
    The fiscal year 2017 Budget Request also includes mandatory funding 
for clean energy R&D that complements activities supported by 
discretionary funding. The Request includes $150 million in mandatory 
funding for the Advanced Research Projects Agency--Energy (ARPA-E) as 
part of the ARPA-E Trust proposal that seeks $1.85 billion in mandatory 
funding over 5 years to reliably increase the program's 
transformational clean energy technology R&D. In addition, as part of 
the $1.3 billion mandatory proposal for the DOE portion of the 
Administration's 21st Century Clean Transportation Plan, the Request 
includes $500 million in fiscal year 2017 to scale-up clean 
transportation R&D through initiatives to accelerate cutting the cost 
of battery technology; advance the next generation of low carbon 
biofuels, in particular for intermodal freight and fleets; and 
establish a mobility systems integration facility to investigate 
systems level energy implications of vehicle connectivity and 
automation.
    The fiscal year 2017 Budget Request provides a programmatic level 
of $12.9 billion for the National Nuclear Security Administration 
(NNSA), $357 million above the fiscal year 2016 enacted level, to 
support DOE's nuclear security responsibilities. The Budget Request 
includes funding to maintain a safe, secure, and effective nuclear 
deterrent without underground nuclear explosive testing, including life 
extension programs for major weapons systems and modernization of the 
Nation's research and production infrastructure.
    The Request also ensures that the United States is ready to respond 
to nuclear and radiological incidents at home and abroad and supports 
programs that reduce the threats of nuclear proliferation globally, 
including supporting implementation and monitoring of the Joint 
Comprehensive Plan of Action with Iran to verifiably prevent Iran from 
obtaining nuclear weapons. Finally, DOE's Request for nuclear security 
supports activities that provide safe and effective propulsion for the 
U.S. nuclear Navy.
    The fiscal year 2017 Budget Request includes $6.8 billion for 
Departmental management and performance programs, including 
environmental cleanup programs to meet the nation's Manhattan Project 
and Cold War legacy responsibilities. The Request includes $6.1 
billion, which includes $5.4 billion in discretionary funding and 
proposes $674 million in mandatory spending from the United States 
Enrichment Corporation Fund, to uphold the U.S. Government's commitment 
to States and communities to remediate the environmental legacy of over 
six decades of nuclear weapons and nuclear research, development, and 
production. The Request supports major management reforms, including 
new project oversight, assessment, and cost estimation initiatives as 
part of ongoing efforts to strengthen effective project and program 
management across the enterprise. The Request also supports continued 
implementation of a new and improved Human Resource Management service 
delivery business model and efforts to improve information technology 
management and further strengthen cybersecurity.
                           science and energy
    The fiscal year 2017 Budget Request provides a programmatic level 
of $12.9 billion for science, energy, and related programs, which is 
$2.8 billion above the fiscal year 2016 enacted level and includes 
$11.3 billion in discretionary funding and $1.6 billion in mandatory 
spending. The Department's science and energy programs invest in all 
stages of innovation across a diverse portfolio of clean energy 
technologies to enhance economic competitiveness in a low-carbon world 
and secure America's long-term energy security. The Request takes the 
first step in fulfilling the U.S. Government's pledge to Mission 
Innovation, an unprecedented global initiative across 20 nations to 
double public clean energy research and development (R&D), in 
conjunction with commitments for private investments led by a coalition 
of 28 private investors from ten countries. The Request also continues 
to implement the President's Climate Action Plan through the 
development and deployment of clean energy technologies that reduce 
carbon pollution. Following COP-21, these investments will be a 
critical next step in enabling the transition to a low carbon energy 
future through innovation and cost reduction.
    The fiscal year 2017 Budget Request sustains DOE's role as the 
largest Federal sponsor of basic research in the physical sciences and 
constructs and operates cutting-edge scientific user facilities at the 
National Laboratories to maintain the nation's preeminence in science 
and innovation. The Request supports transformational R&D in critical 
technology areas, including advanced manufacturing, renewable energy, 
sustainable transportation, energy efficiency, electricity grid 
modernization, advanced nuclear reactors, and fossil energy with carbon 
capture and storage. The Request builds on the analytical foundation 
provided by the Department's 2015 Quadrennial Technology Review (QTR), 
as well as the recommendations of the 2015 Quadrennial Energy Review 
(QER), by funding measures to strengthen U.S. energy infrastructures 
and enhance our collective energy security posture.
           mission innovation: enabling a clean energy future
    The President's fiscal year 2017 Budget Request takes a significant 
first step toward fulfilling the U.S. pledge to seek to double Federal 
clean energy research and development investment over the next 5 years 
as part of Mission Innovation, an initiative launched by the U.S. and 
19 other countries to accelerate widespread clean energy technology 
innovation and cost reduction. It is a widely-shared view that 
innovation is essential for economic growth by providing affordable and 
reliable energy for everyone, is critical for energy security, enhances 
U.S. competitiveness, and is the key to a transition to a clean energy 
future. Each of the 20 participating countries, which together 
represent over 80 percent of global governmental clean energy research 
and development, will seek to double its governmental investment in 
clean energy research and development over 5 years. While each country 
will determine its own doubling plan and portfolio, the collection of 
countries will provide new opportunities for synergies and 
collaboration.
    The need for a substantial investment in clean energy research and 
development is clear. Many studies have examined the contribution of 
technological innovation to U.S. economic growth. In 2010, the American 
Energy Innovation Council, comprised of Chief Executive Officers from 
multiple industries, called for the tripling of energy research and 
development, citing the need for a dramatic expansion of the energy 
innovation pipeline to meet critical national priorities. Another 
report that same year from the President's Council of Advisors on 
Science and Technology also recommended accelerating the pace of 
technology innovation to meet economic competitiveness, environmental 
and energy security needs. The need for greater regional innovation 
efforts was highlighted in a 2012 National Research Council report 
calling for the establishment of regional innovation cluster 
initiatives that build upon existing knowledge clusters and comparative 
strengths of a geographic region.
    The President's fiscal year 2017 Budget takes a significant first 
step toward fulfilling the U.S. pledge to seek to double Federal clean 
energy research and development investment over the next 5 years by 
providing $7.7 billion across 12 Federal agencies, with DOE responsible 
for approximately 76 percent of that government-wide total. The DOE 
fiscal year 2017 Request provides a total of $5.86 billion in 
discretionary funding for clean energy research and development. This 
funding represents an increase of over 21 percent above the fiscal year 
2016 baseline of $4.82 billion of appropriated funds.
    The Budget supports clean energy activities that span the 
innovation spectrum from use-inspired basic research to demonstration, 
and encompasses all clean energy technologies, including renewable 
energy, energy efficiency, sustainable transportation, nuclear energy, 
fossil energy, and the electricity grid of the future. The DOE program 
components supporting Mission Innovation include elements of use-
inspired basic research sponsored by the Office of Science, ARPA-E and 
portions of the applied energy programs that support clean energy 
research, development, and demonstration activities. Overall, programs 
supporting Mission Innovation comprise slightly more than half of the 
total President's fiscal year 2017 Budget Request for science and 
energy, including ARPA-E.
    The increased investments proposed in the fiscal year 2017 Budget 
support a broad-based strategy for accelerating the innovation process. 
The strategy emphasizes investments strategically targeted to support 
innovative platforms for early stage research and technology 
development, as well as development and demonstration activities that 
target cost-reduction and advance transformational concepts that can 
achieve meaningful scale. For example, the President's fiscal year 2017 
Budget supports an expansion of promising existing programs, such as 
Energy Frontier Research Centers, ARPA-E, Clean Energy Manufacturing 
Institutes, the BioEnergy Research Centers, SuperTruck II, and advanced 
carbon capture technology pilot projects. The fiscal year 2017 Budget 
also supports new initiatives, such as $110 million to establish 
regional clean energy innovation partnerships, $45 million to expand 
R&D collaborations between innovators and small businesses and the DOE 
National Laboratories, and an advanced materials crosscutting 
initiative.
    The President's fiscal year 2017 Budget also includes mandatory 
funding for clean energy R&D that complements activities supported by 
discretionary funding. The fiscal year 2017 Budget Request includes 
$150 million in mandatory funding for ARPA-E as part of the ARPA-E 
Trust proposal for $1.85 billion in new mandatory spending authority 
over 5 years. The mandatory spending authority will complement annual 
appropriations by enabling ARPA-E to support projects of a different 
character than can otherwise be funded under the current program. For 
example, the mandatory funding will support projects that are larger in 
scale and address more complex energy challenges that have large 
transformative potential. As part of the Administration's 21st Century 
Clean Transportation Plan, the President's fiscal year 2017 Budget 
Request also includes $500 million in mandatory funding at DOE in 
fiscal year 2017 to scale-up clean transportation R&D through 
initiatives to accelerate cutting the cost of battery technology; 
advance the next generation of low-carbon biofuels, in particular for 
intermodal freight and fleets; and establish a smart mobility research 
center to investigate systems level energy implications of vehicle 
connectivity and automation.
    Mission Innovation investments will be leveraged by private capital 
that drives innovation and clean energy deployment. The initiative is 
complemented by a separate private sector-led effort, the Breakthrough 
Energy Coalition (Coalition), as increased government investment, while 
necessary, is insufficient by itself. This parallel initiative includes 
over 28 investors from 10 countries and will supplement the large and 
growing private sector investment in commercialization of clean energy 
technologies by targeting new investments at an earlier stage of the 
innovation cycle and managing these investments through the completion 
of the innovation process, including the formation of new companies and 
the commercial introduction of new products and processes. The 
Coalition will be investing in technologies and projects originating in 
the Mission Innovation participating countries.
    Together, these initiatives will drive innovation essential for 
economic growth enabled by affordable and reliable energy, for energy 
security, for U.S. competitiveness, and for a transition to a low 
carbon energy future.
   integrating science and energy programs across the doe enterprise
    The fiscal year 2017 Budget Request further strengthens DOE and its 
national missions by fully integrating across its science and energy 
programs, and across the DOE enterprise with the national laboratories 
as strategic partners.
    DOE has continued to strengthen and institutionalize its strategic 
relationship with the National Laboratories through organizations and 
forums such as the Laboratory Policy Council, the Laboratory Operations 
Board, and the annual National Laboratories Big Ideas summits, which 
convene DOE and the Laboratories on a regular basis. DOE is sustaining 
this strategic partnership through these ongoing collaborations and 
through new efforts, such as a comprehensive report on the National 
Laboratories. The Request also outlines how DOE will implement 
recommendations of the Secretary of Energy Advisory Board (SEAB) 
taskforce on the national laboratories and the Commission to Review the 
Effectiveness of the National Energy Laboratories (CRENEL). Last week, 
the Department submitted its detailed response to the final CRENEL 
report that addresses the Commission's findings and recommendations.
    The fiscal year 2017 Budget also supports DOE's crosscutting 
initiatives that leverage the science, technology, and engineering 
capabilities across programs and National Laboratory partners. DOE 
first proposed the crosscutting initiatives in fiscal year 2015 to 
enhance enterprise-wide planning and improve collaboration across 
organization boundaries for key science and technology areas with 
impact across DOE's missions. Each crosscutting initiative reflects a 
comprehensive and integrated work plan to optimize programmatic 
objectives and efficiently allocate resources. The crosscutting 
initiatives help bolster DOE's efforts to institutionalize enhanced 
program management and coordination across program offices, while 
accelerating progress on key national priorities.
    DOE has 2 years of experience with integrated planning and program 
management across program offices, enabling accelerated progress on key 
national priorities. The fiscal year 2015 and fiscal year 2016 
appropriations have provided DOE with funding for the crosscutting 
initiatives, including $1.1 billion in fiscal year 2016 coordinated 
across all three Under Secretaries. Moving forward, the fiscal year 
2017 Budget Request continues six existing crosscutting initiatives, 
and proposes a new initiative, Advanced Materials for Energy 
Innovation. Together, the initiatives closely coordinate the $1.5 
billion request, a $330 million increase, in crosscutting R&D across 
the enterprise in seven technology areas:
  --Electricity grid technology modernization accelerates the 
        development of the technologies and tools to enable 
        modernization of the grid to support U.S. economic growth, 
        environmental quality and security objectives.
  --Subsurface science, technology, and engineering coordinates efforts 
        to develop next-generation technologies for energy generation, 
        storage, and disposal applications through mastery of the 
        subsurface, with a science-based focus on advanced imaging of 
        geophysical and geochemical signals.
  --Supercritical carbon dioxide technology enables large-scale 
        commercialization of the supercritical carbon dioxide 
        (sCO<INF>2</INF>) power cycle, which has the potential for 
        higher thermal efficiencies with lower capital cost compared to 
        steam-based power systems and can provide significant benefits 
        for electric power generation, including reducing the costs of 
        carbon capture and storage.
  --Energy-water nexus accelerates the Nation's transition to more 
        resilient and sustainable coupled energy-water systems, 
        including a new effort on desalination technology and regional 
        data, modeling and analysis test beds.
  --Exascale computing, a joint Science-NNSA collaboration, 
        significantly accelerates the development and deployment of 
        capable exascale computing systems, applications and software 
        infrastructure to meet national security needs and to provide 
        next-generation tools for scientific discovery;
  --Cybersecurity protects the Department of Energy enterprise from a 
        range of cyber threats and improves cybersecurity in the 
        electric power and oil and natural gas subsectors; and
  --Advanced materials for energy innovations, which have the potential 
        to revolutionize entire industries by employing advanced 
        synthesis, modeling, and characterization to accelerate and 
        reduce the cost of materials qualification in a wide variety of 
        clean energy applications.
      science: providing the backbone for discovery and innovation
    DOE's Office of Science is the largest Federal sponsor of basic 
research in the physical sciences, supporting more than 24,000 
investigators at over 300 U.S. academic institutions and the DOE 
laboratories. The Office of Science provides the backbone for discovery 
and innovation, especially in the physical sciences, for America's 
research community.
    The fiscal year 2017 Budget Request provides $5.67 billion for 
Science, $325 million above the fiscal year 2016 enacted level, to lead 
basic research in the physical sciences and develop and operate 
cutting-edge scientific user facilities while strengthening the 
connection between advances in fundamental science and technology 
innovation. The fiscal year 2017 Budget Request includes a proposal for 
$100 million in mandatory funding for university grants that will be 
made available through a competitive, merit-based review of proposals 
solicited from and provided by the university community in the Office 
of Science mission areas.
    The Budget Request provides major increases for advanced scientific 
computing research, basic energy sciences, and biological and 
environmental research, and funding to operate the Office of Science's 
scientific user facilities at optimal levels in support of more than 
31,000 researchers from universities, national laboratories, industry, 
and international partners.
Sustaining Leading-Edge Discovery Science
    The fiscal year 2017 Budget Request sustains leading-edge discovery 
science through support for the High Energy Physics and Nuclear Physics 
programs, a 14 percent increase in investments in Scientific 
Laboratories Infrastructure, and the new $100 million mandatory 
proposal for university grants.
    In these discovery science programs, Office of Science has 
contributed to many major recent accomplishments, including 
collaborating with two international experiments that led to the Nobel 
Prize in physics for discovering oscillations in neutrinos (fundamental 
building blocks of our universe that remain poorly understood); 
contributing to the discovery of three of the four new superheavy 
elements in the periodic table; opening the most advanced storage-ring-
based light source facility, the National Synchrotron Light Source II 
(NSLS-II); and continuing effective execution of major ongoing science 
construction projects--the Linac Coherent Light Source II (LCLS-II) and 
the Facility for Rare Isotope Beams (FRIB)--on schedule and within 
budget.
    For High Energy Physics, the request provides $818 million, $23 
million above the fiscal year 2016 enacted level, to understand how the 
universe works at its most fundamental level by discovering the most 
elementary constituents of matter and energy, probing the interactions 
among them, and exploring the basic nature of space and time. The 
Request implements activities and projects based on the High Energy 
Physics Advisory Panel (HEPAP) May 2014 strategic plan, including $45 
million, an increase of $19 million, to support design for a 
reconfigured international Long Baseline Neutrino Facility hosted at 
Fermilab and initial construction for the Deep Underground Neutrino 
Experiment in South Dakota.
    For Nuclear Physics research, the Budget includes $636 million, $19 
million above the fiscal year 2016 enacted level, to discover, explore, 
and understand nuclear matter in a variety of different forms, 
including continued construction of the Facility for Rare Isotope Beams 
(FRIB).
Expanding Use-Inspired Research
    The Office of Science funds basic science programs that support 
use-inspired research towards energy and other applications. The Budget 
Request provides funding to increase operation of the National 
Laboratory user facilities to optimal levels to accommodate increases 
in Mission Innovation work. The Request also expands investments in 
foundations for key technology crosscutting areas, including advanced 
materials, the subsurface, and the energy-water nexus.
    The fiscal year 2017 Budget Request includes $1.94 billion for 
Basic Energy Sciences, $88 million above the fiscal year 2016 enacted 
level, to provide the foundations for new energy technologies, to 
mitigate the environmental impacts of energy use, and to support DOE 
missions in energy, environment, and national security by 
understanding, predicting, and ultimately controlling matter and 
energy. The Budget Request provides $143 million, an increase of $33 
million, to initiate five new Energy Frontier Research Centers (EFRCs) 
and continue to support the existing EFRCs.
    The Request provides $662 million for Biological and Environmental 
Research, $53 million above the fiscal year 2016 enacted level, to 
support fundamental research and scientific user facilities to achieve 
a predictive understanding of complex biological, climatic, and 
environmental systems for a secure and sustainable energy future, 
including an expanded focus on regional energy-water systems. The 
Request provides $90 million, a $15 million increase, to expand 
technology transfer activities during the last year of a 10-year 
program at the three existing Bioenergy Research Centers (BRC). The 
Request also includes $10 million for a new initiative in microbiome 
research that builds on the Department's experience in fundamental 
genomic science of plants and microbes to understand the fundamental 
principles governing microbiome interactions in diverse environments.
    For Fusion Energy Sciences, the fiscal year 2017 Budget Request 
includes $398 million, $40 million below fiscal year 2016. The Request 
will continue to support research to understand the behavior of matter 
at high temperatures and densities and to develop fusion as a future 
energy source. The Budget Request also includes $125 million for the 
U.S. contribution to the ITER project, a major fusion research facility 
being constructed by an international partnership of seven governments. 
The Department submitted in mid-February an interim report to Congress 
on the status of ITER, and we are scheduled to deliver a report in 
early May with recommendations related to the project.
Investing in High Performance Computing to Support Frontier Science
    The Budget Request provides $663 million for Advanced Scientific 
Computing Research (ASCR), $42 million above the fiscal year 2016 
enacted level, to support research in advanced computation, applied 
mathematics, computer science and networking, as well as development 
and operation of high-performance computing facilities.
    Under this program, DOE has implemented the President's Executive 
Order on National Strategic Computing Initiative through a multi-year 
joint program between the Office of Science and NNSA to achieve capable 
exascale computing. As part of the President's national initiative, DOE 
announced a $200 million supercomputer award for Argonne National 
Laboratory, part of a joint Collaboration of Oak Ridge, Argonne, and 
Lawrence Livermore (CORAL) initiative to develop supercomputers that 
will be five to seven times more powerful than today's fastest systems 
in the United States.
    The fiscal year 2017 Budget includes $190 million across three 
Office of Science programs, joined by $95 million in NNSA, to 
accelerate development of capable exascale computing systems with a 
thousand-fold improvement in performance over current high-performance 
computers in support of the President's National Strategic Computing 
Initiative. Within the Request, the Office of Science will transition 
exascale funding to a formal Exascale Computing Project, which will 
follow DOE project management guidelines under DOE Order 413.3b. The 
Budget also provides $46 million to re-compete the SciDAC partnerships, 
with new activities to include accelerating the development of clean 
energy technologies.
    The Request funds research on high-performance computing 
applications unique to the biomedical research community, including $9 
million for the President's BRAIN Initiative, in close coordination 
with the National Institutes of Health. This funding will bring to bear 
DOE national laboratory capabilities in big data analytics, modeling 
and simulation and machine learning to support biomedical research 
challenges in cancer and BRAIN. In other DOE science programs, the 
Request also enables development of accelerator applications, including 
advanced proton and ion beams for the treatment of cancer, in 
coordination with NIH.
      energy research, development, demonstration, and deployment
    The fiscal year 2017 Budget Request provides a programmatic level 
of $6.6 billion for energy research, development, demonstration, and 
deployment activities, of which $5.2 billion is discretionary funding--
an increase of $928 million from fiscal year 2016. The Request supports 
a diverse portfolio of energy technologies, including renewable 
electricity, energy efficiency and advanced manufacturing, sustainable 
transportation, fossil energy, nuclear energy, and a modernized grid.
    DOE recently completed the 2015 Quadrennial Technology Review 
(QTR), a systems-based analytical foundation to inform program research 
priorities across DOE's entire portfolio of energy and science programs 
by examining the most promising research, development, demonstration, 
and deployment (RDD&D) opportunities across energy technologies to 
effectively address the nation's energy needs. The 2015 QTR builds upon 
the first QTR conducted in 2011 by describing the nation's energy 
landscape and the dramatic changes that have taken place over the last 
4 years and identifying the RDD&D activities, opportunities, and 
pathways forward to help address our national energy challenges.
Improving Cost and Performance of Renewable Electricity Technologies
    DOE's fiscal year 2017 Budget Request for Energy Efficiency and 
Renewable Energy (EERE) invests $621 million in renewable energy 
generation technologies, an increase of $143 million from fiscal year 
2016. Innovations, favorable policies, and other factors have led to 
significant cost and performance improvements across the spectrum of 
renewable energy technologies, as documented in Revolution . . . Now\1\ 
report. To name a few examples, the cost of utility-scale photovoltaic 
solar power fell 59 percent from $5.70 per watt in 2008 to $2.34 per 
watt in 2014; power purchase agreements for wind power fell 66 percent 
from 7 cents per kilowatt-hour in 2008 to 2.4 cents per kilowatt-hour 
in 2014; and the median installed price of residential photovoltaic 
solar power fell 51 percent from $8.80 per watt in 2008 to $4.30 per 
watt in 2014.
---------------------------------------------------------------------------
    \1\ http://energy.gov/sites/prod/files/2015/11/f27/Revolution-Now-
11132015.pdf.
---------------------------------------------------------------------------
    The Request provides $285 million, an increase of $44 million, to 
continue the SunShot Initiative on a path to achieve solar cost parity 
without subsidies by 2020. The Budget includes $156 million for Wind 
Energy, an increase of $61 million, to continue efforts to achieve a 
16.7 cents per kilowatt-hour cost target for offshore wind by 2020, 
including $30 million for offshore wind demonstration projects and $25 
million to establish an Offshore Wind R&D Consortium.
    The Budget Request provides just under $100 million, $29 million 
above fiscal year 2016, for geothermal technologies, including $35 
million to select the final site and team for FORGE, a field laboratory 
for enhanced geothermal systems, beginning with a down-selection from 
five to three teams.
    The Request also provides $80 million for water power technologies, 
a $10 million increase, including $25 million to continue the HydroNEXT 
initiative focusing on innovative, low-cost water diversion 
technologies to enable new stream reach hydropower, to progress to a 
cost target of 10.9 cents per kilowatt-hour by 2020 from small, low-
head new stream developments. The Request also includes $55 million, 
$11 million above fiscal year 2016, to support marine and hydrokinetic 
technologies, including a grid-connected open-water test facility and 
development of concepts for revolutionary wave-energy converters.
Improving Energy Efficiency and Advanced Manufacturing Technologies
    The fiscal year 2017 Budget for EERE includes $919 million, $198 
million above fiscal year 2016, to invest in the development of 
manufacturing technologies and enhanced energy efficiency in our homes, 
buildings and industries.
    In 2015, DOE issued 13 final energy efficiency standards as part of 
the Administration's goal to reduce carbon pollution. Standards issued 
to date will achieve cumulative reduction of 2.3 billion metric tons 
cumulatively by 2030. To accelerate innovation in energy efficiency and 
manufacturing programs, DOE continues to fund R&D at the Manufacturing 
Demonstration Facility, funds continuing work at the Critical Materials 
Institute, and is implementing a total of five Clean Energy 
Manufacturing Institutes in fiscal year 2016 as part of the National 
Network for Manufacturing Innovation.
    The fiscal year 2017 Budget Request provides $14 million in EERE 
for the sixth Clean Energy Manufacturing Institute and $25 million to 
establish a new Energy-Water Desalination Hub to serve as a focal point 
for enabling technologies for de-energizing, de-carbonizing, and 
reducing the cost of desalination.
    The fiscal year 2017 Budget provides $169 million, an increase of 
$83 million, for emerging technologies that reduce building energy 
consumption, including $40 million for an R&D effort to transition to 
refrigerant technologies with low global warming potential, and the 
Budget provides $15 million for a new metropolitan systems initiative 
to use new sensing, communication and computation capabilities to 
create actionable information for decision-makers on clean energy 
issues. The Request also provides $230 million, an increase of $15 
million, to support weatherization retrofits to approximately 35,700 
low-income homes nationwide; $70 million to support State energy 
offices; and $26 million for a new Cities, Counties, and Communities 
Energy Program to provide support to local governments, public housing 
authorities, non-profits and other stakeholders to catalyze more 
extensive clean energy investments in revitalization efforts.
Advancing Sustainable Transportation
    The fiscal year 2017 Budget provides $853 million in discretionary 
funding, $217 million above fiscal year 2016, for sustainable 
transportation including vehicle, bioenergy, and hydrogen and fuel 
cells technologies.
    In fiscal year 2016, DOE will achieve high-volume modeled costs for 
batteries of $250 per kilowatt-hour--down from the current cost of $289 
per kilowatt-hour--towards a goal of $125 per kilowatt-hour in 2022 as 
part of the EV Everywhere Grand Challenge. EERE will initiate 
SuperTruck II, with up to four new competitively awarded projects to 
improve freight efficiency of heavy-duty vehicles. The programs will 
achieve at least 1.15 billion gallons per year savings from Clean 
Cities' initiatives and fund, with the Departments of Agriculture and 
Defense, three commercial-scale biorefineries to produce military 
specification drop-in fuels.
    The fiscal year 2107 Budget includes $469 million for vehicle 
technologies, $159 million above fiscal year 2016, including $60 
million to fully fund the multi-year SuperTruck II program to double 
freight truck efficiency by 2020, and $283 million, an increase of $102 
million, for continuing the EV Everywhere program to enable domestic 
production of plug-in electric vehicles that are as affordable and 
convenient as gasoline vehicles by 2022. The Budget provides $279 
million for bioenergy technologies, $54 million above fiscal year 2016, 
including $52 million to continue R&D efforts on converting cellulosic 
and algal-based feedstocks to bio-based gasoline and diesel.
    The fiscal year 2107 Budget Request includes an additional $1.3 
billion mandatory proposal for DOE to expand investments in low-carbon 
transportation technologies and fueling infrastructure as part of the 
Administration's 21st Century Clean Transportation Plan. The proposal 
for DOE would invest $500 million in clean transportation R&D, $750 
million in regional fueling infrastructures for low-carbon fuels, and 
$85 million in the deployment of clean vehicle fleets for local 
governments and first responders.
Crosscutting Innovation Initiatives for Energy
    The Request for EERE includes $215 million for new crosscutting 
innovation initiatives to enable the acceleration of clean energy 
innovation and commercialization in the United States by strengthening 
regional clean energy innovation ecosystems, accelerating next-
generation clean energy technology pathways, and encouraging clean 
energy innovation and commercialization collaborations between our 
National Laboratories and American entrepreneurs.
    The Request includes $110 million to support Regional Energy 
Innovation Partnerships, a new competition to establish regionally-
focused clean energy innovation partnerships around the country. These 
regionally focused and directed partnerships will support regionally 
relevant technology-neutral clean energy RD&D needs and opportunities 
to support accelerated clean energy technology commercialization, 
economic development, and manufacturing.
    The fiscal year 2017 Budget Request also includes $60 million for a 
Next-Generation Innovation funding opportunity to accelerate next-
generation clean energy technology pathways by supporting research, 
development, and demonstration (RD&D) projects with the greatest 
potential to change the trajectory of EERE core program technology 
pathways. The Request includes $20 million for a new Small Business 
Partnerships program to competitively provide technology RD&D resources 
to small businesses through the DOE's National Labs to support their 
efforts to commercialize promising new clean energy. The Request also 
includes $25 million for Energy Technology Innovation Accelerators that 
will leverage the technical assets and facilities of the National 
Laboratories to enable American entrepreneurs to conduct RD&D that 
leads to the creation of new clean energy businesses.
Expanding Transformational ARPA-E Programs
    The fiscal year 2017 Budget Request provides $500 million for the 
Advanced Research Projects Agency--Energy (ARPA-E), which fills a 
unique role in identifying scientific discoveries and cutting-edge 
inventions and accelerating their translation into technological 
innovations. Of this, $350 million is requested in discretionary 
funding, $59 million above the fiscal year 2016 enacted level, to fund 
additional early-stage innovative programs as well as to exploit the 
technological opportunities developed in previous ARPA-E programs.
    ARPA-E has achieved considerable results to date. Through early 
2015, 141 ARPA-E project teams have completed funded work. Thirty four 
ARPA-E projects attracted more than $850 million in private sector 
follow-on funding, and over 30 ARPA-E teams formed new companies. Eight 
companies had commercial sales of new products resulting from ARPA-E 
projects, and more than 37 ARPA-E projects partnered with other 
government entities for further development. At the annual ARPA-E 
Summit being held this week, we will be announcing updated numbers 
demonstrating further success with ARPA-E's portfolio of projects.
    The fiscal year 2017 Budget Request will expand support for the 
current core portfolio of early stage innovation programs, including 
the release of 7-8 funding opportunity announcements (FOA) for new 
focused technology programs. Possible areas of focus for these FOAs 
include advanced sensors and analytics for energy management and 
improved light metals production to transform vehicle light-weighting. 
The Request also supports the continuation of the Innovative 
Development In Energy-Related Applied Science (IDEAS) FOA, which 
provides a continuing opportunity for the rapid support of early-stage 
applied research to explore innovative new concepts with the potential 
for transformational and disruptive changes in energy technology. 
Across all activities, ARPA-E will continue to emphasize supporting 
commercial readiness for highly successful projects.
    In addition, the fiscal year 2017 Budget Request includes a new 
legislative proposal for the Advanced Research Projects Agency--Energy 
Trust, which provides $150 million in fiscal year 2017 and a total of 
$1.85 billion in mandatory funds over 5 years to add a new focus on 
innovative systems level development that will deliver larger, more 
rapid benefits to the economic, environmental, and energy security of 
the United States. These projects are of a different character than can 
otherwise be funded with annual discretionary appropriations, and 
include, for example, potentially transformative technologies facing 
significant technical challenges in scale-up, projects that integrate 
multiple technical advances, and projects that address system-level 
transformation of energy cycles. The proposed new mandatory spending 
authority will accelerate transformational changes on energy systems.
Revitalizing the Nuclear Fuel Cycle
    The fiscal year 2017 Budget Request provides $994 million for 
Nuclear Energy, $8 million above the fiscal year 2016 enacted level, to 
help meet energy security, proliferation resistance, and climate goals. 
These funds will to support the diverse civilian nuclear energy 
programs of the U.S. Government, leading Federal efforts to research 
and develop nuclear energy technologies, including generation, safety, 
waste storage and management, and security technologies.
    In 2015, the program funded the second 5-year program of the 
Consortium for Advanced Simulation of Light Water Reactors (CASL) Hub 
and new R&D programs for two advanced reactor technologies, pebble bed 
and chloride fast reactors. The fiscal year 2017 Budget Request 
provides $73.5 million for ongoing R&D in advanced reactor technologies 
and continued R&D support for light water reactors (LWR), $59 million 
for accident tolerant fuels, and $35 million for LWR sustainability. 
Funding is also requested to continue the GAIN initiative to provide 
streamlined access for advanced reactor developers to access the world-
class nuclear energy R&D capabilities at the national laboratories. The 
Request includes $89.6 million to continue funding for a cost-shared 
cooperative agreement for licensing technical support of a small 
modular reactor design, including support for a small modular reactor 
design (SMR) certification application to the Nuclear Regulatory 
Commission (NRC) by December 2016, for application review by the NRC, 
and to continue development of permit and license applications for the 
first domestic SMR deployments.
    In 2015, DOE's nuclear energy program awarded a contract for a deep 
borehole field characterization test and issued an Invitation for 
Public Comment to initiate the dialogue on a consent-based siting 
process to support a consolidated commercial used fuel storage, a 
permanent repository and a separate disposal path for defense waste. 
The Request continues implementation of the Administration's Strategy 
for the Management and Disposal of Used Nuclear Fuel and High Level 
Radioactive Waste by providing $76.3 million, an increase of $53.8 
million, for integrated waste management system activities in the areas 
of transportation, storage, disposal, and consent-based siting. The 
Request includes $39.4 million for consent-based siting, including $25 
million for grants to States, Tribes, and local governments. The 
Request also includes $26 million to complete characterization of a 
field test borehole and to initiate drilling.
Enabling Fossil Energy to Compete in a Low-Carbon Energy Future
    The Budget Request provides $600 million for Fossil Energy Research 
and Development ($240 million of which is available through repurposing 
of prior-year balances), $32 million below the fiscal year 2016 enacted 
level, to advance research and development in carbon capture and 
storage, advanced energy systems, cross-cutting areas, and fuel supply 
impact mitigation.
    In fiscal year 2016, DOE is reaching several milestones in its 
support for carbon capture, utilization and storage (CCUS). DOE 
completed funding of two large-scale industrial CCUS projects that are 
in operation to demonstrate the feasibility and economics of carbon 
capture on an ethanol facility and the technology for carbon capture on 
a hydrogen production unit. Through cost-shared cooperative agreements, 
DOE is supporting two large-scale, coal-based CCUS demonstration 
projects utilizing coal gasification and post-combustion carbon capture 
technologies, with construction to be completed in 2016.
    The fiscal year 2017 Budget Request provides $50 million, an 
increase of $20 million, to support initial construction of three 
large-scale pilot projects of advanced, second generation, post 
combustion carbon capture technologies critical to reducing cost and 
increasing efficiency of CCUS technologies. The Request includes $24 
million to initiate the design and construction of a supercritical 
carbon dioxide (CO?) pilot plant test facility at the 10 megawatt-
electric (MWe) scale, and $31 million to initiate design of a natural 
gas combined cycle (NGCC) demonstration facility employing CCUS 
technology.
    The budget includes the reallocation of funding from CCUS 
demonstration projects that have not reached financial close to fund 
other projects and new initiatives, including the use of $240 million 
in prior-year balances.
    Also in support of CCUS technologies, the President's fiscal year 
2017 Budget Request makes available $5 billion in proposed investment 
and sequestration tax credits for qualified commercial CCUS projects. 
These tax credits are complemented by an existing $8.5 billion 
available through DOE's loan guarantees for advanced fossil energy 
projects to help provide critical financing to support new or 
significantly improved advanced fossil energy projects, and additional 
mixed-use authority for loan guarantees in the fiscal year 2017 Budget 
that can be used for advanced fossil and other technologies.
Expanding Technology Commercialization and Deployment
    Significant advances have been made in recent years in 
commercializing and deploying innovative technologies have been made. 
In 2015, DOE received 30 out of 100 R&D Magazine awards for outstanding 
technology developments with promising commercial potential, and the 
Administration announced new investment commitments from the 
institutional investment community of $4 billion for deployment of 
clean energy technologies. The renewable energy production tax credits 
were also extended by the Congress in December 2015.
    To expand the commercial impact of DOE's portfolio of research, 
development, demonstration, and deployment activities in the short, 
medium and long term, DOE established the Office of Technology 
Transitions (OTT) in 2015 to oversee and advance DOE's technology 
transfer mission. The fiscal year 2017 Budget Request provides $8.4 
million for the OTT to expand the commercial impact of the DOE 
portfolio of activities. The Request provides for coordination of 
technology-to-market activities across the Department and the 
implementation of the Technology Commercialization Fund (TCF), 
approximately $20 million in fiscal year 2017, to catalyze seed-stage 
funding for collaborations with private sector partners on high 
potential energy technologies at the National Laboratories. The Budget 
Request for OTT also supports implementation of the Clean Energy 
Investment Center (CEIC) to provide better information on investable 
opportunities resulting from DOE R&D.
    DOE's Loan Programs Office, in its role accelerating the domestic 
commercial deployment of innovative and advanced clean energy 
technologies, has maintained a financially sound portfolio of loans and 
loan guarantees. The $32 billion portfolio of loans, loan guarantees, 
and conditional commitments has been supported by $18 billion in 
financing from project sponsors, and 22 projects with DOE-backed loans 
and loan guarantees have now successfully completed construction and 
initiated operation. DOE has received new applications seeking over $20 
billion in Advanced Technology Vehicles Manufacturing (ATVM) and Title 
XVII loans and loan guarantees.
    The fiscal year 2017 Budget Request supports the Department's 
continued oversight of more than $30 billion in loans, loan guarantees, 
and conditional commitments, as well as its administration of remaining 
loan and loan guarantee authority to finance projects in the areas of 
advanced nuclear energy, renewable energy and efficient energy, 
advanced fossil energy, and advanced technology vehicles manufacturing. 
The fiscal year 2017 Request also proposes an additional $4 billion of 
mixed-use loan guarantee authority for innovative energy projects that 
reduce greenhouse gas emissions.
    The fiscal year 2017 Request also includes $23 million for the 
Office of Indian Energy, $7 million above the fiscal year 2016 enacted 
level, to support DOE's partnership with the Department of the Interior 
to address the need for clean, sustainable energy systems on Indian 
lands through expanded technical assistance and grant programs.
Enabling Secure, Modern, and Resilient Energy Infrastructures
    The Department's energy programs also support a secure, modern and 
resilient energy infrastructure, including for the electric power grid. 
The fiscal year 2017 Budget Request continues a focus on this mission 
by providing increased investments in the electricity grid of the 
future.
    DOE has also taken major steps in implementing the Grid 
Modernization Initiative, supported by a Grid Modernization National 
Laboratory Consortium comprising 400 partners, including the release of 
DOE's new comprehensive new Grid Modernization Multi-Year Program Plan 
and the announcement of a $220 million funding opportunity for the 
National Labs and partners.
    The fiscal year 2017 Budget Request includes $262 million for 
Electricity Delivery and Energy Reliability, $56 million above the 
fiscal year 2016 enacted level, for grid modernization research to 
support a smart, resilient electric grid for the 21st century and the 
storage technology that underpins it, as well as funding critical 
emergency response and grid physical security capabilities. The Request 
provides $14 million to establish a new competitively-selected Grid 
Clean Energy Manufacturing Innovation Institute as a part of the multi-
agency National Network for Manufacturing Innovation, to focus on 
technologies related to critical metals for grid application, and 
advances will be broadly applicable in multiple industries and markets.
    The Request for Electricity Delivery and Energy Reliability also 
provides $45 million for energy storage R&D, an increase of $24 
million, and $30 million for smart grid R&D. To fortify grid security 
and resilience, the Request includes $46 million to advance 
cybersecurity technologies and $18 million for infrastructure security 
and energy restoration activities. The Request provides $15 million for 
a new State energy assurance program that supports regional and State 
activities to continually improve energy assurance plans, improve 
capabilities to characterize energy sector supply disruptions, 
communicate among the local, State, regional, Federal, and industry 
partners, and identify gaps for use in energy planning and emergency 
response training programs. The Request also provides $15 million to 
launch a new State distribution-level reform program for competitive 
awards to States to utilize a grid architecture approach to address 
their system challenges.
    The Budget Request also includes $257 million for the Strategic 
Petroleum Reserve (SPR), $45 million above the fiscal year 2016 enacted 
level, to increase the system's durability and reliability and ensure 
operational readiness. The Bipartisan Budget Act of 2015 requires the 
Department to submit to Congress a Strategic Review of the SPR by May, 
2016. The Act also authorized DOE, subject to appropriation, to sell up 
to $2 billion in SPR oil to fund SPR infrastructure modernization. The 
results of the SPR Strategic Review will inform SPR infrastructure 
modernization and shall result in an fiscal year 2017 budget amendment 
related to SPR modernization.
    The fiscal year 2017 Budget Request provides $31 million for Energy 
Policy and Systems Analysis to continue serving as a focal point for 
policy coordination within the Department on the formulation, analysis, 
and implementation of energy policy and related programmatic options 
and initiatives that could facilitate the transition to a clean and 
secure energy economy.
    EPSA also serves as the Secretariat of the multi-agency Quadrennial 
Energy Review (QER), and provides systems analysis to support this 
Administration's initiative. The Administration expects to complete the 
second installment of the QER in 2016, focused on the electricity 
sector.
    The Budget Request also includes $84 million for the power 
marketing administrations, including the Western Area, Southeastern, 
Southwestern, and Bonneville Power Administrations.
Enhancing Collective Energy Security in Global Energy Markets
    While DOE's work in global energy security is not a major budgetary 
issue, it is an important issue for the Nation. DOE has pursued an 
increased global focus on collective energy security-- energy security 
for the United States and its allies--in the last several years.
    For example, as part of this effort and supported by our Office of 
International Affairs, the G-7 recently reached an agreement to enhance 
cybersecurity assessments of energy systems. The fiscal year 2017 
Budget Request supports DOE's efforts to enhance collective energy 
security by providing $19 million for the Office of International 
Affairs, which coordinates the Department's activities to strengthen 
international energy technology, information and analytical 
collaborations.
    In the area of energy exports, DOE has released a two-part LNG 
export study for public comment evaluating the impact of increasing LNG 
exports from 12 billion cubic feet per day (Bcf/d) to 20 Bcf/d. The 
study will be used in the public interest evaluation of pending 
applications to export LNG to non-FTA countries. DOE also chaired the 
International Energy Agency Ministerial resulting in a plan to assess 
energy security implications of natural gas supply.
    Following the North American ministerial in 2014, Canada, Mexico, 
and the United States have worked together to produce new integrated 
mapping and information products. The Budget Request for the Energy 
Information Administration provides $131 million, a $9 million 
increase, to build upon enhancements like these in carrying out EIA's 
data collection and analysis mission.
    The increase will provide greater regional detail and analysis of 
petroleum data, enhance commercial building energy efficiency data. The 
Budget will also extend analysis of international data to include 
Canada-Mexico collaboration and Asia and expand collection of 
transportation energy consumption data.
                            nuclear security
    The President's 2015 National Security Strategy, the 2010 Nuclear 
Posture Review (NPR), and the ratification of the New Strategic Arms 
Reduction Treaty underscored the importance of the DOE's nuclear 
mission and the lasting mandate for DOE to maintain a safe, secure, and 
effective stockpile for as long as nuclear weapons exist. DOE advances 
the President's vision to eliminate and secure nuclear material, reduce 
nuclear stockpiles, and increase global cooperation.
    The fiscal year 2017 Budget Request proposes $12.9 billion for the 
National Nuclear Security Administration (NNSA), $357 million above the 
fiscal year 2016 enacted level, to invest in our nuclear security by 
modernizing and maintaining our nuclear security enterprise, 
refurbishing and extending the life of our nuclear deterrent, reducing 
the threats of nuclear proliferation, and supporting the safe and 
reliable operation of our nuclear Navy. As part of an overall focus to 
modernize nuclear security research and production infrastructure, the 
overall NNSA budget includes a total of $1.8 billion in proposed 
infrastructure investments, including $575 million for the new Uranium 
Processing Facility.
    The Request for NNSA includes $413 million for NNSA Federal 
Salaries and Expenses for the salary, benefits, and support expenses of 
1,715 Federal full-time equivalents (FTEs) to provide appropriate 
Federal oversight of the nuclear security enterprise responsible for 
managing and executing NNSA's weapons activities and nonproliferation 
missions.
Stewardship of the Nuclear Deterrent
    August of 2015 marked the 20th anniversary of President Bill 
Clinton's announcement that the United States would pursue negotiations 
for the Comprehensive Nuclear-Test-Ban Treaty and maintain the U.S. 
nuclear arsenal without nuclear explosive tests. This was an important 
milestone for a science-based Stockpile Stewardship Program that 
successfully pushed the limits of modern science and engineering to 
maintain the stockpile without underground nuclear explosive testing.
    The fiscal year 2017 Budget Request includes $9.2 billion for 
Weapons Activities, $396 million above the fiscal year 2016 enacted 
level, to build on these accomplishments as NNSA sustains a credible 
and effective nuclear deterrent while continuing to reduce the size of 
the active stockpile. The Budget Request supports the work, as laid out 
in the Stockpile Stewardship and Management Plan, of the science-based 
Stockpile Stewardship Program to ensure a safe, secure and effective 
nuclear stockpile in the absence of underground nuclear explosive 
testing through a sustained, long-term research program.
    NNSA has achieved major accomplishments in that mission, such as 
substantial progress on its Life Extension Programs (LEPs), including 
those for the B61-12, W76-1, W80-4, and W88 Alt 370 with conventional 
high explosive (CHE) refresh. The Inertial Confinement Fusion Ignition 
and High Yield Program increased the number of experiments, or ``shot 
rate,'' at Lawrence Livermore National Laboratory's National Ignition 
Facility from 191 in 2014 to 356 in 2015. NNSA received the first 
hardware delivery for Trinity, NNSA's next generation high performance 
computer, and completed the first subproject for the Uranium Processing 
Facility, Site Readiness, on time and under budget.
    The fiscal year 2017 Request includes $1.3 billion for LEPs and 
major alterations (Alts), $38 million above fiscal year 2016. In 
particular, the Request continues timely execution of the B61-12 LEP 
and the W80-4 LEP. These are the first two steps in implementing the 
Nuclear Weapons Council-approved ``3+2'' strategy to consolidate the 
stockpile to three ballistic missile warheads and two air delivered 
systems, reducing the number of weapons in the deployed stockpile and 
simplifying maintenance requirements.
    The Request provides $223 million to support completing production 
of the W76 by 2019 and $616 million to deliver the B61-12 first 
production unit by 2020. It also supports transitioning the W88 Alt 370 
with CHE refresh to Production Engineering in February 2017 with $281 
million and provides $220 million, an increase of $25 million, to 
maintain the schedule of the first production unit for the W80-4 LEP by 
2025. The Budget Request also provides $69 million, $17 million above 
the fiscal year 2016 enacted level, to make progress towards meeting 
the President's commitment to accelerate dismantlement of retired U. S. 
nuclear warheads by 20 percent.
    The Budget Request for Weapons Activities provides $2.7 billion for 
Infrastructure and Operations, $443 million above fiscal year 2016. The 
Request ensures no increase in the backlog of deferred maintenance. The 
Request will dispose of the Kansas City Bannister Federal Complex, and 
upgrade aging infrastructure to address safety and programmatic risks, 
improve productivity, and lower operating costs. The Request for 
Infrastructure and Operations also provides $575 million, $145 million 
above fiscal year 2016, to continue the phased approach for 
constructing the Uranium Processing Facility, including completion of 
the design and continued construction on approved subprojects. The 
request also provides $160 million to continue work on the Chemistry 
and Metallurgy Research Replacement project to support the plutonium 
strategy.
    As part of the Office of Science-NNSA collaboration on the Exascale 
Computing Initiative, the Budget includes $95 million for exascale 
computing, $31 million or 48 percent above fiscal year 2016, to develop 
exascale-class high performance computing to meet the needs for future 
assessments, LEPs, and stockpile stewardship.
    The Request for Weapons Activities also includes $283 million for 
Secure Transportation Asset, $46 million above fiscal year 2016, to 
continue asset modernization and workforce capability initiatives 
including conceptual design and systems prototyping of the new Mobile 
Guardian Transporter.
Controlling and Eliminating Nuclear Materials Worldwide
    The fiscal year 2017 Budget Request includes $1.8 billion for 
Defense Nuclear Nonproliferation, $132 million below the fiscal year 
2016 enacted level, to continue the critical missions of securing or 
eliminating nuclear and radiological materials worldwide, countering 
illicit trafficking of these materials, preventing the proliferation of 
nuclear weapon technologies and expertise, ensuring that the United 
States remains ready to respond to high consequence nuclear and 
radiological incidents at home or abroad, and applying technical and 
policy solutions to solve nonproliferation and arms control challenges 
around the world. Note that while the overall program level for DNN is 
down, the programmatic funding level in the fiscal year 2017 Budget 
Request is roughly flat with fiscal year 2016 due to the availability 
of prior-year carryover balances and termination of the Mixed-Oxide 
(MOX) Fuel Fabrication Facility Project.
    DOE has taken major steps in the nuclear threat reduction missions. 
We recently issued the first nonproliferation strategic plan, Prevent, 
Counter and Respond--A Strategic Plan to Reduce Global Nuclear 
Threats,\2\ to define and describe our missions.
---------------------------------------------------------------------------
    \2\ http://nnsa.energy.gov/sites/default/files/
NPCR%20Report_FINAL_4-14-15.pdf.
---------------------------------------------------------------------------
    Supported largely by the DNN program and capabilities, we also 
provided scientific technical analysis to support the U.S. delegation 
during the Joint Comprehensive Plan of Action (JCPOA) negotiations. 
Following finalization of the agreement, twenty nine scientific leaders 
deeply familiar with nuclear issues (familiar names such as Garwin, 
Drell, Dyson, Hecker, Richter, and others), focusing on the agreement's 
nuclear dimensions, wrote to the President: ``This is an innovative 
agreement, with much more stringent constraints than any previously 
negotiated nonproliferation framework.'' These experts were referring 
to aspects of the agreement such as weaponization constraints and bans 
on nuclear weapons R&D that mark an unprecedented approach to such 
agreements--and highlight the critical role that DOE plays in providing 
unparalleled scientific and technical capabilities.
    As part of NNSA's goal to minimize and, when possible, eliminates 
weapons-usable nuclear material around the world, we have also recently 
completed removal or confirmed disposition of fissile nuclear material, 
bringing the number of countries free of all highly enriched uranium 
(HEU) to 28, plus Taiwan. We have also down-blended additional HEU to 
achieve a cumulative total of 150 metric tons of U.S. excess, weapons-
usable HEU.
    And in the area of nuclear counterterrorism and incident response, 
NNSA realigned its counterterrorism and counterproliferation functions 
to more efficiently respond to nuclear or radiological incidents 
worldwide and to sustain counterterrorism capabilities through 
innovative technology and policy-driven solutions. The program 
continues to train and exercise to strengthen emergency preparedness 
and response capabilities, including nuclear forensics operations, 
domestically and worldwide.
    Looking ahead, the fiscal year 2017 Budget Request will support 
continued successful execution of the mission to control and eliminate 
nuclear materials worldwide. NNSA will support the President's fourth 
and final Nuclear Security Summit in March-April 2016, continuing the 
President's aim to achieved tangible improvements in the security of 
nuclear materials and stronger international institutions that support 
nuclear security.
    DOE and its national laboratories will continue to provide 
technical support to the International Atomic Energy Agency (IAEA), 
including to implement the JCPOA, and will remain highly engaged in 
providing training and technologies and other support to support the 
IAEA. The Request includes $13 million to support implementation of the 
JCPOA, including $10 million to support JCPOA material management 
activities and $3 million for technical and in-kind support for the 
U.S. interagency process and the IAEA.
    In the area of plutonium disposition, the Budget Request will 
terminate the Mixed Oxide (MOX) approach and move to a dilute and 
dispose approach that will be faster and significantly less expensive 
than the MOX option. Specifically, the fiscal year 2017 Budget Request 
provides $270 million, $70 million below fiscal year 2016, to terminate 
the MOX Fuel Fabrication Facility, and an additional $15 million to 
pursue a dilute and dispose (D&D) approach that will disposition 
surplus U.S. weapon-grade plutonium by diluting it and disposing of it 
at a geologic repository. The Department will complete pre-conceptual 
design for the D&D option and begin conceptual design in late fiscal 
year 2017.
    In other nonproliferation areas, the Request includes $272 million, 
$37 million above fiscal year 2016, to sustain emergency response and 
nuclear counterterrorism capabilities that are applied against a wide 
range of high-consequence nuclear or radiological incidents and 
threats. It proposes $394 million for the Defense Nuclear 
Nonproliferation Research and Development program to advance technical 
capabilities to monitor foreign nuclear weapons program activities, 
diversion of special nuclear material, and nuclear detonations. The 
Request provides $341 million for Material Management and Minimization 
to support HEU and plutonium disposition, the conversion of research 
reactors and medical isotope production facilities from the use of HEU 
to the use of low enriched uranium (LEU) fuels and targets, and removal 
of excess HEU and separated plutonium. The Request also provides $337 
million for Global Material Security to build international capacity to 
secure, and prevent smuggling of, nuclear and radiological material 
through equipment installations and upgrades, and capacity-building 
workshops and trainings. In addition, the Request provides $125 million 
for the Nonproliferation and Arms Control program to strengthen the 
nonproliferation and arms control regimes by enhancing international 
nuclear safeguards; controlling the spread of nuclear material, 
equipment, technology, and expertise; and verifying nuclear reductions 
and compliance with nonproliferation and arms control treaties and 
agreements.
Advancing Navy Nuclear Propulsion
    Finally for NNSA, the Naval Reactors program continues its 
tradition of providing the design, development and operational support 
required to provide militarily effective nuclear propulsion plants and 
ensure their safe, reliable and long-lived operation. In carrying out 
this mission, the Naval Reactors program has marked many major 
accomplishments.
    The program continues to provided technical support and 24/7 
reachback support for the Navy's nuclear fleet of 73 submarines and 10 
aircraft carriers. The program successfully achieved criticality in the 
first reactor of the new Gerald R. Ford-class aircraft carrier, and 
continued reactor plant design for the Ohio-class submarine replacement 
and advanced technology development in refueling of S8G land-based 
prototype reactor, including the insertion of new materials and 
technology for the Ohio-class submarine replacement. Naval Reactors 
also operated the MARF (Modifications and Additions to a Reactor 
Facility) and S8G land-based prototype reactors, delivering 2,832 
trained nuclear operators to the fleet--a 17 percent increase over 
fiscal year 2014.
    The Request includes $1.4 billion for Naval Reactors, an increase 
of $45 million from the fiscal year 2016 level, to support U.S. Navy 
nuclear propulsion. The Request provides $214 million to continue 
development of the Ohio-class submarine replacement reactor, and $124 
million to continue refueling of the Land-Based Prototype reactor.
    In support of necessary facilities for handling naval spent nuclear 
fuel, including the capability to receive, unload, prepare, and package 
naval spent nuclear fuel, the Request provides $100 million to complete 
design and initiate construction of a new Spent Fuel Handling 
Recapitalization Project at Naval Reactors Facility in Idaho.
                       management and performance
    The fiscal year 2017 Budget Request provides $6.8 billion for 
Departmental management, performance, and related corporate support 
activities to position the Department to meet the nation's Manhattan 
Project and Cold War legacy responsibilities and to continue 
institutionalizing an enterprise-wide focus on improving the efficiency 
and effectiveness of DOE programs through the effective management of 
DOE's infrastructure and workforce.
Strengthening Project Management
    The Department is aggressively pursuing implementation of a 
Secretarial initiative to improve project management. We have made 
progress to that end through several recent initiatives and reforms, 
including establishing independent project review capabilities within 
each Under Secretary organization, as well as a central Project 
Management Risk Committee (PMRC). We have also formalized the role of 
the Energy Systems Acquisition Advisory Board (ESAAB) and instituted 
process changes to ensure that the ESAAB takes a proactive role in 
reviewing major projects. In addition, we established a new independent 
office on project management oversight and assessments.
    It is notable the Government Accountability Office (GAO) has 
narrowed the focus of its watch list to DOE's major projects, and we 
continue to work towards improving our implementation of those 
projects. The Department's continuing goal is to control costs to 
within 10 percent of the baseline estimate for at least 90 percent of 
our construction projects.
    The fiscal year 2017 Budget Request includes several proposals to 
further implement these project management improvements. The Request 
provides $18 million for the independent office of Project Management 
Oversight and Assessments (PMOA). With senior management focus on DOE's 
total project portfolio, DOE will be able to hold contractors and 
programs accountable for large and at-risk projects, receiving early 
warning notifications and quarterly updates.
    The Budget Request also includes $5 million to establish an 
independent office, similar to that at the Department of Defense, to 
set cost estimating policy and provide timely unbiased program 
evaluation analysis and cost estimation.
Cleaning up Nuclear Legacy Waste
    The fiscal year 2017 Budget Request includes $6.1 billion for 
Environmental Management (EM), $99 million below the fiscal year 2016 
enacted level, to address its responsibilities for the cleanup of large 
quantities of liquid radioactive waste, spent nuclear fuel, 
contaminated soil and groundwater, and deactivating and decommissioning 
excess facilities used by the nation's nuclear weapons program. The 
$6.1 billion Request includes $5.4 billion in discretionary funding and 
proposes $674 million in mandatory funding from the USEC Fund, for 
Uranium Enrichment Decontamination and Decommissioning (UED&D) Fund 
activities.
    While difficult challenges lie ahead with some of our remaining 
Environmental Management projects, it is important to note that when 
the program started, there were 107 sites to be closed-- and today we 
have cleaned up all but 16 sites. The remaining sites will not be 
simple to remediate, but we started with over 3,000 square miles to 
remediate, and only 300 square miles remain.
    In our ongoing efforts to remediate our legacy sites, we have 
continued construction activities necessary to initiate direct feed of 
Low Activity Waste (LAW) at Hanford, and we have continued technical 
issue resolution of the Pretreatment and High Level Waste facilities at 
the same site. We have cleaned up and demolished more than 800 
facilities at Hanford, and we have remediated over 1,200 waste sites 
along the River Corridor. At the Savannah River Site, we have closed 
the seventh waste tank, and we have revitalized the EM Technology 
Development and Deployment Program in response to a Secretary of Energy 
Advisory Board (SEAB) recommendation.
    Looking forward, the fiscal year 2017 Budget Request includes $271 
million to maintain critical progress toward resuming waste emplacement 
in the underground at the Waste Isolation Pilot Plant (WIPP) by the end 
of 2016. WIPP, the Nation's only mined geologic repository for the 
permanent disposal of defense-generated transuranic waste, suspended 
operations following a February 5, 2014 fire involving an underground 
vehicle and an unrelated radioactive release that occurred February 14, 
2014. The Request for WIPP includes activities to resume waste 
emplacement operations by the end of 2016, including continued 
implementation of corrective actions and safety management program 
improvements, completion of Operational Readiness Reviews and 
commencement of waste emplacement operations. Activities include mine 
stabilization, mining, mine habitability activities in all underground 
areas, continued decontamination of contaminated areas, and upgrades, 
support for completion of repairs of New Mexico Roads used for the 
transportation of DOE shipments of transuranic waste to WIPP, and 
community and regulatory support. The budget supports the Central 
Characterization Project and maintains shipping capability between the 
generator sites and WIPP. The Request also includes funding to support 
progress in design of a new permanent ventilation system that is needed 
to support normal operations.
    The fiscal year 2017 Budget Request provides $1.5 billion for the 
Office of River Protection, $86 million above the fiscal year 2016 
enacted level, to support the Department's proposal to amend the 
Consent Decree between DOE and the State of Washington for completion 
of the Waste Treatment and Immobilization Plant and retrieval of waste 
from 19 Single Shell Tanks. The Budget Request would enable 
construction of a new facility to allow DOE to begin treating low level 
waste by the end of 2022, avoiding the need to wait for completion of 
other facilities affected by the technical issues. The Request 
continues construction of the low activity waste (LAW) facility, the 
analytical laboratory, and balance of facilities while addressing 
technical issues with the pretreatment facility and the high-level 
waste facility as well as support for the planning and design of the 
LAW pretreatment system at the tank farms.
    The Request also provides $800 million for cleanup of the Richland 
Site. Cleanup activities include soil and groundwater remediation, 
facility decontamination and decommissioning, stabilization and 
disposition of nuclear materials and spent nuclear fuel, and 
disposition of waste other than the tank waste managed by the Office of 
River Protection. The fiscal year 2017 Request for Richland will 
provide for continued achievement of important cleanup progress 
required by the Tri-Party Agreement. The Budget Request for Richland 
supports completion of cleanup at the Plutonium Finishing Plant, 
planning and initiation of procurement in preparation for cleanup of 
the 324 site, and other activities. The decrease of $191 million from 
fiscal year 2016 is attributed to completed scope and facility 
modifications to prepare for installation of sludge removal systems for 
the K West Basin, as well as purchase of the engineered containers for 
sludge repackaging; and completion of remediation in the 300 area, 100K 
area and 618-10 trenches.
    The Request provides $1.5 billion, $111 million above fiscal year 
2016, for the Savannah River Site to support remaining construction and 
commissioning of the Salt Waste Processing Facility, processing 19 
million gallons of salt waste and nuclear materials in H-Canyon, and 
site-wide infrastructure. The Request will ramp up commissioning of the 
Salt Waste Processing Facility to enable start-up in 2018. The Request 
devotes significant funding to support the Liquid Tank Waste Management 
Program, as the liquid waste tanks pose the highest public, worker, and 
environmental risk at the site. The Request also supports the Savannah 
River Site to operate H Canyon in a safe and secure manner, provides 
safe, secure storage for spent (used) nuclear fuel in L-Area, and 
supports continuity of K-Area operations to include maintaining K-Area 
to store special nuclear material safely and securely. The increase 
over fiscal year 2016 provides additional support leading to startup of 
Salt Waste Processing Facility in 2018; supports tank closure and bulk 
waste removal activities to meet fiscal year 2016 enforceable 
milestones; and provides additional funding for Salt Disposal Unit #7 
design activities.
    The fiscal year 2017 Budget Request includes $370 million, $32 
million below fiscal year 2016, for the Idaho Site to support key 
requirements to continue progress in meeting the Idaho Settlement 
Agreement commitments. The Idaho Cleanup Project is responsible for the 
treatment, storage, and disposition of a variety of radioactive and 
hazardous waste streams, including removal and disposition of targeted 
buried waste sitting above the Snake River Plain Aquifer. The project 
is also responsible for removing or deactivating unneeded facilities, 
and removing DOE's inventory of spent (used) nuclear fuel and high-
level waste from Idaho. The Request will continue retrieval and 
processing of transuranic waste via the Advanced Mixed Waste Treatment 
Project and the Remote-handled Waste Disposition Project. It will also 
support continued progress toward closing the tank farm, including 
continued treatment and disposition of sodium bearing waste and 
progress toward buried waste exhumation under the Accelerated Retrieval 
Project. The decrease from the fiscal year 2016 level is attributed to 
progress in treatment, packaging, and certification of Idaho Settlement 
Agreement remote-handled transuranic waste, delays in processing waste 
at the Integrated Waste Treatment Unit, and a one-time funding increase 
in fiscal year 2016 for procurements.
    The fiscal year 2017 Budget Request provides $391 million for 
cleanup at the Oak Ridge site, including $178 million in proposed 
mandatory funding, to support direct shipments of Uranium 
Solidification Project material, continue design and construction of 
the Mercury Treatment Facility, continue contact- and remote-handled 
debris processing at the Transuranic Waste Processing Facility, and 
continue the K-27 Decontamination and Decommissioning project. The 
Request will maintain the facilities in a safe, compliant, and secure 
manner as well as operate waste management facilities. The Request will 
continue development of Comprehensive Environmental Response, 
Compensation and Liability Act documentation for the new On-Site 
Disposal Facility. The processing of legacy transuranic waste debris 
will continue at the Transuranic Waste Processing Center and technology 
maturation and design will continue for the Sludge Processing Facility 
Buildout project. Additionally, the Request supports direct disposition 
of Consolidated Edison Uranium Solidification Project material from 
Building 3019, assuming resolution of stakeholder concerns.
    The Budget Request includes $323 million, including $258 million in 
proposed mandatory funding, to support the deactivation and 
decommissioning project at the Portsmouth Gaseous Diffusion Plant in 
Piketon, Ohio. In addition to supporting deactivation and 
decommissioning of gaseous diffusion plant facilities and systems, 
disposal of waste, small equipment removal, and other related 
activities, the request also includes funding for design and 
construction of a potential on-site landfill for the disposal of waste 
generated from the demolition of the Portsmouth Gaseous Diffusion Plant 
and associated facilities. In addition, the Request will continue the 
safe operation of the DUF6 Conversion facility that converts depleted 
uranium hexafluoride into a more stable depleted uranium oxide form 
suitable for reuse or disposition. The Request for the Portsmouth is 
supplemented by continuing transfers of uranium for cleanup services at 
the Portsmouth Gaseous Diffusion Plant.
    The Request provides $272 million for the Paducah site, including 
$208 million in proposed mandatory funding, for a multifaceted 
portfolio of processing and cleanup activities. In addition to ongoing 
environmental cleanup and DUF6 operations, the Budget Request supports 
activities to continue the environmental remediation and further 
stabilize the gaseous diffusion plant, including uranium deposit 
removal, facility modifications, surveillance and maintenance, and 
activities to remove hazardous materials. The Request supports the 
design of the Paducah potential On-Site Waste Disposal Facility 
project, if the project is selected as the appropriate remedy.
    The fiscal year 2017 Budget Request includes $30 million to expand 
the technology development program through carefully targeted projects 
to develop and demonstrate new technologies and approaches tailored to 
the specific contamination issues at individual sites. The fiscal year 
2017 Budget Request includes an emphasis on robotics research and 
development of test beds in support of DOE's cleanup mission.
Refinancing Uranium Enrichment Decontamination and Decommissioning
    Continued progress towards decontaminating, decommissioning, and 
remediating the former gaseous diffusion uranium enrichment sites, and 
towards meeting our uranium/thorium reimbursement commitments, remains 
a priority for DOE. We have made significant strides at the Oak Ridge, 
Portsmouth, and Paducah sites, but we have an estimated $22-24 billion 
in remaining cleanup costs.
    Throughout the history of these sites, the government has collected 
funds from the public and private entities that utilized the enriched 
uranium produced at the facilities to pay for operation, privatization, 
and cleanup of these three sites--some provided by utility fees, and 
others provided by Congress. Three government accounts-- Uranium 
Enrichment Decontamination and Decommissioning Fund, Uranium Supply and 
Enrichment Activities Account, and the United States Enrichment 
Corporation (USEC) Fund--hold nearly $5 billion of these funds.
    The fiscal year 2017 Budget Request proposes to make progress on 
our cleanup missions at Paducah, Portsmouth, and Oak Ridge, and the 
Title X Uranium/Thorium Reimbursement Program by harnessing some of 
these funds through a mandatory proposal to make available $674 million 
from the United States Enrichment Corporation Fund.
    Through the Energy Policy Act of 1992, Congress authorized annual 
deposits to the Uranium Enrichment Decontamination and Decommissioning 
(UED&D) Fund from an assessment on nuclear utilities for 15 years--from 
fiscal years 1993 through 2007. The Budget Request proposes to 
reinstate these fees to offset proposed new mandatory spending for 
uranium enrichment cleanup. The Budget also includes $155 million of 
defense funding for deposit into the UED&D Fund, reflecting the shared 
responsibility of both industry and the Federal Government for these 
costs.
Investing in Departmental Infrastructure
    The fiscal year 2017 Budget Request supports safe and reliable 
world class facilities by investing in new infrastructure in all 
mission areas and establishing a sustainable trajectory for the 
Department's existing infrastructure.
    As part of our effort to manage the enterprise's infrastructure in 
a sustainable manner to support DOE missions, beginning in fiscal year 
2016, we have implemented a policy to halt increases in deferred 
maintenance across the DOE complex. We have also taken steps to bolster 
DOE's enterprise-wide inventory by compiling the first uniform 
assessment of general purpose infrastructure at all National 
Laboratories and NNSA plants and sites through the National Laboratory 
Operations Board (LOB), and forming a LOB working group to assess and 
prioritize the disposition of excess facilities.
    Building on these efforts, the fiscal year 2017 Budget Request 
continues a comprehensive program of infrastructure modernization and 
improved maintenance across the complex, including expanded funding for 
general purpose infrastructure projects. The Budget proposes, for 
example, $200 million for the disposal of the Kansas City Bannister 
Federal complex. Finally, we are seeking to improve the energy 
efficiency and sustainability of government facilities, including use 
of Energy Savings Performance Contracts.
Building and Supporting the Energy Workforce
    DOE's continues to work to attract, manage, train and retain the 
best workforce to meet its future mission needs.
    In support of managing the workforce and hiring new personnel, we 
have activated two Consolidated Human Resources (HR) Service Centers, 
at Cincinnati and Oak Ridge, as part of a new service delivery model to 
consolidate 17 current HR service centers to five, which should allow 
for a more efficient and effective HR model across DOE. The fiscal year 
2017 Budget Request completes the HR Shared Services Centers 
consolidation and invests in implementing recommendations resulting 
from a talent management study conducted in fiscal year 2016, which 
will help to develop a corporate approach to talent acquisition in 
order to consistently and effectively attract, develop, and retain the 
best workforce to meet mission needs.
    The DOE Office of the Chief Information Officer (CIO) and related 
offices continue to build the information technology (IT) 
infrastructure in support of DOE's mission needs. DOE is expanding 
Multifactor Authentication Program for improved cyber security. The 
fiscal year 2017 Budget Request strengthens cybersecurity across the 
enterprise with an investment of $285 million, an increase of $23 
million across 13 offices and the Working Capital Fund.
    The $93 million fiscal year 2017 Budget Request for CIO, $20 
million above fiscal year 2016, also supports several critical IT 
improvements, including implementation of Federal Information 
Technology Acquisition Reform Act (FITARA) requirements to provide a 
common baseline for roles, responsibilities, requirements, and 
authorities for the management of IT in Federal civilian agencies. The 
Request also includes efforts to modernize and further secure the 
Department's IT infrastructure, including core networking layers, data 
centers, and access technologies.
    The Department has established a Labor-Management Forum to further 
encourage opportunities for collaboration and partnership between 
contractors and management.
    The Department has established the Office of Energy Jobs 
Development, consolidating ongoing activities across the Department 
formerly coordinated via the Jobs Strategy Council. The Request 
includes $3.7 million to support the office and to compile survey data 
and deliver the energy jobs and workforce report that would detail job 
growth/shifts in the energy and advanced manufacturing industries; fill 
the gaps that currently exist in data gathering on renewable energy, 
energy efficiency, and advanced manufacturing jobs; and compile data on 
energy job skill needs of employers and public agencies.
                   advancing doe's critical missions
    In conclusion, the fiscal year 2017 Budget Request of $32.5 billion 
invests in its science and technology capabilities, its workforce, and 
its critical infrastructure to advance DOE's core missions.
    The Request supports the Department's efforts in science and energy 
to enable a clean energy future through innovative lower-cost energy 
technologies; to support secure, modern and resilient energy 
infrastructure and emergency response capabilities; and to provide the 
backbone for discovery and innovation, especially in the physical 
sciences, for America's research community.
    The Request invests in the Department's nuclear security missions 
to maintain a safe, secure, and effective nuclear deterrent without 
nuclear explosive testing; to modernize the nuclear security research 
and production infrastructure; to reduce global nuclear security 
threats; and to propel our nuclear Navy.
    And the Request continues taking steps to further the Department's 
management and performance missions to clean up from the Cold War 
legacy of nuclear weapons production; to manage infrastructure in a 
sustainable manner to support DOE missions; and to attract, manage, 
train and retain the best workforce to meet mission needs.
    Thank you, and I would be pleased to answer your questions.

    Senator Alexander. Thanks, Mr. Secretary. We have good 
attendance. We will go right to questions and take 5-minute 
rounds.
    But if Senators want to stay and ask a second 5-minute 
round of questions, we will provide time for that.

                       OFFICE OF SCIENCE FUNDING

    Let me begin, Mr. Secretary. I am for doubling energy 
research, but that costs about $5 billion. I mean, if we 
doubled the energy research in the Office of Science, that 
would be going from about $5 billion to about $10 billion. Is 
that about right?
    Secretary Moniz. About 20 percent of the Office of Science 
budget is part of the Mission Innovation base.
    Senator Alexander. But generally speaking.
    Secretary Moniz. If the Office of Science as a whole were 
doubled----
    Senator Alexander. No, no, I am talking--the amount of 
Federal Government energy research is about $5 billion. Is that 
about right?
    Secretary Moniz. Well, we have $4.8 billion in DOE 
(Department of Energy) and $6.4 billion across the government.
    Senator Alexander. So it is about $5 billion in DOE. If we 
double that, that would be $10 billion, just the Energy part. 
We are talking here about where we find the money.

                            ENERGY SUBSIDIES

    But we are subsidizing windmills for the 23rd year at $4 
billion. Two decades ought to be long enough to turn that into 
a mature technology.
    We have $24 billion in subsidies for oil and gas over the 
next 10 years.
    Why isn't a place to get the money for doubling clean 
energy research by phasing out subsidies to mature 
technologies? Why shouldn't we do that?
    Secretary Moniz. Well, they are certainly different levels 
of maturity. The administration has supported the idea of 
reducing and eliminating many of the fossil fuel subsidies.
    Senator Alexander. What about the windmills? They do not 
produce much energy, and 22 or 23 years ought to be long enough 
to allow them to be competitive. That is $4 billion over 10 
years right there.
    Secretary Moniz. Of course, we are very pleased, actually, 
with extensions of the wind and solar credits over a fixed time 
in the----
    Senator Alexander. I am saying if we got rid of them, we 
could use it for clean energy research. We have to set 
priorities somewhere.
    Secretary Moniz. The continuing incentive we think is very 
important. It is the combination of technology and deployment 
that right now is helping drive costs down quite dramatically.
    Senator Alexander. I do not think it is a very complicated 
equation. I think instead of tax credit for mature technologies 
to subsidize wind developers, most of that money goes to rich 
people who take tax deductions, and to subsidize oil and gas 
production, we could give tax credit for the R&D that you want 
and that would be one way to find the money.

                             NUCLEAR WASTE

    May I ask you some questions about nuclear waste storage 
and whether there is a role for private storage options? Is it 
likely that the department will receive an application from a 
private entity that may be seeking a license, or that the 
Nuclear Regulatory Commission will be receiving an application 
from a private entity that would store used nuclear fuel?
    Secretary Moniz. First, the answer is yes, we certainly do 
see a role for private storage. My understanding is the NRC may 
be receiving an application this year.
    Senator Alexander. What are the benefits of private storage 
in terms of technical feasibility, schedule, cost, and 
management flexibility?
    Secretary Moniz. Well, the devil is in the details, but we 
think that private storage could have advantages in accelerated 
schedule potential, more flexibility, and also getting a 
confirmed cost up early. So I think there could be many 
advantages.
    Senator Alexander. Last year, Senator Feinstein and I 
included in the Senate energy and water appropriations bills 
language to clarify the department's authority to pursue 
private storage options. Do you support that language?
    Secretary Moniz. Yes, I do.
    Senator Alexander. Thank you. My own view is that we should 
proceed on all tracks at once toward a solution, to finding a 
place to put used nuclear fuel.
    Number one in my book would be Yucca Mountain, although 
that is certainly not unanimous in the Senate, and we have a 
stalemate there. But we have said many times that even if we 
filled up Yucca Mountain, we would still need other storage 
sites. Is that not true?
    Secretary Moniz. Yes, it is. We have a request for 
information out across-the-board for storage and repository 
solutions.
    Senator Alexander. So Senator Feinstein and I, both on the 
authorizing committee and in the Appropriations Committee, 
supported measures to create new repositories. So Yucca 
Mountain, the new repositories that we have talked about, and 
then a third option would be the private storage opportunities 
we talked about.
    As I understand it, they could be large enough to be a 
significant opportunity, these private commercial storage 
sites, to receive a large part of the used nuclear fuel that is 
today stranded at reactor sites that have been closed.
    Secretary Moniz. Yes, I agree with that.
    Senator Alexander. Thank you.
    Senator Feinstein.

                            ENERGY SUBSIDIES

    Senator Feinstein. I was just saying, Mr. Chairman, to the 
staff that I think we ought to take a real look at those 
subsidies that have existed for more than 20 years. It seems to 
me that the new energy architecture ought to be able to prove 
itself in terms of its market acceptance within a 20-year 
period and not be continued beyond that. So I would agree with 
you on that point.

                         NUCLEAR WASTE STORAGE

    I would like to ask some questions about the Texas 
privately owned and operated storage facility. The NRC told us 
that this facility could get a license and start operating with 
no additional action from Congress.
    Do you agree with that, Secretary Moniz?
    Secretary Moniz. I certainly would take the NRC judgment at 
face value for the NRC. At DOE, our general counsel does 
believe we have authority to move forward with that.
    My understanding is the private entities would sure like 
some of the clarity that Congress could bring to it, for 
example, the language you introduced last year.
    Senator Feinstein. I do not recall the language right now, 
but I think my point, and I think the chairman's point has 
been, if you can do it, why not go ahead and do it?
    Secretary Moniz. Well, again, I think getting clarity from 
congressional action, would I think help a lot with the private 
entities. But eventually, there will be issues that need to be 
clarified, such as how will liability be addressed, what are 
issues in terms of when does ownership convert to Federal 
hands, et cetera? So I think that is something we can work 
with.
    Senator Feinstein. Can you put that together and submit it, 
if you need to submit it? I do not think you need to submit it 
to the Congress. You could submit it I guess to the White House 
for approval. But I do not understand why this does not go 
ahead.
    Every time we have some hope for a new nuclear waste 
facility, something stops it.
    Secretary Moniz. Well, we are in discussion. We have had 
discussions in the past with the Texas group, for example. As I 
said, we are very supportive of that going forward. The first 
step is getting to the NRC.
    Senator Feinstein. I guess I am beginning to feel 
inordinate frustration because the chairman, I, the chairman of 
the Energy Committee, three chairs, and the ranking of the 
Energy Committee, we put together a bill for a nuclear waste 
policy and it sits and sits and sits.
    Yet we are supposed to go ahead and now go into the area of 
small, modular nuclear reactors, that also produce waste but no 
place for the waste. I think it just puts more and more people 
in jeopardy of one day an accident.
    So I have said this probably two dozen times, if there is 
going to be a future, a real future for nuclear, there has to 
be a place to put the waste.
    Now that we have one, and we know that you are cleared to 
go ahead and sanction it and work out the legal anomalies or 
difficulties, my thinking is that you should do just that.
    Secretary Moniz. Well, we are, in fact, evaluating and 
working on all the options going forward. As you know, I fully 
support the waste bill that you and your colleagues worked on. 
I think it is right on. And we need to move forward on the 
storage option, whether it is public or private, especially so 
that we can move the fuel from shutdown reactors quickly.
    We will work on that with you, obviously.
    Senator Feinstein. Not work with us. Will you move ahead 
and if the Texas operator has a good proposal that meets your 
concerns, will you move ahead with it?
    Secretary Moniz. Yes, if they are licensed by the NRC, we 
are completely prepared to work with them and move ahead, yes.
    Senator Feinstein. Again, the NRC told us that the facility 
could get a license and start operating with no additional 
action from the Congress.
    Secretary Moniz. But they have not filed for a license. We 
expect that to come later in this year. Until that happens, 
were a little bit limited, but we are certainly discussing this 
at length and getting prepared.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Feinstein.
    Senator Graham.

                 MIXED OXIDE FUEL FABRICATION FACILITY

    Senator Graham. From one program to the next. Now let us 
talk about MOX.
    Mr. Chairman, I think you have been kind enough to listen 
to my request to have a more in-depth study of this. Five 
minutes I do not think is going to do it justice. This is a 
monumental decision for the country and certainly South 
Carolina.
    Mr. Secretary, last year, you had $345 million for 
construction of the MOX program, is that correct, in your 
budget?
    Secretary Moniz. Yes, sir.
    Senator Graham. This year, it was zero. Is that correct?
    Secretary Moniz. Yes, we proposed I think $275 million for 
starting termination.
    Senator Graham. To terminate the program. I just want the 
committee to look at this. This is a facility in South 
Carolina. You are welcome to come visit. We will be glad to 
host you.
    In 2013, this is what it looked like. It was 56 percent 
complete, the actual MOX facility. In 2016, this is what it 
looks like today. It is a pretty mammoth place, 70 percent 
complete. The contractor says $3 billion gets us to where we 
need to be. We have spent $5 billion to date, and that is what 
we have for the $5 billion.
    Now, the bottom line is, in 2010, we signed an agreement 
with the Russians to take the 34 metric tons of excess 
plutonium and put it through the MOX system, so it cannot be 
used for weapons in the future. Is that correct?
    Secretary Moniz. That is correct. If I may, I would just 
say, as you know, we do not agree with the numbers. And 
secondly, this is only one plant in the whole----
    Senator Graham. Right, there are two others. But you do 
agree that place is real?
    Secretary Moniz. Oh, I have been there.
    Senator Graham. We have paid $5 billion.
    Secretary Moniz. It is big.
    Senator Graham. It would be a hell of a basketball court.
    Secretary Moniz. It is big.
    Senator Graham. I do not know what we will do with it.
    But the bottom line, now, in 2010 was the new approach you 
are talking about studied as an alternative to MOX? What is the 
new approach, very quickly?
    Secretary Moniz. The new approach is actually the old 
approach of dilution and disposal, as we have done for roughly 
5 tons.
    Senator Graham. Was the old approach studied in 2010?
    Secretary Moniz. I do not believe so. I was not here at the 
time, but I do not believe it was looked at carefully. I think 
also in 2010----
    Senator Graham. So how can it all of a sudden be the best 
alternative when no one looked at it in 2010?
    Secretary Moniz. I think one of the issues is that in 2010, 
I think, first of all, the cost escalation was not fully 
appreciated. And frankly, the contractors have badly 
underestimated costs.
    Senator Graham. In 2016, the NDAA act said that you needed 
to rebaseline this project. Have you done that yet?
    Secretary Moniz. That is ongoing. The Army Corps of 
Engineers is doing that.
    Senator Graham. So in 2010, this new technology we are 
talking about today actually existed. Did anybody look at it 
and say this is better than MOX?
    Secretary Moniz. Again, I am speculating. In 2010, the 
issue was MOX was the program of record with the Russians. But 
again, the costs subsequently were recognized as being much 
higher.
    Senator Graham. So is the situation for MOX, we just missed 
it really badly on MOX, in terms of actual cost?
    Secretary Moniz. I think, yes. The cost, as you know, 
multiplied dramatically.
    Senator Graham. So how much did we miss it by? A thousand 
percent?
    Secretary Moniz. No, probably a factor of three, something 
like that.
    Senator Graham. So we missed it by a factor of three.
    Secretary Moniz. Probably.
    Senator Graham. Has anyone been fired?
    Secretary Moniz. Again, we should talk----
    Senator Graham. If you run a private business, and somebody 
created a project and you are $5 billion into it, and you find 
out it actually costs three times more than everybody thought, 
would you fire somebody?
    Secretary Moniz. Well, I did not say three times, by the 
way, from today, I meant from the original cost estimate.
    Senator Graham. Okay. Would you fire somebody?
    Secretary Moniz. Look, the contractor has had severe 
reassignments of----
    Senator Graham. I just want the committee to know the 
contractor would be willing to do a fixed-price contract.
    Secretary Moniz. Well, you and I discussed that with them 
at some point. And as we know, they came back in an 
unresponsive fashion.
    Senator Graham. Well, I disagree with you. But how much did 
the new technology cost?
    Secretary Moniz. We estimate probably around $15 billion 
lifetime costs.
    Senator Graham. How much time have you spent studying that?
    Secretary Moniz. Well, again, this is an old technology 
with essentially no technology risk.
    Senator Graham. The pathway forward for this new 
technology, do you have to get an agreement with the Russians 
before you can implement the new technology?
    Secretary Moniz. Yes, we have a well-defined, exercised, 
successfully----
    Senator Graham. How far along are you with the Russians?
    Secretary Moniz. We have had informal discussions, which 
have been positive. But frankly, until I think we have a signal 
in terms of which way we are going----
    Senator Graham. So we are going to change course and hope 
the Russians agree later?
    Secretary Moniz. Well, we are in a situation where the 
MOX----
    Senator Graham. Is that what you are saying?
    Secretary Moniz. The MOX approach has extreme 
uncertainties, the biggest one of all is finding $1 billion a 
year.
    Senator Graham. Well, it is not uncertain, it is just too 
expensive, you believe. It will work, won't it?
    Secretary Moniz. Presumably. There is a higher----
    Senator Graham. It works in France----
    Secretary Moniz. We assume it will work, of course.
    Senator Graham. [continuing]. Doesn't it?
    Secretary Moniz. It turns out that argument was used by the 
contractors mistakenly.
    Senator Graham. It doesn't work in France?
    Secretary Moniz. It works in France in a very different 
process under a very different regulatory regime, not using 
weapons plutonium, which brings in additional complications.
    Senator Graham. My time is up, but it seems to me that we 
started a project that apparently nobody knows if it even 
works. Somebody should be fired for that.
    Secretary Moniz. We expect it will work.
    Senator Graham. Well, okay. You are going to take this 
diluted material and put it where?
    Secretary Moniz. Well, we know that 13 tons certainly 
without permit or land withdrawal modifications, could be in 
WIPP (Waste Isolation Pilot Plant). And the first six tons from 
South Carolina----
    Senator Graham. Okay, where is WIPP?
    Secretary Moniz. That is in New Mexico.
    Senator Graham. Have you talked to Senator Udall about 
this?
    Secretary Moniz. We have had informal discussions, yes.
    [Laughter.]
    Secretary Moniz. As with the Russians.
    The first six tons, as I say, have long----
    Senator Graham. Informally, you may get about 20-something 
tons of plutonium blended down, so I want you to know that 
formally.
    The stuff at Texas, where does it go?
    Secretary Moniz. I'm sorry?
    Senator Graham. Does it all go through this blended 
process, all 34 tons?
    Secretary Moniz. Well, the proposal would be that all 34 
tons----
    Senator Graham. Does the $15 billion include all 34 tons?
    Secretary Moniz. Oh, yes. Yes, it did.
    Senator Graham. It did? Are you sure about that?
    Secretary Moniz. Well, I will check just to make absolutely 
sure. But----
    Senator Graham. I think you might want to check.
    Secretary Moniz. All right.
    Senator Graham. Finally, what legal changes would be 
necessary to change course? Would any changes in the law be 
required?
    Secretary Moniz. Changes of law? Well I am not the lawyer.
    Senator Graham. Have you talk to the lawyer?
    Secretary Moniz. What we know is the first----
    Senator Graham. Have you talked to the lawyer about what 
will happen----
    Secretary Moniz. The first 13 tons, as I say, no 
requirements----
    Senator Graham. There are 34 tons. I am not worried about 
13. What about the entire 34 tons?
    Secretary Moniz. That is uncertain in terms of what would 
be required.
    Senator Graham. Thank you.
    Senator Alexander. Thank you, Senator Graham.
    I am going to interject here. Senator Graham and I and the 
Secretary and Senator Feinstein all talked about this. This is 
a major decision that Congress has to deal with and that the 
administration needs to deal with. It does require more than a 
5-minute opportunity to ask questions, even in a second round, 
so we need to schedule additional time, Senator Feinstein and 
Senator Graham and other members of the committee who may be 
interested, to deal with this responsibly.
    We are talking about huge amounts of money here. You are 
suggesting it may be $1 billion a year, or a half billion 
dollars a year. We have spent a lot of time on it, so we need 
to spend more and take our stewardship very seriously. I have 
committed to Senator Graham that we will do that.
    Secretary Moniz. As always, I am happy, of course, to have 
that discussion.
    Senator Alexander. Thank you very much, Senator Graham.
    Senator Coons.

                         NATIONAL LABORATORIES

    Senator Coons. Thank you, Chairman Alexander and Ranking 
Member Feinstein. I appreciate your strong and bipartisan 
leadership of the subcommittee, and our chance to work 
together.
    Secretary Moniz, thank you for your service, for your 
testimony, and for your very capable leadership of the 
department. I am going to touch on a series of issues that are 
across two priority areas and then ask you to respond with the 
remaining time.
    First, on clean energy issues, thanks for your willingness 
to come to Delaware May 13 for our lab summit. As you know, I 
visited a number of the national labs, and I hope you will 
discover Delaware to be an open and supportive place that I 
hope will enter into some public-private collaborations that 
will benefit from the strength and reach of our labs.
    Secretary Moniz. The home of the first catalysis center at 
a university.
    Senator Coons. Correct. I am thrilled, as always, with what 
you know about Delaware.
    The independent review of national labs was released last 
December and had 36 general recommendations. I am interested in 
your views on whether Congress has an appropriate role and what 
it would be in terms of authorizing and appropriating some of 
those next steps.

                              CLEAN ENERGY

    Second, just in terms of the midterm clean energy issues, 
you have placed a great priority on clean energy innovation. 
Many of us have supported the doubling of research investment 
called for by the initial COMPETES Act. ARPA-E has made great 
strides. I was pleased to again be invited to speak at their 
summit.
    In addition to ARPA-E, DOE has the energy hubs EFRCs and 
NNMIs, and there are now regional clean energy partnerships. I 
hope you will speak to them and how, as building blocks of the 
whole innovation pipeline, they fit into your overall plan.
    And I hope you will talk about how we sustain something 
like the Mission Innovation commitment, a commitment to 
doubling investment in the clean energy transition.

                   JOINT COMPREHENSIVE PLAN OF ACTION

    Additionally, in visiting the IAEA headquarters back in 
January, I was told that as the world's nuclear watchdog, they 
need a reliable, long-term source of funding to implement the 
JCPOA and to accomplish their broader nonproliferation goals. A 
recent GAO report said that IAEA faces potential budget and 
human resources challenges in order to take advantage of the 
searching, inspection, opportunities that the JCPOA opened.
    How is the department helping the IAEA overcome these 
challenges? How are the national labs assisting in the 
recruiting, hiring, and training, which I understand to be a 
long and expensive process?
    Ali Akbar Salehi, head of the Atomic Energy Organization of 
Iran, just announced that they will be using some of their 
sanctions relief to train their next generation of nuclear 
scientists. Is this something about which you think we ought to 
be concerned? And do you see that as an appropriate use of 
their funds?
    Those are all my questions, and I welcome you using the 
rest of my time to answer them, as possible.
    Secretary Moniz. Okay, well, thank you, Senator Coons. I 
will have to be brief on each of them.

                 CRENEL REPORT ON NATIONAL LABORATORIES

    First, on the CRENEL report, the congressionally charged 
report on the laboratories, first of all, I think charging that 
panel is indicative of the interest certainly in this group. I 
want to emphasize that the panel, first of all, endorsed 
strongly the idea that this laboratory system is very 
important.
    Secondly, they also honed in on something that I completely 
agree with that, frankly, for a long time--bluntly, I would say 
from the end of the Cold War--there has been an increasing kind 
of transactional approach rather than a strategic approach to 
laboratory management. I think there is plenty of credit to go 
around.
    As the committee acknowledged, we have made some real 
progress in terms of restoring this more strategic work with 
laboratories. I could describe examples. But we have a way to 
go, and we are still looking at it.
    We have sent the report to Congress. We accept and will 
follow through on almost every recommendation. There are a 
couple that present some problems, but we stay in touch with 
the cochairs, and I think this has been a very, very good 
process. I can get more specific if you like off-line.

                           MISSION INNOVATION

    In terms of Mission Innovation, you have kind of actually 
said at all, that there are certainly new thrusts, but I do 
want to emphasize an important strengthening of some of the 
very successful programs that have been working with 
universities and labs and industries.

                                 ARPA-E

    You mentioned ARPA-E, so there is a good example where, 
with approximately 200 projects now finished, 36 companies have 
emerged. The fact that in their open call last year a 
successful program was able to support only between 2 percent 
to 3 percent of the projects kind of suggests we are leaving an 
awful lot of innovation on the table.

                              CLEAN ENERGY

    As we go into this world, putting aside one's view of 
specifics of the Paris agreement, the fact is every country in 
the world is committed to pursuing a clean energy future. That 
market, which has been booming, is going to boom even more. We 
should be there, keeping our innovation advantage in moving 
forward.
    Senator Alexander. Thank you, Senator Coons. We need to 
keep moving.
    Secretary Moniz. Okay, I can come to Iran later on.
    Senator Alexander. Senator Lankford.

                     LIQUEFIED NATURAL GAS EXPORTS

    Senator Lankford. Thank you, Mr. Chairman.
    And thanks for being here as well. I have a couple things 
just on multiple subjects here, so I will kind of rapidly run 
through some of these.
    The Department of Energy is currently taking the 
applications for LNG (Liquefied Natural Gas) exports to non-FTA 
countries. That has been a process that is ongoing. Is there a 
set timeline at this point about how long it takes to go 
through an application process at DOE, those LNG exports?
    Secretary Moniz. No, there is no set timeline. However, I 
would----
    Senator Lankford. What is a typical length of time to get 
an application done right now?
    Secretary Moniz. Recent experience has been weeks to a 
month, following FERC (Federal Energy Regulatory Commission) 
approval of the EIS.
    Senator Lankford. Okay, so FERC first and then DOE, 
correct? So that has been a quick process. It has not been an 
issue?
    Secretary Moniz. I do not think so, no. Right now, we have 
no applications to actually work on, having come through FERC.
    Senator Lankford. Okay, you have done the study of the 12 
to 20 Bcf (Billion Cubic Feet) per day of exports. That is out 
for comment at this point. Tell me what you think the process 
is at this point with that study now that it is out, now that 
it has comments?
    Secretary Moniz. Well, actually, the comment period has now 
ended, so we are now going through the comments. Then we 
prepare a response and then issue the report, either in its 
current or modified form.
    Senator Lankford. Right. That is what I was trying to pick 
up, the timeline for that. When do you think that final report 
will be out there? Or modified report?
    Secretary Moniz. We have no fixed time, but I will guess 
that we are talking within a month or two.
    Senator Lankford. Okay. Great. The findings at that point 
that I saw were marginally positive impact on the 
macroeconomics, no big issues, same as what it was with the 
earlier study as well. That was about 3 years ago.

                                 GRANTS

    Okay, let me walk through some of the grant issues. We are 
talking about a lot of increases in grant dollars. One of the 
questions that I always have is, how do we track that? Once you 
release a grant dollar out, for effectiveness, for use, how it 
is going, the diversity of the different groups that get it. So 
let me just ask a couple questions on it.
    When you start to track through this, how do you evaluate 
the performance of the grant money? Do you have a set formula 
for that? Do you have a set of criteria that we are releasing 
these grant dollars for this particular project, and this is 
the end goal? Or is it more open than that? Basically, I am 
asking, how do we help look back on the money and say, the 
money was spent, was that spent wisely?
    Secretary Moniz. It actually varies by program. I will give 
just maybe two examples.
    For example, we just mentioned ARPA-E. That is a case where 
the program managers are very active and engaged with the 
projects all along, monitoring success, guaranteeing early 
rather than late failure, if that is where it is going. Whereas 
in the Office of Science, if it is a university grant, it is 
more that the universities execute and produce their published 
papers and reports.
    Senator Lankford. So what I want to be able to evaluate is, 
before the money goes out the door, we have a set of evaluation 
metrics that we know about this grant, whether it is going to a 
university or somewhere else. Are you confident at this point 
every one of these grant opportunities go out there with a way 
to measure success on these?
    I understand this is research, so not everything turns out 
positive. I get that. That is why you do research. I am trying 
to figure out how we evaluate the metrics of this at the end. 
Do you feel confident that every one of these grant 
opportunities, regardless of how it goes out the door, has 
evaluation metrics?
    Secretary Moniz. Well, again, if we are not using metric in 
an overly formal sense, because it is done differently in each 
program, then I would say the answer is yes.
    Senator Lankford. Okay, that will be one of the things I 
want to be able to track on it. How do you track, at this 
point, research that would be done by the public sector and 
research that would be done only by us? What we are trying to 
determine often is, what is the research that will not be done 
unless we do it cooperatively as a Nation, that would be 
beneficial to the Nation long-term, rather than dipping into 
research that some corporation would have done, but they would 
be glad for the American taxpayer to pay for it instead? But if 
we pay for, great, they would love to have the research done, 
but we do not need to do that research, they would do it. Does 
that make sense?
    Secretary Moniz. Sure. I mean, that is part of the judgment 
of the research managers have to use. Although I would slightly 
modify it and say that sometimes the judgment is not just that 
it would not be done otherwise, but that we may feel that there 
is a major public benefit to an acceleration of it. Then we 
might do some cost-sharing to incentivize earlier work by the 
private sector.
    Senator Lankford. Okay, so then at that point, we are 
helping the private sector do their research or we take it away 
from them, and we would take it on? If you are seeing something 
that is ongoing that the public sector is already doing and we 
can accelerate it?
    Secretary Moniz. Or they are not doing it yet, but we would 
like them to get into it and accelerate. That is where we are 
assigning the public benefit, in those cases. But again, in 
other cases, obviously, most cases, it is about something that 
would not otherwise be done.
    In particular, the biggest criterion is capturing 
especially precompetitive work that one individual entity would 
not otherwise capture the benefits of and, therefore, would be 
reluctant to invest in it.

                       AGENCY-TO-AGENCY RESEARCH

    Senator Lankford. Right. And the final issue, and I do not 
want you to have to answer this, because I am out of time on 
it, is the agency-to-agency. This is one of the areas I want us 
to provide more oversight as a committee to be able to ask just 
the basic questions. Could it be done? Is it being done by 
another agency? Could it be done by an outside agency, if the 
taxpayer doesn't do it, freeing up dollars for us to be able to 
do other things? And finally, good evaluation tools, so at the 
backside of it, we can evaluate how it was used.
    To me, that is a philosophical oversight issue that we can 
take on as a committee, and I would look to be able to partner 
with you on the things that you have already learned that we 
can continue to use in the years ahead.
    Secretary Moniz. Okay.
    Senator Lankford. Thank you.
    Senator Alexander. Thank you, Senator Lankford.
    Senator Murray.

                              HANFORD SITE

    Senator Murray. Thank you, Mr. Chairman.
    Secretary Moniz, let me start with the Hanford site in 
central Washington. Year after year, I have found the 
President's budget to be shortsighted and inadequate when it 
comes to Hanford. This is really troubling because, as you well 
know, the Federal Government has a legal and a moral obligation 
to clean up Hanford and the other nuclear waste sites across 
the Nation.
    Now I do appreciate your focus on the tank farms and waste 
treatment plant and implementing direct, low-feed waste to 
begin processing waste as early as 2022. But I find it 
unacceptable that the President's budget essentially robs 
Richland operations to pay for the Office of River Protection's 
waste treatment mission. It is really critical that we finish 
the job on all fronts.
    I have a hard time seeing how that will get done when the 
administration has once again cut RL (Richland Operations 
Office) by $190 million. That is nearly double the amount that 
was cut last year.
    With those kinds of significant cuts, how is the 
administration going to meet its legally binding commitments to 
the Tri-Cities community?
    Secretary Moniz. Well, certainly, as you say, Senator 
Murray, first of all, within a limited total budget, we are 
trying to make sure we address the priorities, including those 
areas that I think have the highest risk, which especially is 
liquid waste at a variety of sites.
    Now coming to Richland, first of all, and I think you would 
agree, that we have made very substantial progress in the last 
year, certainly along the river corridor, for example. And the 
fiscal year 2017 budget will have major progress, complete the 
demolition of the plutonium finishing plant, move sludge from 
the K area away from the river, pumping the plateau, a lot of 
progress on the landfill.
    Senator Murray. I appreciate that. But several of the high-
risk projects that are close to the Columbia River and the City 
of Richland, specifically the 324 building and the 618-10 
burial grounds, they are underfunded in the President's budget, 
despite this subcommittee's clear support for completing them.
    So I want to ask you for your commitment that these 
critical projects will be funded, and if you could give me a 
detailed plan on how you are going to do that.
    Secretary Moniz. Sure, we certainly will do so. But I would 
emphasize that building 324, we are doing the procurements we 
need and will in fiscal year 2017, for the novel robotics 
technologies that we are going to need. So we can't just go in 
and move the dirt out until we develop the robotics.
    But we hear you, and we will respond to that.
    Senator Murray. Okay, well, we made a decision to focus 
cleanup on the reactors in the 300 area that is closest to the 
Columbia River and City of Richland. We have made great 
strides. But I really fear that this budget overall really 
foreshadows a decision by DOE to claim victory at RL and walk 
away from all the other cleanup RL is responsible for on the 
central plateau. RL still has a long list of cleanup on the 
central plateau, about 1,000 waste sites. We have 500 
facilities, contaminated groundwater, all pose risk to the 
public, to the environment, and to the work force.
    Every year that those are not addressed, DOE spends 
millions of dollars on surveillance and maintenance.
    So it is really critical that we know we have a commitment 
to that and not set it aside as we try to get all the critical 
work done on that. So I just wanted to make that point to you 
today.
    Secretary Moniz. Yes. We are trying to prioritize the 
risks. But let's work together on that. We will come back with 
a plan.

                         COLUMBIA RIVER TREATY

    Senator Murray. Okay. And finally, I want to ask you about 
the Columbia River Treaty. In December 2013, the administration 
was presented a regional consensus to modernize the Columbia 
River Treaty. It was a multiyear process involving our 
Northwest tribes and all of our stakeholders, and the entire 
Northwest delegation urged the administration to begin formal 
negotiations with Canada. But not a lot of progress has been 
made.
    My constituents are really concerned about the impacts the 
change in administration will have on these negotiations, and I 
wanted to urge you today to push the administration to begin 
these formal negotiations with Canada, and I really hope that 
you will proactively raise the Columbia River Treaty when Prime 
Minister Trudeau visits the United States this week.
    Secretary Moniz. If I may say, Senator Murray, because we 
agree with you, and, as you know, Bonneville is our lead 
negotiator in that, that I met with Secretary Kerry last week, 
and we both agreed about the importance of pushing this along. 
There is a negotiator and we certainly would like to----
    Senator Murray. We have had a negotiator for a while. We 
need this to get started, because we cannot afford to wait, 
once the new administration, whoever it is, to reeducate 
everybody, have new people appointed, and get it started. It 
needs to get started now.
    Secretary Moniz. Agreed.
    Senator Murray. Thank you.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Murray.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    It is good to see you, Mr. Secretary. I saw you not too 
long ago, I think at our Energy Committee.
    Secretary Moniz. Sorry.
    Senator Hoeven. I say, I think we saw each other at our 
Energy Committee not too long ago.
    Secretary Moniz. Yes, we did.
    Senator Hoeven. So it is nice to have you back.
    Secretary Moniz. Thank you.
    Senator Hoeven. It is good to see you again.

                    CARBON CAPTURE AND SEQUESTRATION

    I know this will surprise you immensely, but I am going to 
follow up on something we talked about there.
    We have companies in North Dakota, as you know, having been 
to North Dakota are capturing CO<INF>2</INF> and sequestering 
it. You are at the Dakota Gasification Company where they are 
capturing. It is a coal-fired electric plant. Actually in their 
case, they convert coal to synthetic natural gas. But then they 
capture the CO<INF>2</INF>, and we pipe it off to the oil 
fields and use it for tertiary oil recovery.
    We have other companies with power plants, coal-fired 
electric power plants, now they produce electricity, not 
synthetic methane. But they are trying to develop and implement 
post-combustion carbon capture retrofits to existing plans 
greater than 350 megawatt equivalent.
    Since you are a nuclear physicist, I know you understand 
that perfectly.
    They are, in fact, working with a very outstanding 
organization, which I know you are also well aware of, and I 
think our chairman may be as well, the Oak Ridge National 
Laboratory located in the State of Tennessee.
    So my simple question to you is, in your budget, you have 
$170 million proposed for large-scale, carbon capture 
sequestration demonstration projects. I am wondering if this 
would be the kind of thing that you would seek to participate 
in funding and developing in concert with some of our companies 
that are trying to lead the way forward with this post-
combustion carbon capture technology, actually implementing it, 
and working with such outstanding organizations as the Oak 
Ridge National Laboratory.
    Secretary Moniz. I would like to associate myself with your 
quality statement about the Oak Ridge National Laboratory.
    First, yes, first of all, we are continuing some large-
scale capturing demonstrations. But as you have said, in the 
fiscal year 2017 budget, we want to emphasize getting into 
smallish pilot projects of more novel technologies, chemical 
looping, oxy-combustion, et cetera. I think what you are 
talking about sounds like----
    Senator Hoeven. This is oxy-combustion.
    Secretary Moniz. Yes, I believe, again, I do not know all 
the details, but I believe it involves oxy-combustion and 
supercritical CO<INF>2</INF>, which we are also supporting in 
the fiscal year 2017 budget.
    So again, I think what we need is to have perhaps a group 
come in and provide a briefing on exactly what the cycle is. If 
it is a novel cycle, then that will be a question of going 
through a proposal process with our group.
    But we think this is a good time to really start pushing 
our next generation capture cycles.
    Senator Hoeven. But am I right, this is the kind of project 
that you are looking at using that funding for?
    Secretary Moniz. I do not know enough about it. From what I 
have heard----
    Senator Hoeven. You are not going to commit right here and 
now.
    Secretary Moniz. No, I am not. But it looks encouraging.
    Senator Hoeven. Good.
    Secretary Moniz. If it combines oxy and CO<INF>2</INF> 
supercritical, that is already an interesting cycle.
    Senator Hoeven. And the State of North Dakota is already 
working with these projects through our energy council, wherein 
the State participates through funding and other support as 
well as the University of North Dakota through the Energy and 
Environmental Research Center, which I think you have also 
visited.
    Secretary Moniz. I visited, and we support.
    Senator Hoeven. Okay, thank you.
    Senator Alexander. Thank you, Senator Hoeven.
    Senator Udall.
    Senator Udall. Thank you, Chairman Alexander.
    Good to see you again, Secretary Moniz. You are working 
hard on so many different issues, and many of them impact New 
Mexico, as you know.

           CONTRACT TRANSITIONS AT THE NATIONAL LABORATORIES

    We have two national security labs, Sandia and Los Alamos, 
that are doing very important national security work on 
preserving the stockpile and the capabilities.
    As you know, these major programs include the life 
extension projects. There is an issue I want to raise there, 
because you have pending contract negotiations for both Sandia 
and Los Alamos. I am concerned about losing sight of the ball 
during these transitions.
    Can we have your commitment you will work to ensure the 
transitions at the labs are as seamless as possible, and that 
we do not lose focus of the important national security work 
during this period?
    Secretary Moniz. Yes. And I can assure you that we are 
already thinking hard about that issue of the transitions.
    Senator Udall. Good. Thank you.
    Secretary Moniz. Of all the labs, actually, especially 
those in New Mexico.
    Senator Udall. Especially those, and I believe the one in 
California that the ranking member, Senator Feinstein, also----
    Secretary Moniz. I meant because of the contracts.
    Senator Udall. Yes, the contracts on those.

                    OFFICE OF TECHNOLOGY TRANSITIONS

    Now you and I have visited, and you had a visit to New 
Mexico, on technology transfer. We were very grateful to have 
Jetta Wong, the director of DOE's Office of Technology 
Transitions, out to New Mexico last fall to meet with some of 
the laboratory personnel at Sandia and Los Alamos.
    Expanding technology transfer I think is critical to 
maximize the economic impact of taxpayer dollars at the labs, 
so that innovations can move from the lab to the marketplace.
    I support a permanent line item for the Office of 
Technology Transitions and its critical missions.
    My question is, does $8.4 million in your request provide 
the resources needed to administer the technology 
commercialization fund and coordinate tech transfer initiatives 
across all 17 national labs? And does the OTT (Office of 
Technology Transitions) have the flexibility it needs to 
effectively match funds with private partners?
    Secretary Moniz. Well, first, we do think the $8.5 million, 
roughly, is sufficient for the office to do that. Of course, 
that is working with the technology transitions offices in the 
various laboratories.
    There is one issue of flexibility where I am concerned. It 
is not about the matching funds per se, but the question about 
whether the technology commercialization fund must be spent 
exactly proportionally to each office's contribution versus 
allowing some more flexibility. Otherwise, it is very small, 
individual pots.
    But that is one area where I would say it may be 
challenging.
    Senator Udall. If there is any help we can give on that, 
please let us know.
    Secretary Moniz. Great.

                           MISSION INNOVATION

    Senator Udall. I am also very interested in this Mission 
Innovation that I think you and I have spoken about, a new 
initiative to double funding in DOE's clean energy research 
portfolio over the next 5 years.
    Could you tell us a little bit about that and how you see 
that moving forward to meet the energy challenges of the 
future?
    Secretary Moniz. Again, I think this is really about the 
highest priority right now in terms of moving forward in the 
energy space. It will both enhance critical programs that we 
already have. We have mentioned ARPA-E several times, but there 
are others, the Energy Frontier Research Centers at both 
laboratories and universities, the bioenergy centers, a whole 
set of them, the hubs, which are principally at the 
laboratories.
    They will be within that new area. For example, we propose 
a significant expansion, actually a tripling of the Energy-
Water Nexus Crosscut. That would include a new hub focused on 
desalinization, energy efficient desalinization, very 
important. We also have a large grid program, actually, the 
labs put together a grid program. And last year we committed 
over $200 million to lab-led programs on the grid.
    But in addition, there will be some new thrusts, one of 
which I mentioned in my opening statement is we proposed $110 
million to go toward new regional energy partnerships with the 
idea that that can stimulate innovation ecosystems across our 
entire country.

                     WASTE ISOLATION PILOT PROJECT

    Senator Udall. Great. I just wanted to double-check with 
you on the opening of WIPP. I understand that you have it on 
track to reopen.
    Secretary Moniz. We believe that we are on still on track 
for late this year, to begin placing TRU waste.
    Senator Udall. And one of the important things there is 
making sure that it reopens safely----
    Secretary Moniz. Absolutely.
    Senator Udall. [continuing]. In terms of the employees and 
everyone. As you know, that has been my main concern with WIPP.
    But thank you very much for the job you are doing.
    Mr. Chairman, I yield back.
    Senator Alexander. Thank you, Senator Udall.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. And thank you, 
Mr. Secretary, for being here this afternoon.

                 SITING AND PERMITTING ENERGY PROJECTS

    The agency's 2015 quadrennial energy review calls for more 
public participation in the siting and permitting process for 
energy projects. We have two projects in New Hampshire that 
there is a great deal of concern about in the communities that 
they are going through. One is in the northern part of State 
called Northern Pass, which is a project bringing down 
waterpower from Hydro-Quebec. The other is a gas pipeline that 
is going through the southwestern part of the State.
    I just wonder if you can talk about the importance of 
public engagement in siting and permitting these kinds of 
energy projects, because I think it is fair to say that the 
people who are going to be affected by those projects feel 
like, while there have been public hearings and there is a 
process in place, many people do not feel like that process is 
really taking into account what their concerns are and has 
responded adequately to that.
    So can you talk about that and also talk about whether 
there is more that FERC can do to address public concerns 
because they have, from the public perspective, a very opaque 
process for how they operate and what their decisions depend 
on.
    Secretary Moniz. I can certainly speak more about the DOE's 
approach. I certainly agree with the importance of input, 
including being sometimes patient, in terms of going through 
the process.

                             NORTHERN PASS

    To take Northern Pass, I think the process has already 
resulted in changes in the proposal. I think it was 50 miles, 
roughly, more now going underground, which was a positive. That 
was filed. We have reopened public comment.
    Frankly, I think there are four meetings this week in New 
Hampshire, public meetings on that. And frankly, we appreciated 
working with you and the delegation in terms of how the 
scheduling and locations would be optimally set.
    So we will be getting the feedback from this week's 
meetings on Northern Pass.
    With regard to FERC, I really cannot say too much in terms 
of how they might modify processes. I think you would have to 
ask Norman Bay.

                           ENERGY EFFICIENCY

    Senator Shaheen. We have tried that.
    I want to switch to energy efficiency, because I was 
pleased to see that the budget request includes strong funding 
for energy efficiency programs and EERE (Energy Efficiency and 
Renewable Energy).
    As I know you are aware, because you are from New England, 
we have faced very high energy costs for decades in the 
Northeast. For many businesses, next to the cost of personnel 
and product costs, it is often the next highest cost of doing 
business in New England.
    Secretary Moniz. And a competitive question, therefore.
    Senator Shaheen. Yes. One of the things that for many of 
those small businesses that has been very helpful has been 
their ability to be more energy efficient and to access 
assistance with that energy efficiency.
    So can you talk about initiatives within EERE that will 
help small businesses as they are trying to facilitate the 
deployment of energy efficiency technologies?
    Secretary Moniz. Certainly, again, I really appreciate your 
strong focus on efficiency because, again, I have said it 
before, but I would like to repeat it, I have never seen a 
credible solution to meeting our long-term goals without major 
demand-side contribution.
    Senator Shaheen. Right.
    Secretary Moniz. So it is critical.
    So we are working across-the-board. We are working with 
buildings, in particular commercial buildings. Things like the 
Better Buildings Challenge are critical. That has been 
tremendously successful. And it is really just using our 
convening power as opposed to budget. So this kind of branding 
and a critical requirement to share best practices, that is 
having a huge impact.
    Of course, on weatherization for homes, we do propose a 
several percent increase in the budget. Another different 
direction--okay, I will mention first the R&D.
    On the R&D, we propose a substantial increase in terms of 
the technology development for building efficiency. That has 
multiple aspects.
    In terms of standards, I would note that we just put out a 
notice of proposed rulemaking on general service lamps. By the 
way, I also just did something for the NHL, who has made a huge 
move toward LEDs and other energy efficiency activities.
    Senator Shaheen. By NHL you mean National Hockey League?
    Secretary Moniz. National Hockey League.
    Senator Shaheen. I just want to clarify that. Right.
    Secretary Moniz. Believe it or not, the National Hockey 
League and NASCAR are two organizations that are really pushing 
hard on clean energy. We are working with them. With NHL, it is 
LEDs, refrigeration, and other kinds of issues.
    But also I would note that in just the last year, this is 
quite relevant to small businesses and commercial enterprises, 
we put out a consensus standard done with the stakeholders as 
opposed to a more formal DOE rulemaking on commercial furnaces, 
the rooftop kind of boxes. That is a very big deal. It is the 
biggest efficiency rule that we put out, and it was done on a 
consensus basis representing the different relevant sectors.
    So it is really across the board, from R&D to standards to 
convening and getting best practices shared.
    Senator Shaheen. Thank you. I assume you would agree with 
me that it would be very good for us to pass the energy bill 
that is currently on the floor the Senate?
    Secretary Moniz. Maybe even a further strengthened one.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Shaheen.

      URANIUM ENRICHMENT DECONTAMINATION AND DECOMMISSIONING FUND

    Mr. Secretary, Senator Feinstein asked you about the $674 
million that the President's budget allocates from the USEC 
Fund, in fact, for cleaning up uranium enrichment sites in 
Tennessee, Kentucky, and Ohio. That $674 million is not now 
authorized for that purpose, is that correct?
    Secretary Moniz. Well, my understanding is that those are 
existing funds that have been put there--as I said, in 2000----
    Senator Alexander. No, I don't think that is correct. I 
think they are authorized for USEC. They are not authorized to 
clean up uranium enrichment sites.
    Secretary Moniz. I will correct this for the record, if it 
is incorrect, but I believe in 2000, there was specifically a 
designation of part of that fund for cleanup, for D&D.
    Senator Alexander. Staff says it is a small portion that 
never got used.
    Secretary Moniz. It was a small portion, but as a reminder, 
all of that fund bears interest, and it is now a very 
substantial amount.
    Senator Alexander. It is a substantial fund. But the bottom 
line I think, if we cannot use that fund, there are zero 
dollars in your budget for cleaning up uranium enrichment sites 
in Tennessee, Kentucky, and Ohio. Isn't that correct?
    Secretary Moniz. We certainly need to continue that work. 
And again, we proposed a way of going back to the initial 
concept, that the users pay with a very, very small fee.
    Senator Alexander. I think the answer is there is zero, 
unless we can use the USEC money, right?
    Secretary Moniz. Our proposal is to use the USEC Fund.
    Senator Alexander. Right. But I am not convinced that we 
have the authority to use it. So why have you not asked 
Congress to reauthorize the money so that we can use it for the 
purpose you intend?
    Secretary Moniz. Well, I think our budget proposal to the 
Congress----
    Senator Alexander. But it would require new legislation, 
would it not? I mean, wouldn't the Energy Committee have to 
reauthorize the use of the money for the purpose you now 
intend?
    Secretary Moniz. First of all, we have, of course, 
discussed this with the Energy Committee last week.
    Senator Alexander. But you have not sent them any 
legislation.
    Secretary Moniz. Again, I do not want to get onto shaky 
ground with that, in terms of what is needed. My impression is 
that certainly Congress could go forward with that fund, but it 
would require----
    Senator Alexander. With all respect for you, and you know I 
have a lot for you, I think you are already on shaky ground 
here.
    Secretary Moniz. I mean, we certainly can be forthcoming 
with a proposal for legislation.
    Senator Alexander. I think basically the administration has 
done something that other administrations have done for things 
they think Congress will find other money for. The Army Corps 
of Engineers is the second example. They know Congress cares 
about that because people care about it, so they underfund it, 
knowing that we will have to make up the money, which we did 
last year.
    And you know that we have to clean up the uranium 
enrichment sites in those three States, so basically you put 
zero in the budget for it, knowing we are going to have to use 
discretionary money, and that means reduce other funding.
    So I would ask that if you want us to use that, that you 
consider sending promptly up to the Congress a request for the 
authority to do it----
    Secretary Moniz. Okay.
    Senator Alexander. [continuing]. If it is needed. Let me go 
back----
    Secretary Moniz. We will follow up on that, Mr. Chairman.

                          CARBON USE AND REUSE

    Senator Alexander. [continuing]. To something we discussed 
privately before. I am not a scientist and I do not pretend to 
be, but my common sense is pretty good.
    We are in a swivet in this country and the world over 
climate change and the need to produce carbon-free electricity. 
And we figured out a way in our power plants to get rid of 
sulfur, nitrogen, and mercury, and a number of other elements.
    As a result, the air in Tennessee around the Smoky 
Mountains is a lot cleaner. You can actually see the Smokies. 
People like that.
    We have not really figured out as well a commercially 
viable way to capture carbon and do something with it if it 
comes out of a power plant, out of a coal-fired power plant or 
out of a gas-fired power plant.
    There is a limited mechanism we have for capture and 
sequestration, which could be available some places. But even 
if it is available, it is very expensive. And the process of 
carbon capture for any purpose is expensive.
    Would it not be a huge priority for this clean energy 
research to see if we can reduce the cost of carbon capture and 
find some commercially viable use for what we capture? Wouldn't 
that permit us to use unlimited amounts of coal and gas, and 
reduce poverty around the world, and reduce the cost of 
electricity?
    Secretary Moniz. We totally agree. I think we are doing 
that. Maybe we could do more, but we are doing that across-the-
board.
    So first of all, again, the fiscal year 2017 budget 
specifically has the proposal for doing three novel 
technologies, obviously, with the hope that they would also be 
lower cost.
    I do want to emphasize, even with conventional capture, the 
costs have been coming down with more and more use. And also 
the enhanced oil recovery, when the oil prices were higher, 
especially, provided a substantial offset against the cost. 
That is another issue lower oil costs have impacted.
    So we are working on the front-end of different capture 
technologies, not just with different solvents but with 
different processes like chemical looping.
    Then on the backside, one example of a hub is the one that 
is basically working on sunlight to fuels, which means sunlight 
plus water plus CO<INF>2</INF> to fuels.
    Senator Alexander. Is that the ARPA-E company?
    Secretary Moniz. No, no. This is a hub, combination of 
Caltech and Berkeley doing that. But I think ARPA-E also has a 
program for this.
    The trick is the product has to be something with enormous 
use in the economy because of the magnitude of the 
CO<INF>2</INF>.
    Senator Alexander. Right, I understand. You can turn it 
into limestone, but who needs that much limestone, or whatever 
it is.
    My time is up, but it just seems to me that, from a common-
sense point of view, that is the holy grail of clean energy 
research, because if you can actually figure out how to make a 
commercially viable use of capturing carbon and then using it, 
holy smokes.
    Secretary Moniz. Mr. Chairman, I think, to me that is 
exactly the kind of big thing we would like to do in Mission 
Innovation.
    And by the way, I think I can say that when Bill Gates uses 
a prime example, that is the one he uses.
    Senator Alexander. Senator Feinstein.

                           WATER DESALINATION

    Senator Feinstein. Thanks very much, Mr. Chairman. I have 
four questions, but the first one is kind of interesting.
    I am a big believer in desal. I would like to see it go 
ahead. There are 27 proposals for the coast of California. I 
saw where you have a proposal for $45,100,000 for one of these 
hubs on desal. So I thought, well, is this to develop a third-
stage membrane to improve the reverse osmosis process, and I 
took a look at the budget.
    Mr. Secretary, let me tell you what this says: The Energy-
Water Nexus Crosscutting Initiative, which draws on ideas--this 
is under this section--presented in DOE's report ``The Water-
Energy Nexus Challenges and Opportunities,'' is an integrated 
set of cross program initiatives that builds and deploys on a 
DOE mission critical data modeling and analysis platform to 
improve understanding and informed decisionmaking.
    It goes on like that. I come to the end, I mean, I do not 
understand a single word in this. And yet, at least my approval 
has to go on this.
    Why does your staff write budgets like this?
    Secretary Moniz. I will have to ask them.
    [Laughter.]
    Secretary Moniz. If I could say it in English, $25 million 
of it will be the desal hub, looking at novel technologies. We 
will be looking at wastewater utilization, at the issues of how 
one moves water over large distances, all of which, of course, 
are quite relevant to California, for example.
    Senator Feinstein. Yes, but stop. I understand the big 
problem is that the energy coefficient is not positive, ergo 
the need for a better membrane, reverse osmosis membrane. So 
the needed research is to come up with what is called a third-
stage membrane. So I wanted to see if this is it. But nowhere 
on page 62 is there any specific information as to what would 
be funded in this desal hub.
    So I am sure not going to vote for it until I know what it 
is going to do, because I know what the need is for the third-
stage membrane.
    Secretary Moniz. We will send to you a white paper.
    Senator Feinstein. Thank you. Well, that I can understand.
    Secretary Moniz. Right.

                       NATIONAL IGNITION FACILITY

    Senator Feinstein. Let me talk about the National Ignition 
Facility. It was supposed to have achieved limited controlled 
fusion burn, also called ignition, in 2012. Now I am told it 
will be as long as 10 years before ignition will be achieved, 
if ever.
    The question is, what is the present status of the ignition 
effort? The last time I was there, they were not going for 
ignition. They were going for other things.
    Can you share your view of the likelihood of NIF (National 
Ignition Facility) ever achieving ignition?
    Secretary Moniz. So I think it is important as a prologue 
to say that there is a lot of work, critical work, frankly, 
most of the stockpile stewardship work, without ignition, has 
made major contributions, especially in exploring extreme 
pressure regimes for weapons.
    And also, the other piece of good news is last year there 
were a record number of shots, I think 350, if I recall 
correctly.
    But on ignition, that has proved very elusive. They are 
still looking at different designs of targets to try to get 
there. I have to be honest. I cannot sit here and in any sense 
guarantee that it will reach ignition. I can say that it has 
provided extremely useful and important data for the stockpile 
stewardship program.
    Senator Feinstein. As you know, this is a very expensive 
program. If it is not going to reach its goal, which I 
understand it may never be able to produce fusion----
    Secretary Moniz. As I said, I certainly would not 
guarantee--yes, ignition or fusion.
    However, frankly, I think it should have been phrased 
differently--I do not mean by you; I mean by them--because the 
real goal, the key goal, was exploring extreme regimes of 
pressure and temperature of relevance to nuclear weapons, and 
that has been done.
    Senator Feinstein. Well, I was here when Pete Domenici was 
on the committee and opposed this. We voted for it. And here we 
are 10 years-plus later, and it is not there.
    Now here is another one.
    I am sorry, may I take a couple minutes?
    Senator Alexander. Sure.

            INTERNATIONAL THERMONUCLEAR EXPERIMENTAL REACTOR

    Senator Feinstein. ITER. If the United States remains a 
partner, the ITER project would require a yearly appropriation 
soon of between $250 million and $400 million. It is my 
understanding that such a funding level would make ITER the 
single most expensive Office of Science project on a yearly 
basis. Such a funding requirement would negatively impact our 
ability to invest in new or upgraded scientific facilities such 
as the light sources.
    Today, in the fiscal year 2017 budget request, fusion 
energy science is the lowest priority of science programs. It 
was cut by 9 percent while other programs went up from 3 
percent to 7 percent.
    So the fiscal year 2016 bill requires you to make a 
recommendation to Congress by May 6, 2016, on whether the 
United States should remain a partner in the ITER project or 
withdraw. What is your current thinking?
    Secretary Moniz. Senator Feinstein, first of all, let me 
just note that while the total budget went down in fusion, the 
ITER request is up slightly, I think $10 million, at least 
provisionally until we make the May report. But a big part--I 
can say this now that I am no longer recused. A big part of 
that is the elimination of the MIT program in that budget.
    With regard to ITER, we will have a report in April that 
will be a key piece of information for the May report. I would 
say for sure that the management has really significantly I 
think been upgraded with Mr. Bigot as the director general.
    But we have to see in April what the project review 
information is. Then we will get back to Congress in early May.
    Senator Feinstein. Well, this is an international program. 
I do not know why we need to participate, candidly. If we 
continue to do so, the costs are huge. I mean, I am really a 
doubting Thomasina there.

                         LOAN GUARANTEE PROGRAM

    Let me ask you another one, and that is loan guarantee 
program number two. There is already $4 billion in loan 
authority tied to uranium enrichment. $2 billion of the 
enrichment loan authority is tied to the conditional loan 
guarantee with Areva, a French state-owned company. This 
conditional loan guarantee was made in 2010. In May, it will be 
6 years.
    To my staff's knowledge, and therefore, my knowledge, there 
has been no tangible action related to the Areva conditional 
loan in years.
    The other $2 billion in uranium enrichment loan authority 
was previously widely viewed as tied to USEC, and USEC has gone 
through bankruptcy, and the department just closed the project 
in Ohio.
    So question: Why not reclassify the existing $4 billion 
uranium enrichment loan authority for fossil and renewable 
energy rather than seek new loan authority?
    Secretary Moniz. Well, we would similarly need the 
authority of Congress to do that.
    Senator Feinstein. Is that your proposal?
    Secretary Moniz. No, our proposal was $4 billion of 
additional authority, but if one chose instead to try to 
relabel it--as you said, that is for fossil efficiency and 
renewables. The nuclear loan program does have considerable 
amount of remaining authority, but we do not have the authority 
to transfer that to renewables.
    Senator Feinstein. Could the chairman and I and you, could 
we sit down and discuss this?
    Secretary Moniz. Sure, I would be delighted.
    Senator Feinstein. Maybe at the end of the discussion, at 
least I will know exactly the pros and cons of this.
    Secretary Moniz. Yes. Yes.
    Senator Feinstein. Okay. We have yet to receive a proposal 
from the department as to how much crude oil the SPRO intends 
to sell in fiscal year 2017, for the purpose of SPRO 
modernization. When can we expect to see a budget amendment 
from the department proposing that sale?
    Secretary Moniz. We are working to get that as soon as 
possible. The report is due in May, and we would like to try to 
accelerate that. We are working hard at that. I cannot give you 
a fixed date, but we have every motivation to try to get that 
to you as soon as we can.
    Senator Feinstein. Yes, thank you.
    Secretary Moniz. And we would like to start that program in 
fiscal year 2017.
    Senator Feinstein. Okay.
    What do you think the chances are that we could--are we wed 
to that loan guarantee of Areva? Nothing has happened. It is 6 
years, no tangible action.
    Secretary Moniz. I cannot discuss an individual 
application, however----
    Senator Feinstein. It was for USEC.
    Secretary Moniz [continuing]. I would just note that right 
now the whole uranium enrichment market is, if anything, 
oversupplied, and I think there is not a strong commercial 
motivation right now.
    Senator Feinstein. Okay, so what you are saying is that we 
really do not need it, so I assume you will take some action to 
change that.
    Secretary Moniz. I will consult with the program in terms 
of what action we take.
    Senator Feinstein. Thank you.
    Thanks, Mr. Chairman.
    Senator Alexander. Do you have any other questions?
    Senator Feinstein. No, that is fine.
    Senator Alexander. Thanks, Mr. Secretary. It seems to me 
that Senator Feinstein has raised some issues we need to 
pursue.

            INTERNATIONAL THERMONUCLEAR EXPERIMENTAL REACTOR

    The ITER decision, it may be a nice thing to participate 
in, but we have real, pressing budget priorities here that we 
are going to have a hard time meeting, and we are counting on 
you with your background to help us make a correct decision on 
that, not just whether it is something that might be nice, but 
whether it is more important than the other options that we 
have to fund.

      URANIUM ENRICHMENT DECONTAMINATION AND DECOMMISSIONING FUND

    Number two, that $674 million is a problem. You know that. 
I know that. If you really think you want to use some of that 
$1.8 billion to help pay for it, then we need to get resolved 
the authority to do that.
    Secretary Moniz. So we will follow your suggestion about 
presenting some language.

                 MIXED OXIDE FUEL FABRICATION FACILITY

    Senator Alexander. And three, Senator Feinstein and I both 
want to continue a deliberate focus on MOX. We have discussed 
it in-depth before. When we dealt with the uranium facility, we 
had a red team to take a look at it. It came back with a 
recommendation. We adopted the recommendation. We have a cap of 
$6.5 billion and a date of 2025, and we have a path toward 
getting there, so we have resolved that.
    The MOX is a different kind of problem. You have 
recommended that we switch from one way of dealing with the 
plutonium to another. Your red team, that separate red team, 
told us basically that the cost might save us $500 billion a 
year.
    Secretary Moniz. $500 million.
    Senator Alexander. $500 million a year. I have to get my 
b's and m's right. $500 million a year.
    Secretary Moniz. It may be $600 million or $700 million, 
actually.
    Senator Alexander. So you are saying it could be $500 
million to $700 million or $800 million a year for many years 
that might be the difference in spending.
    So we have an obligation to the taxpayer to address that 
question and to do it promptly. I think you are correct to try 
to address it in the budget, and we need to take sufficient 
time to deal with it.
    We know that requires a discussion with Russia. We know 
that we have to have a place to put the plutonium. We also know 
that there is a place to put the plutonium today, as soon as 
WIPP opens, which you would expect to be later this year. Is 
that correct?
    Secretary Moniz. Initial operations.
    Senator Alexander. Initial operations. There is a backlog 
of material to go to WIPP, and the South Carolina plutonium 
would have to get in line. But my understanding is that all 13 
tons of plutonium that are now in South Carolina could go into 
the WIPP facility once it reopens without changing the law and 
adding new land. Is that correct?
    Secretary Moniz. Correct.
    Senator Alexander. But that still leaves open the question 
of what to do about the entire 34 tons that we are obligated to 
deal with and what about an agreement with Russia.
    So Senator Graham and others are right to want an answer to 
that. The taxpayers are going to want to know from us why we 
are spending $500 million to $800 million a year on something 
where we could have saved that much money, if that is true, and 
when we have very pressing other needs, for example, cleaning 
up uranium enrichment, clean energy investment, the Office of 
Science investments.
    So I will be working with Senator Feinstein and Senator 
Graham and others who are interested to set up a scheduled 
discussion to permit us to deal with the MOX issue on a 
deliberate basis.
    Secretary Moniz. Great. I am certainly happy to work with 
you on that.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Alexander. Well, the hearing record will remain 
open for 10 days. Members may submit additional information or 
questions for the record within that time, if they would like. 
The subcommittee requests all responses to questions for the 
record to be provided within 30 days of receipt.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Dr. Ernest J. Moniz
              Questions Submitted by Senator Thad Cochran
    Question. The fiscal year 2016 Energy and Water Appropriations bill 
provided $62,100,000 for the Advanced Fuels program to continue 
implementation of accident tolerant fuels development. It is my 
understanding that implementing the second phase of DOE's proposed fuel 
Development plan, which follows the completion of Phase 1 this fall, 
would require an increase in funding of approximately $15 million. The 
Department's budget request for fiscal year 2017 reduces funding for 
the ATF program by $3 million.
    Can you please explain to the Committee the why Department has not 
requested the necessary funds to this program?
    Answer. The development of advanced light water reactor fuel with 
enhanced accident tolerance continues to be a high priority for the 
Office of Nuclear Energy. The Department is working toward the goal set 
by Congress after the Fukushima accident to install test fuel rods or 
an assembly in a commercial power reactor by 2022. The fiscal year 2017 
Budget Request for the Fuel Cycle R&D Advanced Fuels subprogram 
balances work toward this near term goal with research on longer-term 
Advanced Light Water Reactor (LWR) fuel concepts, long term 
transmutation fuel concepts, cross cutting infrastructure development, 
and modeling and simulation support.
    Phase 2 of the Accident Tolerant Fuel (ATF) program is planned to 
begin in fiscal year 2017 and will be a 6-year effort to develop and 
qualify a small number of the most promising concepts. The number of 
concepts under investigation in fiscal year 2017 and beyond will drop 
sharply relative to the number of concepts that underwent preliminary 
investigations in Phase 1 due to down selecting to the most promising 
concepts from Phase 1.
    Question. Congress has been supportive of the Administration's 
efforts to promote the use of safe and clean nuclear energy, including 
Reactor Concepts Research, Development, and Demonstration (RD&D) 
program. The Committee and the Congress have continued to encourage the 
Department to support the development and evaluation of nuclear power 
technologies that are safer, create less waste, less costly, and more 
proliferation-resistant. It is my understanding that the Department 
recently awarded two contracts through the Advanced Reactor Concepts 
program.
    Please detail for the members of this Subcommittee the projected 
cost of delivered power for each of these applications, in addition to 
the estimated amount and type of waste each applicant's reactor would 
produce.
    Answer. The two awards issued by the Advanced Reactor Technologies 
(ART) program are at the early conceptual design phase, which limits 
the quantitative information available to accurately project costs of 
delivered power and waste generation. At this stage of development, one 
awardee's concept is indicating the potential for the costs of 
delivered power to be lower cost than conventional light water reactor 
technology based on innovative design features and, due to a liquid 
fuel form, it is expected to have a lower volume of waste than 
conventional light water reactor technology. The other awardee's 
concept draws heavily on NE's R&D program and is estimating higher 
efficiency electricity production that could contribute to a lower cost 
of power than conventional light water reactor technology, as well as a 
significant reduction in waste generation through the use of high burn-
up fuel.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. What are the Department's plans to continue the ongoing 
and vital environmental cleanup operations at the Paducah site 
following July 2017, when the current, 3-year deactivation contract is 
scheduled to end?
    Answer. The Department has an active procurement for a follow-on 
contractor at the Paducah Site that will provide continuity for the 
environmental cleanup operations and facility deactivation. The draft 
Request for Proposal has been made available to the industry. We also 
held an Industry Day from May 17-19, 2016. The Department is actively 
executing a plan that will allow for a seamless transition to the next 
contractor.
    Question. I have concerns about the lack of commitment for ongoing 
clean coal research in the President's fiscal year 2017 budget. For 
example, the President's budget proposes to reprogram $240 million out 
of the Fossil Energy Research and Development budget, which is 
currently committed to a clean coal project in its final stages of 
development. Congress explicitly appropriated funding for clean coal 
projects, like this one. Do you intend to continue funding this project 
to bring it to completion in the current fiscal year?
    Answer. Following an extensive and careful review, DOE's Office of 
Fossil Energy (FE) determined that advancing any additional Federal 
funds would not substantively increase the likelihood of Texas Clean 
Energy Project (TCEP) or Hydrogen Energy California Project (HECA) 
success, and that no additional taxpayer funds should be put towards 
these projects. A recent DOE Office of Inspector General audit report 
reached a similar conclusion to FE's in regards to not advancing any 
additional Federal funds to the TCEP project. DOE previously suspended 
HECA project funding in January 2015 for failing to make sufficient 
progress--most notably, not securing an approved site for the 
sequestration of the site's carbon dioxide after more than 6 years of 
effort. President's proposed fiscal year 2017 budget would use around 
$211 million from TCEP project funds and around $29 million from HECA 
project funds to secure the required $240 million for fiscal year 2017 
FE R&D budget.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
    Question. Domestic manufacturers of residential water heaters in 
the State of Alabama have recently expressed concern about the lack of 
a final rule from the Department of Energy (DOE) relating to new 
efficiency standards. While interim guidance and a subsequent rating 
became effective on July 13, 2015, the DOE has not yet published the 
final conversion factor associated with this rule.
    It is my understanding that DOE is continuing to work on this 
matter and that this conversion factor allows manufacturers to 
correctly rate existing products using the newly-established universal 
efficiency descriptor, or UEF, without incurring the expense of 
physically retesting individual and multiple products. Moreover, this 
new metric also allows consumers to more effectively compare a broad 
selection of water heating products and their efficiency to ensure the 
most appropriate fit for their needs. Such a model was outlined by 
Congress in the American Energy Manufacturing Technical Corrections Act 
(AEMTCA), on December 18, 2012, which also directed the DOE to 
promulgate implementing regulations.
    Secretary Moniz, does the DOE have a timeframe in which a final 
rule and conversion factor will be released? Secondly, can I have your 
assurance that an appropriate period of time, preferably at least 1 
year to phase in all existing models, will be incorporated in any final 
regulation to avoid disruption in the marketplace and compliance under 
the new UEF?
    Answer. The development of a mathematical conversion to a new 
efficiency metric from a prior metric is a complex task that must be 
given careful consideration in order to denominate standards and 
ratings in the new metric that are equivalent to those under the 
previous metric. This process requires a large amount of product 
testing and analysis, and an opportunity for stakeholders to provide 
comments, all of which can be time-intensive activities. The Department 
published a notice of proposed rulemaking (NOPR) on April 14, 2015 that 
proposed a mathematical conversion and accompanying standards 
denominated in the new efficiency metric. 80 FR 20116. The Department 
also convened a public meeting to discuss its proposed conversions as 
set forth in the NOPR, a meeting which generated significant 
stakeholder comment. After the publication of that NOPR, the industry 
trade association--the Air-conditioning, Heating, and Refrigeration 
Institute (AHRI)--provided additional test data to DOE to be used in 
the development of the mathematical conversion factor. During this 
period, DOE also conducted further testing of its own. Accordingly, DOE 
undertook a re-analysis to incorporate such additional data and is 
currently developing a supplemental NOPR that proposes a mathematical 
conversion factor and accompanying standards based on the expanded 
dataset. The Department plans to publish the supplemental NOPR in early 
summer and a final rule later this year.
    EPCA contains requirements to ensure that manufacturers' products 
that currently comply with Federal standards remain compliant after the 
conversion factor is issued. Specifically, EPCA requires that a covered 
water heater must be considered to comply with the final rule and with 
any revised labeling requirements established by the Federal Trade 
Commission to carry out the final rule if the covered water heater was 
manufactured prior to the effective date of the final rule and complied 
with the efficiency standards and labeling requirements in effect prior 
to the final rule (42 U.S.C. 6295(e)(5)(K)). The Department plans to 
adopt an approach that would determine compliance consistent with the 
requirements of EPCA.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. Secretary Moniz--On March 3, 2016, in response to a 
question by Senator Cassidy about the contractor's commitment to the 
MOX project you said: ``If I--may--if I may say precisely what the 
discussion was, the definition of fixed cost that came back was fixed 
cost unless we go over by a lot, and then you [DOE] pay. It's [the] 
truth.'' Later, on March 9, 2016, in response to my question during the 
Senate Appropriations Subcommittee on Energy and Water hearing, you 
commented on the contractor's commitment to a plan for fixed-cost 
pricing: ``You and I discussed that with them at some point and as we 
know they came back in an unresponsive fashion.''
    It is my understanding that the contractor made you an offer on 
February 20, 2014 to provide fixed cost pricing, in exchange for DOE's 
taking responsibility for changes to project scope or design that are 
ordered by DOE. Are you aware of a last-best offer made to DOE by the 
MOX contractor--in writing--on February 20, 2014? Are you also aware, 
to quote the offer, that it would ``allow [the contractor] to move as 
much as 100 percent of the scope into the fixed price `Bucket' in the 
future? Finally, did DOE ever respond to the contractor's final offer, 
on February 20, 2014, in writing?
    Answer. The Department is aware of the proposal that the MOX 
contractor sent to the Department in February 2014, but considered it 
unresponsive as it still contained exclusions and would at best cover 
only 75 percent of the remaining costs. This risk allocation is 
particularly important given the nature and extent of the remaining 
work to finish construction, startup, and operations of the MOX 
facility leaving approximately $10 billion subject to cost 
reimbursement, with no cost cap and potentially several billion in cost 
overruns as MOX Services has demonstrated on the work they are 
currently performing. In short this proposal did not meaningfully 
reduce risk to the Department since it moved additional scope into the 
fixed price category only after achieving milestones or triggers, many 
of which would not occur until the end of the project. We verbally 
communicated our rejection of it during discussions with the MOX 
contractor.
    Question. Secretary Moniz--On March 1, 2016, during the House 
Appropriations Subcommittee on Energy and Water hearing, you stated 
that an analysis conducted by High Bridge Associates on the potential 
criticality problems at WIPP that may arise from packing 47 metric tons 
of plutonium at the facility, along with the transuranic waste that 
would go to WIPP, was evaluated by the Sandia National Laboratory. Can 
you provide me, along with the appropriate congressional committees, 
with a copy of the Sandia National Laboratory's analysis?
    Answer. Yes, this analysis will be made available. A copy is 
provided for the record.
    Question. Secretary Moniz--On February, 23, 2016 and March 1, 2016, 
respectively, you and NNSA Administrator Klotz hinted at the potential 
need for a secondary repository, other than WIPP, to accommodate the 
total 47 metric tons of plutonium. At the Senate Armed Services 
Subcommittee on Strategic Forces hearing on February 23, 2016, 
Administrator Klotz responded with the following statement regarding my 
question about where DOE would send the diluted Savannah River and MOX-
bound Plutonium: ``We would send it to either WIPP or a repository like 
WIPP.'' Similarly, on March 1, 2016, during the House Appropriations 
Subcommittee on Energy and Water hearing, you stated: ``We're not 
saying that necessarily all of that [Savannah River and otherwise MOX-
bound plutonium] goes to New Mexico.'' Given these statements, has the 
Administration identified potential states and sites for another 
repository? Where are these sites located? What work has been done to 
determine the viability to use alternate disposal sites?
    Answer. In response to the Joint Explanatory Statement accompanying 
S. 1356, the National Defense Authorization Act for fiscal year 2016, 
the Department prepared a report that provides additional information 
relevant to these questions. The Department submitted the report to the 
Senate Armed Services Committee in May 2016.
    Question. Secretary Moniz--In all of your recent testimony to 
Congress regarding the Plutonium Management and Disposition Agreement 
of 2000 (PMDA), you have referred to ``informal discussions'' with both 
the Russian government and with ROSATOM, the Russian-owned nuclear 
power company and government agency responsible for implementing the 
PMDA. It is acknowledged that, in order to uphold the PMDA, the 
abandonment of MOX and a move towards the ``Dilute and Dispose'' 
alternative would require prior approval by the Russians. However, 
there is much debate over whether the Russians would (1) be willing to 
come to the negotiating table and (2) want something in return. If 
Russia does not agree to move forward with the Dilute and Dispose 
option, will the United States still proceed with this alternative 
disposal method?
    Answer. The PMDA (paragraph 1 of Article III) clearly provides a 
path for the Parties to agree on methods of disposition that do not 
entail irradiation as fuel in reactors (``any other methods that may be 
agreed by the Parties in writing''). We expect that Russia will work 
with us as we pursue a different method to achieve what is a mutually 
beneficial goal, just as the U.S. supported Russia's reassessment of 
its plutonium disposition strategy a few years ago.
    The U.S. Government has had an ongoing dialogue with Russian 
officials regarding the multiple analyses of plutonium disposition 
alternatives. The U.S. Government has requested formal consultations 
with Russia regarding the dilute and dispose method under the 
provisions of the PMDA. It is premature to discuss concerns with this 
approach before formal consultations begin.
    Question. Secretary Moniz, while I disagree with your plan for 
cancelling the MOX project, I know you share my feeling that the 
Savannah River Site is a national asset in many areas, including 
national security and innovate technology. Please give me your vision 
for the future of the site over the next 5 years, and the next 10 
years?
    Answer. In support of the DOE Strategic Plan, the Savannah River 
Site (SRS) is in the process of developing a joint Office of 
Environmental Management (EM)/National Nuclear Security Administration 
(NNSA) site-wide Strategic Plan addressing focus areas of Nuclear 
Security, Environmental Stewardship and Science and Energy. Completion 
of the SRS Strategic Plan is expected by the end of calendar year 2016. 
The focus areas of the plan include high level waste cleanup (including 
commissioning and startup of the Salt Waste Processing Facility); 
management and disposition of nuclear materials; continued optimization 
of the Savannah River National Laboratory in support of EM technology 
needs; and national security (e.g., tritium requirements).
                                 ______
                                 
             Questions Submitted by Senator James Lankford
    Question. The Department of Energy closed the public comment period 
for the study on exporting 12-20 bcf/day of LNG in February; this study 
found a ``marginally positive'' impact of higher LNG export volumes. 
When will the Department finish responding to public comments on the 
study?
    Answer. The 2014 EIA LNG Export Study and DOE-commissioned 2015 LNG 
Export Study (together, ``Studies'') examined the effects of LNG 
exports from 12 to 20 billion cubic feet of natural gas per day (Bcf/
day). The Studies and all comments were entered into the legal 
proceedings of all pending non-free trade agreement (FTA) LNG export 
applications. The Department will summarize issues raised in the public 
comments on the Studies and respond to these issues in the next final 
non-FTA LNG export order that would cause cumulative approved non-FTA 
LNG exports to exceed 12 Bcf/d.
    Question. The latest DOE approval brought total authorized exports 
to 11.80 bcf/day, making it likely that the next application before the 
Department will breach the 12 bcf/day volume. When will DOE be able to 
act on applications that would bring the total above 12 bcf/day?
    Answer. The Department has established a pattern of issuing final 
decisions on applications to export LNG to non-FTA countries promptly 
after FERC has issued an order denying rehearing requests on projects 
in which an environmental review was required and in which DOE was a 
cooperating agency. In these cases, DOE had begun work on the public 
interest review of these export applications while the environmental 
review of the project at FERC was ongoing. Accordingly, DOE has begun 
conducting public interest reviews of applications linked to 
proceedings at FERC that are currently pending a FERC final order on 
rehearing. These include applications by Lake Charles Exports, LLC and 
Jordan Cove Energy Project, L.P. In keeping with past practice, DOE 
expects to issue a final order promptly after FERC issues a final order 
on rehearing for either the Lake Charles or Jordan Cove liquefaction 
projects. If DOE authorizes the export volumes requested in one of 
these two applications, the total volume of approved, long-term LNG 
export authorizations to non-FTA countries would exceed 12 Bcf/d.
    Question. DOE provides significant funding in the form of grants, 
particularly out of the Energy Efficiency and Renewable Energy account. 
This year DOE is asking for a 104 percent increase in spending in this 
area, bringing the EERE budget to $4.233 billion for fiscal year 2017. 
Congress and the Department have proper controls in place to ensure 
that the goals of these programs are being met and funds are not being 
used on projects that do not have a Federal interest.
    What controls does DOE have in place to ensure that this money is 
spent on research that would not be done at universities or by the 
private sector without Federal involvement and investment?
    Answer. Applied research areas are defined in both the DOE and EERE 
strategic plans, as well as the multi-year plans maintained by EERE 
technology program offices. EERE regularly hosts workshops and 
publishes Requests for Information to help further define and regularly 
update these plans. All DOE funding for university and private sector 
execution are competitively awarded through Funding Opportunity 
Announcements (FOAs). Elements of the process used for these awards 
include:
  --Deputy Assistant Secretaries approve requirements for FOAs. Their 
        formal approval review assesses every project relative to five 
        core questions:
    --Impact--Is this a high-impact problem? If successfully developed 
            it should make material contributions toward national 
            energy goals.
    --Additionality--Will EERE funding make a large difference relative 
            to existing funding from other sources, including the 
            private sector?
    --Openness--Are we focusing on the broad problem we are trying to 
            solve and open to new ideas, approaches, and performers?
    --Enduring Economic Impact--How will EERE funding result in 
            enduring economic impact for the United States?
    --Proper Role of Government--Why is this investment a necessary, 
            proper, and unique role of government rather than something 
            best left to the private sector to address?
  --Independent experts score proposals during the pre-award merit 
        review process prior to selection and award.
  --Statements of Project Objectives establish milestones and success 
        metrics for each project. Progress and expenditures are managed 
        through EERE's Active Project Management program.
  --A peer review process provides objective progress reviews 
        throughout a project's lifecycle and can inform program 
        decisions going forward. EERE engages experts, including 
        experts from industry and from other Federal agencies, to 
        review our project portfolios for effectiveness, currency and 
        impact.
    Question. Does the Department have guidelines and metrics to 
evaluate the performance of grants once they are awarded? What are 
these metrics?
    Answer. Yes, the Department has put in place the following 
processes to establish metrics and then evaluate the performance of 
financial assistance awards: Statements of Project Objectives establish 
performance milestones throughout the execution phase of projects. 
Those milestones serve as the project metrics for performance 
monitoring and management. Progress and expenditures are managed 
through EERE's Active Project Management program. Project managers 
assess performance against milestones, as well as cost and schedule, 
quarterly.
  --Project managers are required to perform quarterly, written 
        projects assessments, an annual site visit for applicable 
        projects and at least two face-to-face meetings with performers 
        each year.
  --Invoice approval policy requires project manager confirmation of 
        reasonableness and activity completion and separate contracting 
        officer verification of cost allowability. Contracting officers 
        perform final invoice approval.
    Annual peer reviews provide objective performance reviews by 
experts not directly involved in the project's management. EERE engages 
experts, including those from industry and from other Federal agencies, 
to review our project portfolios for effectiveness, currency and 
impact.
    Question. Does the Department have robust cross-agency coordination 
to ensure that another agency is not undertaking the same research, 
such as NSF, EPA, etc.?
    Answer. Yes, EERE has very robust cross-agency coordination through 
a number of activities including Memorandums of Understanding (MOU), 
joint merit reviews and other activities performed as part of long-
range program planning and annual project activities.
    EERE engages with experts during development of our Multi-Year 
Program Plans and technology roadmaps to ensure we are only addressing 
the most pressing issues that require public investment. EERE engages 
industry and government experts prior to publication of Funding 
Opportunity Announcements through workshops, RFIs and pre-funding merit 
reviews. EERE does broad outreach to ensure that we access the most 
diverse set of experts.
    EERE has also partnered with the Department of Interior on an MOU 
for hydropower, with the Department of Commerce for manufacturing, with 
the Department of Agriculture on biomass research, and with the Federal 
Highway Administration for the Smart City Challenge, as well as many 
other collaborative relationships across government and industry. 
Specific examples of inter-agency collaboration include:
    EERE launched the Manufacturing Innovation through Energy and 
Commerce (MITEC) pilot in four states--Georgia, Michigan, Ohio, and 
Virginia. The program will provide small businesses access to the 
advanced tools, technology transfer expertise, and research 
capabilities of the Department of Energy's (DOE) national laboratories 
and to the technical assistance and business development resources of 
the Department of Commerce's Hollings Manufacturing Extension 
Partnership (MEP), which is a program within the National Institute of 
Standards and Technology (NIST). This new interagency partnership 
strives to broaden the commercial impact of the DOE's national labs and 
equip American entrepreneurs and businesses with the resources and 
support they need to develop new products, commercialize clean energy 
technologies and expand into global markets.
  --EERE and DOE partnered with the Department of Transportation (DOT) 
        through an MOU on Smart Transportation Systems and Alternative 
        Fuel Technologies to accelerate research, development, 
        demonstration and deployment of innovative smart transportation 
        systems and alternative fuel technologies.
  --EERE collaborated with the U.S. Environmental Protection Agency 
        (EPA) and SAE International to launch Green Racing, which uses 
        motorsport competition to develop and test cleaner fuels and 
        more efficient vehicle technologies that manufacturers can 
        transfer to consumer vehicles.
  --EERE's battery program collaborates extensively with the 
        Interagency Advanced Power Group, EPA, NASA, the National 
        Science Foundation, DOT and DoD.
    Question. Nuclear energy could become more critical in our nation's 
energy mix should regulations like the EPA's 111b and 111d be upheld by 
the courts. Yet, only a handful of new reactors have been licensed by 
the Nuclear Regulatory Commission since 1979. What is causing the lack 
of new, approved nuclear energy projects?
    Answer. There are several factors that have contributed to the lack 
of new nuclear project starts in the U.S. over the past few decades. 
One issue is that relative to other types of generation, nuclear plants 
have high capital costs (but they tend to have low O&M and fuel costs). 
The upfront costs of nuclear are high in part because the cost of 
commodities (such as steel and concrete) has increased, as has labor, 
and large, specialized nuclear components (such as steam generators and 
reactor coolant pumps). In addition, electricity prices in many regions 
are low, driven largely by low natural gas prices. U.S. utility 
decisions to add or replace electric generation capacity are based on 
these economics, and with the capital cost of building a natural gas 
plant significantly less than that of a similarly sized nuclear plant 
and with no projected rise in gas prices in the near future, nuclear 
power in some cases does not appear to be competitive to the domestic 
utility decision makers. This picture, however, can vary substantially 
by region: the competitiveness of nuclear depends on local factors 
including fuel and power prices, market structures, and policies.
    Question. Each new reactor is estimated to cost between $5 billion 
to $7 billion. What is behind this considerable construction cost? What 
steps could be taken to lower this cost and bring more nuclear energy 
online?
    Answer. Nuclear new build projects have become very expensive 
largely due to strict construction standards, increasing nuclear safety 
regulations, and high labor costs here in the U.S. and abroad. Safety 
features necessary for the current generation of reactors, such as 
massive containment domes and multiply redundant cooling and backup 
systems, make up a significant portion of such costs. The Department 
has taken steps to address the high cost of nuclear builds by 
supporting new designs that: (1) are more passively safe than designs 
in the existing fleet and require fewer redundant safety systems; (2) 
are constructed with modular components that are manufactured in 
factory environments and assembled at the construction site; and (3) 
are standardized (contrasted with the one-off designs of the past that 
have unique components and requirements) and are expected to result in 
consistency in construction, operation and regulation. The Department 
supported the development of two domestic Generation III+ large light 
water reactor (LWR) designs under the Nuclear Power 2010 program, and, 
as a result, four Westinghouse AP1000 reactors are currently being 
built in the Southeastern U.S. The Department is currently supporting 
the development of standardized, passively safe small modular reactors 
(SMRs), which could address many of the cost issues currently impacting 
the industry. SMRs are about a third or less of the size of the large 
LWRs; all components can be fabricated in a factory environment, which 
is expected to improve quality and reduce construction costs; and are 
sized to replace many of the aging fossil power generation plants that 
will be retired over the next decade. The Department expects the first 
SMR project to be constructed in the 2025 timeframe and is currently 
considering program options to continue to accelerate the 
commercialization of SMRs in the U.S.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Secretary Moniz, I remain concerned with the pattern I am 
seeing within the budget requests for Richland Operations (RL) at 
Hanford. The Administration made a decision to focus cleanup on the 
reactor areas and the 300 Area closest to the Columbia River and City 
of Richland, and you have made great strides with this cleanup under 
the 2015 Vision. However, I fear the fiscal year 2017 budget request, 
as well as last year's budget request, is leaving key projects in the 
2015 Vision unfinished. Specifically, the 324 Building and the 618-10 
burial ground projects have not been funded by the Administration 2 
years in a row. While I recognize that we are operating in times of 
constrained budgets, I ask that you provide me a detailed explanation 
of DOE's rationale for advancing other work within RL's 
responsibilities instead of completing the 2015 Vision.
    Answer. Richland's budget request supports continued cleanup 
progress at the Hanford Site, including the River Corridor. The 
Richland budget request is designed to maintain safe base operations; 
maintain surplus nuclear facilities; continue groundwater remediation; 
continue Plutonium Finishing Plant demolition, capping and 
demobilization; enable progress on River Corridor cleanup activities; 
and support K West Basin sludge removal progress in alignment with Tri-
Party Agreement milestones. At this level, Richland will also fund 
limited work scope associated with infrastructure upgrades and site-
wide essential services for Richland and the Office of River 
Protection.
    Further, the fiscal year 2016 Energy and Water Development and 
Related Agencies Appropriations Act directed the Department to provide 
to Congress a report on its 5-year plan for the River Corridor Closure 
Project that explains any deviations from previously made agreements. 
This report is currently in development, and is anticipated to be 
submitted to Congress later this year.
    Question. Similarly, I am concerned that with the 2015 Vision 
nearing completion, DOE will in turn slow cleanup work at RL and delay 
the projects RL is responsible for on the Central Plateau. Even with 
completion of work along the Columbia River, RL has much work to do on 
the Central Plateau, including remediation and demolition of 1,000 
waste sites, 500 facilities, and contaminated groundwater. Many of 
these are highly contaminated with radioactive and chemical waste, 
posing a risk to the public, environment, and workforce.
    Secretary Moniz, I strongly encourage DOE to develop and begin 
executing the next Vision for RL to address the critical Central 
Plateau cleanup work. Furthermore, I ask that you provide an outline of 
the Central Plateau cleanup plans covering at least the next 5 years 
and the funding needs to advance this work.
    Answer. As directed by Congress in the fiscal year 2016 Energy and 
Water Development and Related Agencies Appropriations Act the 
Department is currently working on a report that will provide a 5-year 
plan for the River Corridor Closure Project that explains any 
deviations from previously made agreements. This report is anticipated 
to be submitted to Congress later this year. The Department is prepared 
to address additional questions regarding future cleanup activities, 
including Hanford's central plateau work scope, through a detailed 
briefing to you or members of your staff.
    Question. Secretary Moniz, I appreciate the commitment DOE has 
shown to protecting the Hanford workforce and addressing the risks 
associated with chemical vapors in the tank farms. We owe the men and 
women who work at Hanford the highest safety standards.
    In February 2015, DOE released an implementation plan for the 
``Hanford Tank Vapor Assessment Report'' (Report) which is split into 
two phases to address the 47 recommendations within the Report. It is 
my understanding that $61 million was provided in fiscal years 2015 and 
2016 funding and that the fiscal year 2017 budget request includes $33 
million to support the implementation plan.
    Secretary Moniz, I commend the actions DOE has already taken. 
However, I understand the workforce remains on supplied-air respirators 
and to date no new personal protective equipment has been deployed for 
use by the workforce. Can you please provide status report on the 
implementation plan and what progress DOE has made to date? Has Phase 1 
been completed? And when does DOE expect to begin Phase 2? Finally, I 
ask that you continue to make funding the implementation plan a 
priority as you develop the fiscal year 2018 budget request.
    Answer. In February 2015, a Vapors Implementation Plan was issued 
by Washington River Protection Solutions LLC to address the vapor 
issues in the Hanford tank farms. DOE's Office of River Protection 
expects Phase 1 of the plan to be completed by the end of fiscal year 
2016. Presently, the Office of River Protection and, Washington River 
Protection Solutions, are testing application of an integrated suite of 
advanced monitoring and detection technology and software to the 
Hanford tank farm area. These technologies include infrared cameras, 
portable area sensors equipped with multiple chemical sensors, in-stack 
and area vapor detection equipment and portable meteorological 
stations. Because these technologies need to be tailored to the hazards 
encountered in the tank farm area, bench scale testing has been 
completed and a pilot scale test will be conducted in the A and AP Tank 
Farms this summer. Full scale deployment with the appropriate 
adaptation will occur after the pilot.
    Bench scale testing can be described as testing conducted under 
laboratory conditions, using simulated vapors, while pilot scale 
testing will be integrated testing conducted at the A and AP tank farms 
to determine the effectiveness in the natural environment. While some 
of these technologies have been used in other industries, they are used 
in configurations that may be different from those anticipated to be 
needed in the tank farm environment; hence, testing is necessary to 
confirm their effectiveness for this application.
    Question. The Texas Clean Energy Project (TCEP), funded under the 
Clean Coal Power Initiative (CCPI), is a first-of-a-kind commercial 
power plant that will employ innovative technology to capture 90 
percent of the plant's carbon emissions. I understand that several 
contracts and agreements, including a key engineering, procurement, and 
construction contract, have been finalized by TCEP since December 2015 
and that TCEP could reach financial close this year. To achieve this, 
Summit Power Group of Seattle, Washington, the developer of TCEP, 
recently requested $11 million in obligated funding under CCPI program. 
This previously awarded CCPI funding would be matched with at least $4 
million in private cost-share contributions. This request has been 
denied by the Department.
    Secretary Moniz, while I recognize it has taken longer than planned 
for TCEP, like many projects in the CCPI program, to reach financial 
close and begin construction, I respectfully request that you 
reconsider this decision given TCEP's recent progress. Further, I ask 
that you provide a full explanation on the Department's initial 
decision to withhold funding this project.
    Answer. Following an extensive and careful review, DOE's Office of 
Fossil Energy (FE) determined that advancing any additional Federal 
funds would not substantively increase the likelihood of Texas Clean 
Energy Project (TCEP) success, and that no additional taxpayer funds 
should be put towards the TCEP project. A recent DOE Office of 
Inspector General audit report reached a similar conclusion to FE's in 
regards to not advancing any additional Federal funds to the TCEP 
project. DOE recently extended the no-cost TCEP cooperative agreement 
through July 1, 2016, so project developers have additional time to 
secure alternative sources of financing.
    Question. Switching gears to the Bonneville Power Administration 
(BPA). Throughout my career I have worked to ensure BPA maintains the 
flexibility it needs to provide reliable, low-cost power in the Pacific 
Northwest.
    Congress explicitly gave BPA its own Federal authorities to carry 
out administrative and operational functions in a business-like manner 
consistent with sound business practices and Federal guidelines.
    Secretary Moniz, I appreciate your work to date in respecting BPA's 
authority to set policies that support the Pacific Northwest and its 
ratepayers. However, as we move to the end of this Administration and a 
time of transition, I ask for your assurances that DOE will continue to 
recognize BPA's unique authorities.
    Answer. The Department appreciates the unique role that BPA plays 
as a Federal electric utility working in a commercial energy market. 
The Department also recognizes that BPA carries out its commercial 
business primarily pursuant to Federal statutes specifically applicable 
to BPA. The Department recognizes that the Federal authorities in these 
statutes cover many administrative and operational functions, to be 
carried out using sound business principles.
    The Department will continue to respect the Federal laws 
specifically applicable to BPA, and will assure that any necessary 
Secretarial delegations of authority or Department directives to the 
BPA Administrator remain consistent with these Federal authorities.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question. I think that you will agree that the country is currently 
witnessing significant transformations in our electricity production. 
In New England, for example, we are seeing a steady shift to natural-
gas fired generation and more and more generation from renewable and 
demand resources. These changes have brought with it a large number of 
proposed projects to build and expand the region's upon current natural 
gas pipeline and electricity transmission infrastructure.
    We have two projects in particular that require Federal siting: 
Northern Pass, a proposed electric transmission line, which requires a 
Presidential Permit from DOE since the line would cross the 
international border into Quebec; and the Kinder Morgan Northeast 
Energy Direct gas pipeline project that currently has an application 
pending with the Federal Energy Regulatory Commission (FERC).
    Through the application process for both projects, I have regularly 
heard from many of my constituents in New Hampshire who are frustrated 
about the lack of information from DOE and FERC about the review 
process, and their belief that public input play only a minimal role in 
the review and approval process for energy infrastructure projects.
    That's why I read with interest the recommendations in your 
agency's 2015 Quadrennial Energy Review (QER) that echoed the concerns 
of Granite Staters and called for more public participation in the 
siting and permitting process. Specifically, the QER recommends that 
the agency deploy initiatives that:
  --prioritizes meaningful public engagement through coordination with 
        state and local governments; and
  --establishes regional and state partnerships to better engage 
        impacted communities.
    Can you discuss the importance of public engagement in the siting 
and permitting process for energy infrastructure projects, and what 
actions has DOE implemented, or will implement in the future, to meet 
the QER recommendations?
    Answer. Public engagement is essential for the credibility of the 
siting and permitting process for energy infrastructure projects. The 
first installment of the Quadrennial Energy Review (QER), which focused 
on energy transmission, storage, and distribution infrastructure, 
identified early and robust stakeholder engagement as a recognized best 
practice that can reduce delays and improve projects. The QER found 
that Federal agencies, by conducting public outreach and engaging with 
diverse sets of stakeholders, can avoid, minimize, and mitigate issues 
that might delay a siting or permitting decision.
    The Department is actively engaged in the implementation of 
recommendations from the QER related to the siting and permitting of 
energy infrastructure, which include:
  --Prioritizing meaningful public engagement through consultation with 
        Indian Tribes, coordination with state and local governments, 
        and facilitation of non-Federal partnerships; and
  --Establishing regional and state partnerships and co-locating 
        dedicated cross-disciplinary energy infrastructure teams.
    As a member of the Administration's Interagency Rapid Response Team 
for Transmission (RRTT), DOE works with eight interagency partners to 
improve the overall quality and timeliness of electric transmission 
infrastructure permitting, review, and consultation by the Federal 
Government on both Federal and non-Federal lands. The Administration 
created the RRTT in 2013, and following the QER's release, the RRTT has 
continued to apply a uniform approach to consultations with Tribal 
governments and to use Integrated Federal Planning to coordinate 
statutory permitting and review among Federal and state agencies. DOE 
also maintains an online dashboard listing the required permits; agency 
points of contact; milestones and due dates; and descriptions of 
progress for seven RRTT pilot projects.
    RRTT initially focused on the selected pilot projects because, when 
constructed, they will help increase electric reliability, integrate 
new renewable energy into the grid, and save consumers money. The pilot 
projects are geographically diverse and cross through 12 states: 
Arizona, Colorado, Idaho, Minnesota, New Mexico, Nevada, Wyoming, Utah, 
New Jersey, Pennsylvania, Oregon, and Wisconsin. They were carefully 
selected from lists produced through American Recovery and Reinvestment 
Act-funded, independent, broad stakeholder processes led by the Western 
Electricity Coordinating Council in the Western Interconnection, and by 
the Eastern Interconnection States' Planning Council for the Eastern 
Interconnection.
    The Department's Office of Electricity Delivery and Energy 
Reliability (OE), working in collaboration with interagency partners 
pursuant to Executive Order 13604 and the June 2013 Transmission 
Presidential Memorandum, sought public input on a draft Integrated 
Interagency Pre-Application (IIP) Process. The proposed IIP Process is 
intended to improve interagency and intergovernmental coordination 
focused on ensuring that project proponents develop and submit accurate 
and complete information early in the project planning process to 
facilitate efficient and timely environmental reviews and agency 
decisions. In February 2016, DOE published a Notice of Proposed 
Rulemaking in the Federal Register (81 FR 5383) to amend its 
regulations for the timely coordination of Federal Authorizations for 
proposed interstate electric transmission facilities pursuant to 
Section 216(h) of the Federal Power Act. The proposed amendments are 
intended to improve the pre-application procedures and result in more 
efficient processing of applications. While the proposed IIP rule does 
not apply to electric transmission projects crossing the Nation's 
international borders with Canada and Mexico, DOE has and will continue 
to encourage potential applicants to engage in pre-application 
coordination activities with DOE, other agencies, and stakeholders.
    DOE is also pursuing future actions to meet the QER's 
recommendations. The Fixing America's Surface Transportation (FAST) Act 
(Public Law 114-94) implemented many of the QER's siting and permitting 
recommendations. Among other things, Title XLI of the law establishes a 
Federal Permitting Improvement Steering Council, of which DOE is a 
member, to oversee the timely processing of permits and reviews. The 
law also enables agencies to recover reasonable costs for such 
activities and standardizes processes for resolving disputes. 
Additionally--and consistent with guidance issued in a September 2015 
Memorandum for Heads of Federal Departments and Agencies (M-15-20) \1\ 
from the Office of Management and Budget and the Council for 
Environmental Quality--the law requires expanded use of an online 
dashboard to track major infrastructure projects under Federal review. 
Use of the Dashboard will improve agencies' communication with project 
sponsors, enhance interagency coordination, and increase the 
transparency and accountability of the permitting process.
---------------------------------------------------------------------------
    \1\ Office of Management and Budget. ``Memorandum for Heads of 
Federal Departments and Agencies: Guidance Establishing Metrics for the 
Permitting and Environmental Review of Infrastructure Projects.'' 
September 22, 2015 (M-15-20). https://www.whitehouse.gov/sites/default/
files/omb/memoranda/2015/m-15-20.pdf.
---------------------------------------------------------------------------
    Sec. 41002 of the FAST Act also requires the interagency governance 
structure to issue annual best practice recommendations that (1) 
enhance early stakeholder engagement provided in public comments; (2) 
increase transparency; (3) reduce information collection requirements 
and other administrative burdens; (4) improve coordination between 
Federal and non-Federal governmental entities, including through the 
development of common data standards and terminology across agencies; 
and (5) create and distribute training materials useful to Federal, 
state, Tribal, and local permitting officials.
    Many of the provisions included in the FAST Act align with the QER 
as well as ongoing Administration activities. The Department will 
continue its work to implement the various provisions and guidance to 
improve public engagement during Federal permitting and review 
processes.
    Question. As a follow-up to the previous question, are there any 
priority actions Congress should be considering that would assist DOE 
in encouraging robust public participation in these permitting and 
siting processes?
    Answer. The QER underscored the value of robust public 
participation and found that the local nature of permitting decisions 
requires close stakeholder interaction and appropriate knowledge of 
local resource concerns to be addressed in the permitting process. 
Collaboration between Federal agencies and state, Tribal, and local 
governments that share permitting and review responsibilities for 
infrastructure projects is essential to moving a project quickly and 
efficiently.
    DOE continues to work with the Administration to build a robust 
infrastructure that safeguards communities and the environment while 
also strengthening the economy and creating new jobs. The 
Administration's ongoing efforts, as well as the permitting provisions 
contained in the FAST Act (Public Law 114-94), underscore the shared 
commitment of the Administration and Congress to improve the Federal 
permit review process for major infrastructure projects. As part of 
this process, DOE is committed to identifying ways to improve public 
participation and looks forward to continuing this work with Congress.
    Question. Last year, at the 21st United Nations Climate Change 
Conference, President Obama and several world leaders launched 
``Mission Innovation'', a landmark commitment to reduce greenhouse gas 
emissions by investing in public-private global clean energy 
innovation. The President's commitment to ``Mission Innovation'' and to 
new funding for a wide range of research, development, and deployment 
activities is significant and impressive.
    How will ``Mission Innovation'' and other cross-cutting U.S. 
programs be implemented to maximize the public's investment, and what 
effect will Mission Innovation have on U.S. leadership in energy 
efficiency and clean energy?
    Answer. Mission Innovation is a government-wide effort and will be 
coordinated and executed as such to help maximize investment and 
effectiveness. Within DOE specifically, Mission Innovation will build 
on the Department's track record of success in developing and 
implementing clean energy research, development and demonstration 
(RD&D) programs. With its world-leading national laboratories and 
through its current role as the international secretariat for Mission 
Innovation collaboration, the Department has a strong foundation on 
which to build its portfolio to help address domestic and global 
opportunities and challenges.
    Over the next two decades, the global clean energy market will come 
to be measured in trillions of dollars, and the U.S. has the tools, the 
talent and the industry to lead this revolution. However, other nations 
are making substantial progress as well, spurred by the combined 
motivations of addressing climate imperatives and winning market share 
in the emerging clean energy economy. Supporting a government-wide 5-
year doubling path for clean energy RD&D funding is critical to ensure 
the Nation's continued leadership in clean energy technology 
development and to keep the U.S. on the cutting edge of potential 
breakthrough technology research.
    Question. President Obama has articulated a goal of doubling U.S. 
energy productivity. The Department of Energy, under your leadership, 
is working to implement policies that will put the U.S. on track to 
meet this goal.
    What is the current status of U.S. efforts to meet this goal, and 
are there any priority actions Congress should be considering that 
would push the U.S. further along its path to meet this goal?
    Answer. In response to the President's goal, the Department 
partnered with the Council on Competitiveness and the Alliance to Save 
Energy (the Partners) to launch the Accelerate Energy Productivity 2030 
Initiative in the fall of 2014. Since the launch, the effort has 
further built awareness and engagement around the President's goal by 
showcasing business and policy strategies within the private sector and 
all levels of government that are driving improvements in energy 
productivity across economic sectors. The Partners led five events and 
a webinar series, collected 11 ``Success Stories,'' and have received 
endorsements for the goal from over one hundred and thirty 
organizations to date. The Partners also released a strategic Roadmap 
(http://www.energy2030.org/roadmap) outlining a set of pathways and 
identifying specific actions that a broad range of stakeholders can 
take to help us achieve the national goal of doubling energy 
productivity by 2030. Moving forward, the initiative will focus on 
operationalizing strategies included in the Roadmap, connecting 
stakeholders with technical assistance resources, and hosting an 
executive roundtable. These efforts will further help identify emerging 
strategies and ultimately inform sound policy that will bolster energy 
productivity in the United States.
    Between 1990 and 2015, the Energy Information Administration 
reports U.S. energy productivity rose by 58 percent. Current efforts 
must accelerate substantially, however, to push the U.S. further along 
its path to meet the goal of further doubling energy productivity by 
2030. Congressional support for the President's Budget Request for 
programs directed at improved energy efficiency will help us build on 
the progress already being made in this area.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
              iran and international atomic energy agency
    Question. When I visited the IAEA in January, I was told that the 
agency needs a ``reliable, long-term'' source of funding to implement 
the JCPOA and accomplish broader non-proliferation goals. A recent GAO 
report said the IAEA faces potential budget and human resource 
challenges as a result of the JCPOA. Can you describe how the DOE is 
helping the IAEA overcome these challenges? How do our National Labs 
assist the IAEA's recruiting and hiring, which I understand is a very 
long and expensive process?
    Answer. The Department of Energy (DOE) provides technical support 
to the International Atomic Energy Agency (IAEA) and voluntary 
financial contributions to the IAEA through reimbursable work 
agreements with the Department of State in support of the IAEA's 
safeguards mission. With these financial contributions, the IAEA is 
able to hire Americans into cost-free positions for 3-5 year 
assignments in the IAEA's Department of Safeguards supporting 
technology development and evaluation activities, software development 
and analysis positions, as well as IAEA training programs. The IAEA 
also can purchase needed safeguards monitoring equipment with these 
funds. In-kind technical support includes development of safeguards 
technology and concepts, periodic expert consultations, training 
support for IAEA inspectors, and analysis of samples through the IAEA's 
Network of Analytical Laboratories.
    DOE also maintains a program of safeguards human capital 
development activities at our National Laboratories to attract, train, 
and retain experts in nonproliferation and IAEA safeguards efforts. 
This program brings undergraduate and graduate students into the 
laboratories on internships and fellowships and sends laboratory 
specialists out into the university environment to give seminars and 
training classes. The over-arching goal of this program is to ensure 
that there is a pipeline of talented individuals working within the DOE 
complex to support the IAEA; in many cases these individuals take up 
short-term or permanent positions directly with the IAEA.
    As mentioned above, DOE works to ensure there is a pipeline of 
capable safeguards practitioners in the National Laboratory system. In 
support of sending as many of these individuals as practical to Vienna 
to work with the IAEA, DOE and the Department of State provide funding 
to the IAEA to hire our laboratory experts on 3-5 year assignments 
throughout the Department of Safeguards. Brookhaven National Laboratory 
maintains a recruitment list of prospective applicants from the 
laboratory and university systems and ensures that those individuals 
are regularly made aware of employment opportunities.
    Question. Ali Akbar Salehi, head of the Atomic Energy Organization 
of Iran, reportedly announced that Iran will use part of its sanctions 
relief to hire and train a new generation of nuclear scientists. How 
will this training affect Iran's nuclear program in the next 15 years? 
How will an increased number of highly-trained nuclear scientists allow 
Iran to expand its nuclear program after much of the JCPOA ``sunsets'' 
in 15 years?
    Answer. The Joint Comprehensive Plan of Action (JCPOA) 
significantly constrains the research and development that Iran's 
nuclear scientists can pursue. At the same time, the JCPOA redesigns 
and dismantles a significant portion of Iran's infrastructure, 
effectively cutting off Iran's pathways to a nuclear weapon.
    Without the JCPOA, Iran would have an unconstrained R&D program. 
The JCPOA establishes strict limits on advanced centrifuge R&D, 
testing, and deployment in the first 10 years, and after the initial 10 
year period Iran must abide by its enrichment and enrichment R&D plan 
submitted to the IAEA under the Additional Protocol, and pursuant to 
the JCPOA, which will result in certain limitations on enrichment 
capacity and ensure only a measured, incremental growth in its 
enrichment capacity consistent with a peaceful nuclear program.
    The JCPOA in no way authorizes, allows, or encourages future 
Iranian nuclear weapons activity, which will always be prohibited under 
the Treaty on the Non-Proliferation of Nuclear Weapons. Instead, the 
JCPOA provides unparalleled insight into every part of Iran's nuclear 
program. Certain transparency measures will last for 15 years, others 
for 20 to 25 years, and some will last forever--such as Iran's 
adherence to the Additional Protocol. With this transparency, if Iran 
tried to reverse course and break out, we would see it and have time to 
respond with a much greater understanding of their program.
    We expect a gradual development process to take place with respect 
to Iran's nuclear program past year 10. We expect this process to be 
shaped in such a way that it continues to build the world's confidence 
that Iran's program remains exclusively peaceful.
    Certain transparency measures will last for 15 years, others for 20 
to 25 years, and some will last forever--such as Iran's adherence to 
the Additional Protocol. With this transparency, if Iran tried to 
reverse course and break out, we would see it and have time to respond 
with a much greater understanding of their program.

                          SUBCOMMITTEE RECESS

    Senator Alexander. Mr. Secretary, thank you for joining us 
today. The subcommittee will stand adjourned.
    [Whereupon, at 4:20 p.m., Wednesday, March 9, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
